APPENDIX

1a

APPENDIX A

United States Court of Appeals, Ninth Circuit
Aileen RIZO, Plaintiff-Appellee,
v.
Jim YOVINO, Fresno County Superintendent of
Schools, Erroneously Sued Herein as Fresno County
Office of Education, Defendant-Appellant.
No. 16-15372
|
Resubmitted En Banc September 24, 2019* San
Francisco, California
|
Filed February 27, 2020
OPINION
CHRISTEN, Circuit Judge:
In 1963, Congress enacted the Equal Pay Act with a
mandate as simple as it was profound: equal pay for
equal work. The question we consider today is
whether Aileen Rizo’s prior rate of pay is a “factor
other than sex” that allows Fresno County’s Office of
Education to pay her less than male employees who
perform the same work. 29 U.S.C. § 206(d)(1)(iv). We
conclude it is not.

*

The panel unanimously concluded this case was suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

2a
Congress enacted the Equal Pay Act (EPA) to
combat pay disparities caused by sex discrimination,
but it allowed employers to justify different pay for
employees of the opposite sex based on three
enumerated affirmative defenses, or “any other factor
other than sex.” Id. (emphasis added). Contrary to
Fresno County’s argument, we conclude that only jobrelated factors may serve as affirmative defenses to
EPA claims.
The express purpose of the Act was to eradicate the
practice of paying women less simply because they are
women. Allowing employers to escape liability by
relying on employees’ prior pay would defeat the
purpose of the Act and perpetuate the very
discrimination the EPA aims to eliminate.
Accordingly, we hold that an employee’s prior pay
cannot serve as an affirmative defense to a prima facie
showing of an EPA violation.
I. Background
The Fresno County Office of Education hired Aileen
Rizo as a math consultant in October 2009. She held
two master’s degrees when she was hired: one in
educational technology and one in mathematics
education. She began teaching middle and high school
math in 1996. Her employment experience included
three years as head of the math department for an
online school and designer of the school’s math
curriculum. Rizo worked at this position while
earning her first master’s degree. She taught middle
school math for six more years, and then she was hired
by Fresno County.
The County set its new employees’ salaries
according to a pay schedule governed by Standard

3a
Operating Procedure 1440 (SOP 1440). The schedule
designated 12 salary levels. Each level corresponded
to different job classifications and had up to 10 steps.
To calculate a new employee’s pay, the County started
with the employee’s prior wages, increased the wages
by 5%, and placed the employee at the corresponding
step on its pay schedule. Rizo’s prior employer paid
her $50,630 for 206 days of work, plus an additional
$1,200 because she had a master’s degree. Based on
her prior wages, the County placed Rizo at Step 1,
Level 1 on its pay schedule. Her starting wage at
Fresno County was $62,133 for 196 days of work, plus
an additional $600 for holding a master’s degree.
While having lunch with colleagues in 2012, Rizo
learned that a newly hired male math consultant had
been placed at Level 1, Step 9. That put the new
consultant’s starting pay at $79,088, significantly
more than Rizo was paid after working three years for
the County. Rizo realized that she was the only female
math consultant at Fresno County, and that all of her
male colleagues were paid more than she was, even
though she had more education and experience. She
expressed concern about this pay disparity to the
Human Resources department, and an administrator
gave her a copy of SOP 1440. The administrator
assured Rizo that the policy was applied across the
board, regardless of the employee’s sex.
In February 2014, Rizo filed a complaint in Fresno
County Superior Court against the Superintendent of
Fresno County’s Office of Education.1 The complaint
1

Because Yovino is sued in his official capacity as
Superintendent, we refer to the appellant as “Fresno County” or
“the County” throughout this opinion.

4a
alleged that the County violated the Equal Pay Act, 29
U.S.C. § 206(d), and included claims for sex
discrimination under Title VII of the Civil Rights Act
of 1964, 42 U.S.C. § 2000e et seq.; sex discrimination
under California’s Fair Employment and Housing Act,
§ 12940(a); and failure to prevent discrimination
under California’s Fair Employment and Housing Act,
§ 12940(k).
Fresno County removed the complaint to the United
States District Court for the Eastern District of
California, and in June 2015 it moved for summary
judgment. The County’s motion did not contest that
Rizo was paid less than her male counterparts or that
Rizo established a prima facie EPA violation. Instead,
the County argued that Rizo’s pay was the result of
SOP 1440, and that this pay policy, which was based
solely on its employees’ prior pay, was a “factor other
than sex” that defeated Rizo’s EPA claim.
In the district court, both parties argued that Kouba
v. Allstate Insurance Co., 691 F.2d 873 (9th Cir. 1982),
supported their positions. Kouba considered whether
an employee’s prior pay, in combination with other
factors, justified a pay differential between two
workers of the opposite sex. Id. at 875. We held that
the EPA “does not impose a strict prohibition against
the use of prior salary,” so long as employers consider
prior pay “reasonably” to advance “an acceptable
business reason.” Id. at 876–77, 878. The district
court concluded that Kouba did not resolve whether
the pay disparity in Rizo’s case violated the EPA
because the differential resulted solely from Rizo’s
prior rate of pay, not from her prior pay in combination
with other factors. See Rizo v. Yovino, No. 1:14-cv0423-MJS, 2015 WL 13236875, 2015 U.S. Dist. LEXIS

5a
163849 (E.D. Cal. Dec. 4, 2015). The court held that
“a pay structure based exclusively on prior wages is so
inherently fraught with the risk—indeed, here, the
virtual certainty—that it will perpetuate a
discriminatory wage disparity between men and
women that it cannot stand, even if motivated by a
legitimate non-discriminatory business purpose.” Id.
at *9, 2015 U.S. Dist. LEXIS 163849 at *26. The court
concluded that the County’s “SOP 1440 necessarily
and unavoidably conflicts with” the EPA, and it denied
the County’s motion for summary judgment. Id.
The district court certified its order for interlocutory
appeal pursuant to 28 U.S.C. § 1292(b). A three-judge
panel reversed and held that the district court was
bound by Kouba. See Rizo v. Yovino, 854 F.3d 1161
(9th Cir. 2017), reh’g en banc granted, 869 F.3d 1004
(9th Cir. 2017). A majority of the active members of
our court voted to hear the County’s appeal en banc,
see Rizo v. Yovino, 869 F.3d 1004 (9th Cir. 2017), and
the en banc court issued an opinion on April 9, 2018.
See Rizo v. Yovino, 887 2020 WL 946053, 20 Cal. Daily
Op. Serv. 1776 F.3d 453 (9th Cir. 2018). The Supreme
Court subsequently vacated our decision on a
The parties submitted
procedural issue.2
2

The author of the majority opinion, Judge Stephen
Reinhardt, died eleven days before the en banc opinion issued.
Fresno County petitioned for certiorari on the merits and also
argued the opinion should not have been issued after Judge
Reinhardt died. See Pet. for Writ of Cert., Yovino v. Rizo, ––– U.S.
––––, 139 S. Ct. 706, 203 L.Ed.2d 38 (2019) (per curiam). The
Supreme Court granted the petition and held that it was error to
issue the opinion after Judge Reinhardt’s death. Yovino, 139 S.
Ct. at 710. On remand from the Supreme Court, another judge
was selected at random to participate on the en banc panel.

6a
supplemental briefing after the case was remanded
from the Supreme Court, and we reconsidered the
County’s appeal. We have jurisdiction pursuant to 28
U.S.C. § 1292(b), and we affirm the district court’s
order denying the County’s motion for summary
judgment.
II. Standard of Review
We review the district court’s order denying
summary judgment de novo. See Evon v. Law Offices
of Sidney Mickell, 688 F.3d 1015, 1023 (9th Cir. 2012).
“We adopt the same standard used by the district court
and ‘view the evidence in the light most favorable to
the nonmoving party, determine whether there are
any genuine issues of material fact, and decide
whether the district court correctly applied the
relevant substantive law.’” Booth v. United States, 914
F.3d 1199, 1203 (9th Cir. 2019) (quoting Animal Legal
Def. Fund v. U.S. Food & Drug Admin., 836 F.3d 987,
989 (9th Cir. 2016)).
III. Discussion
We took this case en banc to reconsider Kouba‘s rule
that prior pay can qualify as an affirmative defense to
an EPA claim if the employer considers prior pay in
combination with other factors and uses it reasonably
to effectuate a business policy. On appeal, the County
contends that its policy of setting employees’ wages
based on their prior pay is premised on a factor other
than sex. Therefore, the County argues, its use of
prior pay is a valid affirmative defense. The County
concedes that it has no other defense to Rizo’s claim.
Rizo responds that the use of prior pay to set
prospective wages, by its nature, would perpetuate the
gender-based pay gap indefinitely. She argues that

7a
because Congress aimed to eliminate deeply rooted
pay discrimination between male and female
employees who perform the same work, employers are
not allowed to rely on prior pay to justify wage
disparities for employees of the opposite sex. We agree
with Rizo.
The Equal Pay Act was enacted as an amendment
to the Fair Labor Standards Act. See Corning Glass
Works v. Brennan, 417 U.S. 188, 190, 94 S.Ct. 2223, 41
L.Ed.2d 1 (1974). In Corning Glass, the Supreme
Court observed, “Congress’ purpose in enacting the
Equal Pay Act was to remedy what was perceived to
be a serious and endemic problem of employment
discrimination in private industry.” Id. at 195, 94
S.Ct. 2223. The EPA was described as “a very simple
piece of legislation” establishing that “equal work will
be rewarded by equal wages.” S. Rep. No. 88-176, at 1
(1963); Equal Pay Act of 1963, S. Comm. on Labor,
88th Cong. 12 (1963) (statement of Sen. Clifford P.
Case). The EPA provides:
No employer ... shall discriminate ... between
employees on the basis of sex by paying wages to
employees ... at a rate less than the rate at which
he pays wages to employees of the opposite sex ...
for equal work on jobs the performance of which
requires equal skill, effort, and responsibility,
and which are performed under similar working
conditions ....
29 U.S.C. § 206(d)(1). The statute identifies four
exceptions to its equal-pay mandate:
except where such payment is made pursuant to
(i) a seniority system; (ii) a merit system; (iii) a
system which measures earnings by quantity or

8a
quality of production; or (iv) a differential based
on any other factor other than sex ….”
Id. (emphasis added).
The EPA’s four exceptions operate as affirmative
defenses. Corning Glass, 417 U.S. at 196–97, 94 S.Ct.
2223; Kouba, 691 F.2d at 875. As the Supreme Court
has explained, the Act’s structure is straightforward.
Corning Glass, 417 U.S. at 195, 94 S.Ct. 2223. An
employee bears the burden of establishing a prima
facie case of wage discrimination by showing that “the
employer pays different wages to employees of the
opposite sex for substantially equal work.” Maxwell v.
City of Tucson, 803 F.2d 444, 446 (9th Cir. 1986). If
the plaintiff puts forth a prima facie case of an EPA
violation, “the burden shifts to the employer to show
that the differential is justified under one of the Act’s
four exceptions.” Corning Glass, 417 U.S. at 196, 94
S.Ct. 2223. To counter a prima facie case, an employer
must prove “not simply that the employer’s proffered
reasons could explain the wage disparity, but that the
proffered reasons do in fact explain the wage
disparity.” EEOC v. Md. Ins. Admin., 879 F.3d 114,
121 (4th Cir. 2018) (emphasis in original) (citing
Stanziale v. Jargowsky, 200 F.3d 101, 107–08 (3d Cir.
2000)); see also Mickelson v. N.Y. Life Ins. Co., 460
F.3d 1304, 1312 (10th Cir. 2006).
A wage differential arose in Corning Glass because
male employees were not willing to work for the low
wages paid to women. Corning Glass rejected what
was later called the “market force theory,” holding
that the EPA did not permit Corning Glass to pay
women less simply because they were willing to work
for less. See 417 U.S. at 205, 94 S.Ct. 2223. The Court

9a
explained that although it may have been
“understandable as a matter of economics” that the
company took advantage of these market conditions,
“its [wage] differential nevertheless became illegal
once Congress enacted into law the principle of equal
pay for equal work.” Id.
Unlike Title VII, the EPA does not require proof of
discriminatory intent. See Ledbetter v. Goodyear Tire
& Rubber Co., 550 U.S. 618, 640, 127 S.Ct. 2162, 167
L.Ed.2d 982 (2007) (stating that “the EPA and Title
VII are not the same,” in part because “the EPA does
not require proof of intentional discrimination”),
superseded by statute, Lilly Ledbetter Fair Pay Act,
Pub. L. No. 111-2, 123 Stat. 5 (2009); Maxwell, 803
F.2d at 446 (observing the EPA “creates a type of strict
liability” and “no intent to discriminate need be
shown”). For that reason, the familiar three-step
McDonnell Douglas framework that applies to Title
VII claims is not used in EPA cases. See Corning
Glass, 417 U.S. at 195–96, 94 S.Ct. 2223; see also 6
Larson on Emp’t Discrimination § 108.10 (2019)
(“Note that the McDonnell [Douglas]-Burdine burdenshifting framework does not apply to Equal Pay Act
discrimination claims, since there is no need for the
EPA plaintiff to show discriminatory animus.”); 1 SexBased Emp’t Discrimination § 7:1 (Oct. 2019) (citing
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93
S.Ct. 1817, 36 L.Ed.2d 668 (1973)).
The EEOC’s amicus brief observes that some of our
prior case law “could be read to blur the line between
Title VII and the EPA” by incorrectly suggesting that
the third step of the McDonnell Douglas test applies to
EPA claims. We agree that our case law has confused
this point. Likely because of dicta in our previous

10a
cases,3 the district court suggested that Rizo would
bear the burden of showing pretext if the County
demonstrated that a factor other than sex accounted
for Rizo’s pay. This is not correct. To clear up any
confusion, we reiterate that EPA claims do not require
proof of discriminatory intent. See Maxwell, 803 F.2d
at 446; see also Ledbetter, 550 U.S. at 640, 127 S.Ct.
2162. EPA claims have just two steps: (1) the plaintiff
bears the burden to establish a prima facie showing of
a sex-based wage differential; (2) if the plaintiff is
successful, the burden shifts to the employer to show
an affirmative defense. No showing of pretext is
required.4

3

See, e.g., Stanley v. Univ. of S. Cal., 178 F.3d 1069, 1076 (9th
Cir. 1999) (suggesting that the EPA plaintiff bore the burden of
demonstrating a material factual dispute regarding pretext in
order to survive summary judgment); see also Maxwell, 803 F.2d
at 446.
4

Accord Md. Ins. Admin., 879 F.3d at 120 n.6 (“The EPA
burden-shifting framework is distinct from the McDonnell
Douglas burden-shifting framework that we apply when
reviewing claims brought under Title VII.”); Taylor v. White, 321
F.3d 710, 716 (8th Cir. 2003) (the EPA’s “analytical framework
differs from the [McDonnell Douglas] burden shifting analysis”);
Stanziale, 200 F.3d at 107 (“[C]laims based upon the Equal Pay
Act do not follow the three-step burden-shifting framework of
[McDonnell Douglas]; rather, they follow a two-step burdenshifting paradigm.” (internal citation omitted)); see also Buntin
v. Breathitt Cty. Bd. of Educ., 134 F.3d 796, 799 & n.6 (6th Cir.
1998); McMillan v. Mass. SPCA, 140 F.3d 288, 298 (1st Cir. 1998).
But see Wernsing v. Dep’t of Human Servs., 427 F.3d 466, 469 (7th
Cir. 2005); Irby v. Bittick, 44 F.3d 949, 954 (11th Cir. 1995)
(applying the McDonnell Douglas framework to an EPA claim
and requiring “the plaintiff must rebut the explanation [for the
differential] by showing with affirmative evidence that it is

11a
A.
This appeal requires that we consider the scope of
the EPA’s fourth exception. The County contends that
the fourth exception allows any factor that is not sex
itself to serve as an affirmative defense. We conclude
otherwise. As we recognized in Kouba, and as the
Second, Fourth, Sixth, Tenth, and Eleventh Circuits
have ruled, the scope of the fourth exception is limited.
See Kouba, 691 F.2d at 876; see also Md. Ins. Admin.,
879 F.3d at 122–23; Riser v. QEP Energy, 776 F.3d
1191, 1198 (10th Cir. 2015); Aldrich v. Randolph Cent.
Sch. Dist., 963 F.2d 520, 525 (2d Cir. 1992); Glenn v.
Gen. Motors Corp., 841 F.2d 1567, 1570–71 (11th Cir.
1988); EEOC v. J.C. Penney Co., Inc., 843 F.2d 249,
253 (6th Cir. 1988) (“[T]he ‘factor other than sex’
defense does not include literally any other factor “).
Based on the text and purpose of the Act, we conclude
that the fourth affirmative defense comprises only jobrelated factors, not sex.
To define the scope of the EPA’s fourth exception,
we begin with the language of the statute and apply
familiar principles of statutory construction. Congress
first defined the protection afforded by the statute in
job-related terms—equal pay for “equal work on jobs
the performance of which requires equal skill, effort,
and responsibility, and which are performed under
similar working conditions.” 29 U.S.C. § 206(d)(1). It
then specifically enumerated three exceptions to the
prohibition of sex-based distinctions for such work, but
described the fourth generally as “any other factor
other than sex.” The fourth exception is often
pretextual or offered as a post-event justification for a genderbased differential.”).

12a
shortened to “any factor other than sex,” but here we
are called upon to define its precise contours and we
examine every word: “any other factor other than sex.”
Id. § 206(d)(1)(iv) (emphasis added). Giving meaning
to each word by its context, the phrase “any other
factor other than sex” requires that the fourth
exception be read in relation to the three exceptions
that precede it, as well as in relation to the “equal
work” principle to which it is an exception. See
Antonin Scalia & Bryan A. Garner, Reading Law: The
Interpretation of Legal Texts 56 (2012); see also
William N. Eskridge Jr., Interpreting Law: A Primer
on How to Read Statutes and the Constitution 113
(2016). If any factor other than sex could defeat an
EPA claim, the first “other” in the phrase “any other
factor other than sex” would be rendered meaningless,
as would the three enumerated exceptions. See
Norman J. Singer & Shambie Singer, 2A Sutherland
Statutory Construction § 46:6 (7th ed.) (“It is an
elementary rule of construction that effect must be
given, if possible, to every word, clause and sentence
of a statute.”).
Because the three enumerated
exceptions are all job-related, and the elements of the
“equal work” principle are job-related, Congress’ use of
the phrase “any other factor other than sex” (emphasis
added) signals that the fourth exception is also limited
to job-related factors.
Other well-settled rules of statutory construction
reinforce the conclusion that the fourth affirmative
defense includes factors of the same type as the ones
Congress specifically identified. The first is the
noscitur a sociis canon—a word is known by the
company it keeps. See Sutherland, § 47:16 (“[A] word
is given more precise content by the neighboring words

13a
with which it is associated.”). This rule provides that
words grouped together should be given similar or
related meaning to avoid “giving unintended breadth
to the Acts of Congress.” See, e.g., Yates v. United
States, 574 U.S. 528, 135 S. Ct. 1074, 1085, 191
L.Ed.2d 64 (2015) (plurality opinion) (quoting
Gustafson v. Alloyd Co., 513 U.S. 561, 575, 115 S.Ct.
1061, 131 L.Ed.2d 1 (1995)). In the EPA, the first
three exceptions—seniority systems, merit systems,
and productivity systems—relate to job experience, job
qualifications, and job performance. Because the
enumerated exceptions are all job-related, the more
general exception that follows them refers to jobrelated factors too.5 See, e.g., Eskridge at 77.
Relatedly, the EPA’s list of specific exceptions is
followed by a general exception and this calls for
application of the ejusdem generis canon. See Epic Sys.
Corp. v. Lewis, ––– U.S. ––––, 138 S. Ct. 1612, 1625,
200 L.Ed.2d 889 (2018) (“[W]here ... a more general
term follows more specific terms in a list, the general
term is usually understood to ‘embrace only objects
similar in nature to those objects enumerated by the
preceding specific words.’ “) (quoting Circuit City
Stores, Inc. v. Adams, 532 U.S. 105, 115, 121 S.Ct.
1302, 149 L.Ed.2d 234 (2001)). The ejusdem generis
canon provides that the EPA’s three specific
exceptions cabin the scope of the general exception.
See Sutherland, § 47:17. “The principle of ejusdem
generis essentially ... implies the addition of similar
after the word other.” Scalia & Garner at 199
(emphasis in original). Thus, “any other factor other
5

Contrary to our concurring colleague’s assertion, seniority
systems reward job experience and are plainly job-related.

14a
than sex” implicitly refers to “any other similar factor
other than sex.” See Circuit City, 532 U.S. at 114–15,
121 S.Ct. 1302 (holding that the phrase “any other
class of workers engaged in ... commerce,” following
the specific examples of seamen and railroad
employees, includes only “transportation workers,”
because construing it to include all other workers
“fails to give independent effect to the statute’s
enumeration of the specific categories of workers” that
precede it).
Applying the ejusdem generis canon to the EPA’s
fourth exception, we consider the scope of the category
implied by the three enumerated exceptions and “ask
what category would come into the reasonable person’s
mind.” Scalia & Garner at 208; see also Eskridge at
78. Here, the obvious category is job-relatedness.
Because all of the enumerated exceptions are jobrelated, the general exception that follows—”any other
factor other than sex”—is limited to job-related
factors.
B.
As the Supreme Court did in Corning Glass, we also
look to the EPA’s history and purpose. 417 U.S. at 195,
94 S.Ct. 2223. Both confirm the scope of the Act’s
fourth exception.
The Supreme Court emphasized in Corning Glass
that the EPA was intended to address “the fact that
the wage structure of ‘many segments of American
industry [had] been based on an ancient but outmoded
belief that a man, because of his role in society, should
be paid more than a woman even though his duties are
the same.’ “ Id. (quoting S. Rep. No. 88-176, at 1). The
problem of wage discrimination was “overwhelmingly

15a
apparent” to Congress when it passed the EPA in
1963. S. Rep. No. 88-176, at 3. Congress heard
testimony that women in the workplace were no longer
a novelty. One in three workers were women, yet sexbased wage discrimination remained overt and widely
accepted. President’s Comm’n on the Status of
Women, American Women, at 27 (1963).6 Among other
things, Congress considered a survey of 1,900
employers that showed one in three used entirely
separate pay scales for female employees who
performed similar jobs to male employees.7 Congress
also considered that, in 1963, American women could
expect to earn only about 60% of the wages paid to
their male colleagues. Id.
The County’s suggestion that the EPA’s legislative
history supports an expansive reading of the fourth
exception is unavailing. The House Report provided
several examples that it anticipated would qualify as
exceptions to the equal pay mandate, and all were job
related: shift differentials, differences based on time
of day worked, hours of work, lifting or moving heavy
6 Available at https://www.dol.gov/wb/American%20Women%20Report.pdf; see also Staff of H. Comm. on Educ. & Labor,
88th Cong., Legis. Hist. of the Equal Pay Act of 1963 4, 27 (Comm.
Print 1963); Equal Pay Act of 1963: Hearings on S. 882 and S.
910 Before the Subcomm. on Labor of the S. Comm. on Labor &
Pub. Welfare, 88th Cong. 13–14 (1963) (statement of Sen.
Maurine B. Neuberger); id. at 16 (statement of W. Willard Wirtz,
Sec’y of Labor).
7

See 109 Cong. Rec. 8688 (1963) (statement of Rep. Edith
Green); Equal Pay Act of 1963: Hearings on S. 882 and S. 910
Before the Subcomm. on Labor of the S. Comm. on Labor & Pub.
Welfare, 88th Cong. 14 (1963) (statement of Sen. Maurine B.
Neuberger).

16a
objects, and differences based on experience, training,
or ability. H.R. Rep. No. 88-309, at 3 (1963); see also
109 Cong. Rec. 8683 (1963) (statement of Rep. Adam
Powell) (rejecting “[t]he payment of wages on a basis
other than that of the job performed”); id. at 8694
(statement of Rep. Edith Green) (speaking against a
proposal to allow higher wages for heads of household
with more dependents, because “[t]his [Act] is based
on merit, on work that is performed, rather than on
other factors”).
The equal-pay-for-equal-work
mandate would mean little if employers were free to
justify paying an employee of one sex less than an
employee of the opposite sex for reasons unrelated to
their jobs. See, e.g., Scalia & Garner at 20 (“The
evident purpose of what a text seeks to achieve is an
essential element of context that gives meaning to
words.”); see also Dig. Realty Tr., Inc. v. Somers, –––
U.S. ––––, 138 S. Ct. 767, 777, 200 L.Ed.2d 15 (2018)
(explaining that the relevant statute’s “purpose and
design corroborate ... comprehension” of a specific
provision).
C.
Other circuits agree that only job-related factors
provide affirmative defenses to EPA claims. In
Aldrich v. Randolph Central School District, the
Second Circuit reasoned, “[w]ithout a job-relatedness
requirement, the factor-other-than-sex defense would
provide a gaping loophole in the statute through which
many pretexts for discrimination would be
sanctioned.” 963 F.2d at 525; see also Tomka v. Seiler
Corp., 66 F.3d 1295, 1312 (2d Cir. 1995), abrogated on
other grounds by Burlington Indus., Inc. v. Ellerth, 524
U.S. 742, 118 S.Ct. 2257, 141 L.Ed.2d 633 (1998).

17a
The Fourth and Tenth Circuits followed the Second
Circuit’s lead. Both have ruled that pay classification
systems must be rooted in legitimate differences in
responsibilities or qualifications for specific jobs. See
Md. Ins. Admin., 879 F.3d at 123 (“[W]hile MIA uses a
facially gender-neutral compensation system, MIA
still must present evidence that the job-related
distinctions underlying the salary plan ... in fact
motivated MIA to place the claimants and the
comparators on different steps of the pay scale at
different starting salaries.” (first emphasis added));
Riser, 776 F.3d at 1198; see also Balmer v. HCA, Inc.,
423 F.3d 606, 612 (6th Cir. 2005), abrogated on other
grounds by Fox v. Vice, 563 U.S. 826, 131 S.Ct. 2205,
180 L.Ed.2d 45 (2011).
Only the Seventh Circuit has held that the scope of
the fourth exception “embraces an almost limitless
number of factors, so long as they do not involve sex.”
Fallon v. Illinois, 882 F.2d 1206, 1211 (7th Cir. 1989).
The Seventh Circuit has not required that those
factors be related “to the requirements of the
particular position in question.” Id. The Seventh
Circuit’s opinion is an outlier, and we cannot reconcile
it with either well-settled rules of statutory
construction or the “broadly remedial” purpose of the
EPA. See Corning Glass, 417 U.S. at 208, 94 S.Ct.
2223.
The Eighth Circuit has not established a bright-line
rule defining factors other than sex. It requires a caseby-case analysis of the proffered factor to “preserve[ ]
the business freedoms Congress intended to protect.”
Taylor v. White, 321 F.3d 710, 720 (8th Cir. 2003). We
are not persuaded to follow this approach because
“business freedoms” is broad enough to accommodate

18a
circumstances that run afoul of the Supreme Court’s
admonition in Corning Glass that market forces
cannot justify unequal pay for comparable work.
A significant majority of the circuit courts agree
that the scope of the EPA’s fourth exception is not
unlimited. Rather, the text of the Act and canons of
construction, and the EPA’s history and clear purpose,
all point to the conclusion that the fourth exception is
limited to job-related factors only.
D.
Having determined that the fourth affirmative
defense encompasses only job-related factors other
than sex, we next consider whether prior pay qualifies
as a job-related factor that can defeat a prima facie
EPA claim. The answer to this question is compelled
by the EPA’s narrow focus on the purest form of sexbased wage discrimination and the statute’s two-step
framework. Prior pay—pay received for a different
job—is necessarily not a factor related to the job for
which an EPA plaintiff must demonstrate unequal pay
for equal work.
In 1963, Congress not only knew that wages earned
by America’s workforce were infused with the legacy
of sex discrimination, that legacy motivated Congress
to act. See, e.g., S. Rep. No. 88-176, at 2–3. The
Assistant Secretary of Labor testified that women on
average earned only about 59% of what their male
colleagues earned,8 but Congress recognized that

8

Equal Pay Act of 1963: Hearings on S. 882 and S. 910 Before
the Subcomm. on Labor of the S. Comm. on Labor & Pub. Welfare,
88th Cong. 68 (1963) (statement of Esther Peterson, Assistant
Sec’y of Labor).

19a
America’s pay gap was not entirely attributable to sexbased wage discrimination. The gap was also due to
circumstances that caused women to be less prepared
to enter the workforce, such as fewer opportunities for
training, education, skills development, and
experience. See Kouba, 691 F.2d at 876. Though
Congress knew the cause of America’s earnings gap
was multi-factorial, it kept its solution simple.9 The
EPA did not raise women’s wages nor create remedial
education or training opportunities. The Act’s limited
goal was to eliminate only the purest form of sex-based
wage discrimination: paying women less because they
are women.
The precise and focused goal of the EPA is evidenced
by the exceptions built into it that expressly allow
employers to pay different wages to employees of the
opposite sex if the differences are caused by job-related
factors other than sex. H.R. Rep. No. 88-309, at 3. As
the Supreme Court explained in County of Washington
v. Gunther, the EPA’s fourth exception was intended
“to confine the application of the Act to wage
differentials attributable to sex discrimination.” 452
U.S. 161, 170, 101 S.Ct. 2242, 68 L.Ed.2d 751 (1981).
The EPA’s limited aim at just one of the many causes
of the wage gap reinforces our conclusion that allowing
prior pay to serve as an affirmative defense would
undermine the Act’s promise of equal pay for equal
work. Our interpretation, that only job-related factors
come within the “any other factor” rubric and do not
9

Equal Pay Act of 1963: Hearings on S. 882 and S. 910 Before
the Subcomm. on Labor of the S. Comm. on Labor & Pub. Welfare,
88th Cong. 68 (1963) (statement of Esther Peterson, Assistant
Sec’y of Labor).

20a
include prior pay, is consistent with the Supreme
Court’s guidance in Corning Glass that “[t]he Equal
Pay Act is broadly remedial, and it should be
construed and applied so as to fulfill the underlying
purposes which Congress sought to achieve.” 417 U.S.
at 208, 94 S.Ct. 2223.
The County argues that Rizo presumes the use of
past wages perpetuates historical pay discrimination,
and that Rizo impermissibly shifts the burden to the
County to disprove the influence of wage
discrimination on her prior pay.
The County’s
argument reflects its confusion about the EPA’s
burden-shifting framework, which we have now
clarified.
We agree the EPA does not require
employers to prove that the wages paid to their
employees at prior jobs were unaffected by wage
discrimination. But if called upon to defend against a
prima facie showing, the EPA requires employers to
demonstrate that only job-related factors, not sex,
caused any wage disparities that exist between
employees of the opposite sex who perform equal work.
Accordingly, what the County considers to be an
impermissible shift is actually the burden-shift
required by the EPA’s two-step framework. After Rizo
established a prima facie showing, the County had the
burden of proving that “sex provide[d] no part of the
basis for the wage differential.” Balmer, 423 F.3d at
612 (quoting Timmer v. Mich. Dep’t of Commerce, 104
F.3d 833, 844 (6th Cir. 1997)) (emphasis in original);
see also Md. Ins. Admin., 879 F.3d at 121 (citing
Stanziale, 200 F.3d at 107–08); Mickelson, 460 F.3d at
1312.
We do not presume that any particular employee’s
prior wages were depressed as a result of sex

21a
discrimination. But the history of pervasive wage
discrimination in the American workforce prevents
prior pay from satisfying the employer’s burden to
show that sex played no role in wage disparities
between employees of the opposite sex. And allowing
prior pay to serve as an affirmative defense would
frustrate the EPA’s purpose as well as its language
and structure by perpetuating sex-based wage
disparities.
We acknowledge that prior pay could be viewed as a
proxy for job-related factors such as education, skills,
or experience related to an employee’s prior job, and
that prior pay can be a function of factors related to an
employee’s prior job. But prior pay itself is not a factor
related to the work an employee is currently
performing, nor is it probative of whether sex played
any role in establishing an employee’s pay. Here, the
County has not explained why or how prior pay is
indicative of Rizo’s ability to perform the job she was
hired to do. An employer may counter a prima facie
EPA claim by pointing to legitimate job-related
factors, if they exist. Accordingly, using the heuristic
of an employee’s prior pay, rather than relying on jobrelated factors actually associated with an employee’s
present position, does not suffice to defeat an EPA
claim.
We agree with Rizo and the EEOC that setting
wages based on prior pay risks perpetuating the
history of sex-based wage discrimination.
The
Supreme Court recognized as much in Corning Glass.
There, the Court held that a sex-based pay disparity
violated the EPA. 417 U.S. at 209–10, 94 S.Ct. 2223.
After Corning Glass administered a uniform wage
increase to the men and women who worked pursuant

22a
to its prior discriminatory pay structure, Corning
Glass argued that the continuing wage differential
was due to a “factor other than sex” because it resulted
from the prior disparity in the employees’ base wages.
Id. The Court ruled that Corning Glass’s across-theboard wage increase did not remedy the EPA violation,
it merely perpetuated the differential. Id.
Hopefully, we have moved past the days when
employers maintained separate pay scales that
explicitly condoned paying women less than men for
comparable work, but the wage gap that so concerned
Congress in 1963 has only narrowed, not closed. The
wage gap persists across nearly all occupations and
industries, regardless of education, experience, or job
title.10 In 2017, women on average earned 82% of
men’s earnings. See U.S. Bureau of Labor Statistics,
Rep. 1075, Highlights of Women’s Earnings in 2017,
1–2 (Aug. 2018).11 These differences are even more
pronounced among women of color. Id. at 3–4.12
10

See U.S. Census Bureau, Women’s Earnings Lower in Most
Occupations
(May
22,
2018),
https://www.census.gov/
library/stories/2018/05/gender-pay-gap-in-finance-sales.html; see
also Inst. for Women’s Pol’y Res., The Gender Wage Gap by
Occupation 2018 and by Race and Ethnicity (April 2, 2019) (citing
U.S. Bureau of Labor Statistics, Current Population Survey
(2018)), https://iwpr.org/wp-content/uploads/2019/04/C480_TheGender-Wage-Gap-by- Occupation-2018-1.pdf.
11

https://www.bls.gov/opub/reports/womens-earnings/2017
/pdf/ home.pdf.
12

See also Nat’l Women’s L. Ctr., The Wage Gap: The Who,
How, Why, and What to Do (Sept. 2019) (citing U.S. Census
Bureau, Current Population Survey, 2019 Ann. Soc. & Econ.
Supp., Table PINC-05), https://nwlc.org/resources/the-wage-gapthe-who-how-why-and-what-todo/.

23a
Women of all races and ethnicities earn less than men
of the same group, id. at 4, and economic literature
suggests that even after accounting for certain
observable characteristics—such as education and
experience—an unexplained disparity largely persists.
See, e.g., Francine D. Blau & Lawrence M. Kahn, The
Gender Wage Gap: Extent, Trends, and Explanations,
55 J. Econ. Literature 789, 790, 852–55 (2017).
To the extent the present-day pay gap is the product
of historical wage discrimination based on sex—rather
than different pay due to unequal qualifications,
effort, productivity, regional cost of living, or other
factors other than sex—the gap is a continuation of the
very discrimination Congress sought to end. In
Kouba, we cautioned that the use of prior pay to defend
against equal- pay violations “can easily be used to
capitalize on the unfairly low salaries historically paid
to women.” 691 F.2d at 876. Other circuits have made
the same observation. See, e.g., Taylor, 321 F.3d at
718 (cautioning that prior pay may be used as “a
means to perpetuate historically lower wages”); Irby v.
Bittick, 44 F.3d 949, 955 (11th Cir. 1995) (stating that
allowing prior pay as an affirmative defense “would
swallow up the rule and inequality in pay among
genders would be perpetuated.”). We agree with
Kouba‘s early warning, and with the observations of
our sister circuits.
The EPA’s fourth exception allows employers to
justify wage disparities between employees of the
opposite sex based on any job-related factor other than
sex. Because prior pay may carry with it the effects of
sex-based pay discrimination, and because sex-based
pay discrimination was the precise target of the EPA,
an employer may not rely on prior pay to meet its

24a
burden of showing that sex played no part in its pay
decision. For purposes of the fourth exception, we
conclude that the wage associated with an employee’s
prior job does not qualify as a factor other than sex
that can defeat a prima facie EPA claim.
E.
Having reconsidered Kouba, we are persuaded that
it must be overruled. Kouba recognized that allowing
prior pay to serve as an affirmative defense to an EPA
claim could perpetuate wage discrimination, but it
ultimately held that the EPA “does not impose a strict
prohibition against the use of prior salary,” so long as
employers considered prior pay reasonably to advance
an acceptable business reason. 691 F.2d at 876–77,
878. Kouba‘s holding that prior pay in combination
with other factors may serve as an affirmative defense
is inconsistent with the EPA’s text, purpose, and
burden-shifting framework for the same reasons the
use of prior pay alone is inconsistent with the EPA’s
text, purpose, and burden-shifting framework. At
best, requiring the use of other factors in combination
with prior pay waters down the influence of whatever
historical wage discrimination remains.
Kouba‘s consideration of whether the employer used
prior pay reasonably is also in tension with the EPA’s
strict liability framework, in which intent to
discriminate plays no role. 691 F.2d at 876. As the
EEOC’s brief diplomatically puts it, our case law
“could be read to blur the line” between the McDonnell
Douglas three-step test for Title VII claims and the
two-step test applicable to the EPA. See Kouba, 691
F.2d at 876, 878; Maxwell, 803 F.2d at 446; Stanley,

25a
178 F.3d at 1076. Having recognized these errors, we
have an obligation to correct our case law.
Finally, Kouba‘s reliance on “business reasons” and
“business policy,” 691 F.2d at 876, provides little
guidance to district courts, and cannot be squared with
the Supreme Court’s rejection of the market force
theory. See Corning Glass, 417 U.S. at 205, 94 S.Ct.
2223. “Business reasons” is a category so capacious
that it can accommodate factors entirely unrelated to
the work employees actually perform. The phrase
sweeps in what Corning Glass described as business
decisions that “may be understandable as a matter of
economics,” but which nonetheless “became illegal
once Congress enacted into law the principle of equal
pay for equal work.” Id. For these reasons, we narrow
our definition of the scope of the fourth exception to
job-related factors other than sex and clarify that prior
pay, alone or in combination with other factors, is not
one of them.13
Despite our concurring colleagues’ agreement that
prior pay alone cannot serve as an affirmative defense
to a prima facie EPA claim, they abruptly shift gears
when it comes to consideration of prior pay in
combination with other factors. For the concurring
13

Some circuits have nominally adopted Kouba‘s “businessrelated” rule, but even these circuits clearly examine the specific
requirements of the job at issue. See Aldrich, 963 F.2d at 525
(explaining that the fourth affirmative defense imposes a “jobrelatedness requirement” and that employers must prove that
the pay differential is “rooted in legitimate business-related
differences in work responsibilities and qualifications for the
particular positions at issue” (emphasis added)); see also Md. Ins.
Admin., 879 F.3d at 123 (following Aldrich); Riser, 776 F.3d at
1198 (same).

26a
members of our panel, prior pay—a factor they agree
risks perpetuating baked-in sex discrimination—
becomes palatable if it is considered along with other
factors. Yet they never explain why this is so.
Some case law from other circuits suggests that
prior pay may serve as an affirmative defense if it is
considered in combination with other factors, but
these cases uniformly rely on those other factors to
excuse wage differentials. See, e.g., Irby, 44 F.3d at
955, 957 (allowing “prior salary and experience” as an
affirmative defense, but relying on the co-employee’s
“[u]nique, long-term experience as an investigator” to
justify a pay difference under the EPA’s “any other
factor other than sex” exception); Balmer, 423 F.3d at
612–13 (allowing consideration of prior pay along with
prior relevant work experience because “[a] wage
differential based on education or experience is a
factor other than sex for purposes of the Equal Pay
Act” and “most importantly, the ultimate decision
maker at [the employer] determined that [the male
employee] had greater relevant industry experience
than Plaintiff.” (emphasis added)); see also Riser, 776
F.3d at 1199 (approving an EPA defense based on an
employee’s
prior
salary,
qualifications,
and
experience). None of these cases suggests that the use
of prior pay is acceptable, so long as it is sufficiently
diluted by other considerations.
Citing these cases, our concurring colleagues insist
that prior pay is a valid affirmative defense if
considered with other factors. But they overlook that
using the proxy of prior pay, rather than relying on the
factors actually related to the job being performed,
adds nothing to the employer’s defense because any
legitimate job-related factors can themselves defeat a

27a
prima facie EPA showing. Nor is it correct to say that
we deepen a circuit split. Only the Seventh Circuit has
conclusively relied on prior pay as an affirmative
defense to a prima facie EPA claim.14 Wernsing, 427
F.3d at 469. Following Kouba, the Sixth, Tenth, and
Eleventh Circuits articulated rules purporting to
allow prior pay to serve as an affirmative defense if
considered with other factors, but they have
substantively relied on the “other factors” to justify the
challenged pay differentials.15
Our holding prevents employers from relying on
prior pay to defeat EPA claims, but the EPA does not
prevent employers from considering prior pay for other
purposes. For example, it is not unusual for employers
and prospective employees to discuss prior pay in the
course of negotiating job offers, and the EPA does not
14

The Fourth Circuit has suggested it may share this view,
but only in dicta. See Spencer v. Virginia State Univ., 919 F.3d
199, 206 (4th Cir. 2019).
15

Our concurring colleagues imply that the EEOC advocates
a rule that allows consideration of prior pay along with other
factors. They rely on a statement from the EEOC Compliance
Manual that prior pay may succeed as an affirmative defense
when “other factors [are] also considered.” See U.S. Equal Emp’t
Opportunity Comm’n, Compliance Manual § 10-IV(F)(2)(g)
(2000). This merely reflects the EEOC’s understanding of current
case law. See id. § 10-II. Setting aside the Supreme Court’s
direction that the Compliance Manual is not entitled to deference,
Ledbetter, 550 U.S. at 642 n.11, 127 S.Ct. 2162, the Compliance
Manual’s sole support for this statement is its citation to our
opinion in Kouba and the Eleventh Circuit’s decision in Irby.
EEOC Compliance Manual § 10-IV(F)(2)(g). But the EEOC urged
us to take this case en banc to reconsider Kouba, which we did,
and for the reasons we explain here, we conclude that neither
Kouba nor Irby can be reconciled with Supreme Court precedent.

28a
prohibit this practice.16 Certainly, our opinion does
not prohibit this practice. But whatever factors an
employer considers, if called upon to defend against a
prima facie showing of sex-based wage discrimination,
the employer must demonstrate that any wage
differential was in fact justified by job-related factors
other than sex. Prior pay, alone or in combination
with other factors, cannot serve as a defense.
The concurring members of our panel repeatedly
incant that our opinion prohibits any consideration of
prior pay. But this is just not so. The disconnect
appears to be the result of overlooking the difference
between considering prior pay when setting a salary—
which the EPA does not address, much less prohibit—
and relying on prior pay to defend an EPA violation.
Our statement that “prior pay, alone or in combination
with other factors, is not [a job-related factor]”
addresses the use of prior pay as an affirmative
defense, not the consideration of prior pay to make a
competitive job offer, to negotiate higher pay, or to set
a salary. And there is no basis for concern that our
opinion will prevent employers from considering prior
pay when employees disclose it.
We recognize there may seem to be tension between
allowing employers to consider prior salary in setting
wages on the one hand, and requiring that they defend
an EPA claim without relying on prior pay on the
other. But this is inherent in the terms of the EPA
itself. The statute places no limit on the factors an
employer may consider in setting employees’ wages,
16

In this way, the EPA is less stringent than California’s pay
privacy law, which does not allow employers to inquire about
prior pay. See Cal. Lab. Code § 432.3.

29a
but it places on employers the burden of
demonstrating that sex played no role in causing wage
differentials. To meet this burden, employers may rely
on any bona fide job-related factor other than sex. But
relying on the heuristic of prior pay, rather than the
actual factors associated with employees’ current
work, risks perpetuating historical sex discrimination.
F.
Applying the rule that only job-related factors
qualify under the EPA’s fourth affirmative defense
and that prior pay is not one of them, resolution of
Rizo’s case is straightforward. The district court ruled
that Rizo satisfied her prima facie burden. Fresno
County relied on Rizo’s prior pay to justify paying her
less than male colleagues who performed the same
work. For the reasons we have explained, Rizo’s prior
wages do not qualify as “any other factor other than
sex,” and the County cannot use this factor to defeat
Rizo’s prima facie case. The County cites no other
reason for paying Rizo less. We therefore affirm the
district court’s order denying Fresno County’s motion
for summary judgment and remand for further
proceedings consistent with this opinion.
AFFIRMED.

30a
McKEOWN, Circuit Judge, with whom Judge
TALLMAN and Judge MURGUIA, Circuit Judges,
join, concurring:
The majority embraces a rule not adopted by any
other circuit—prior salary may never be used, even in
combination with other factors, as a defense under the
Equal Pay Act. The circuits that have considered this
important issue have either outright rejected the
majority’s approach or declined to adopt it. I see no
reason to deepen the circuit split. What’s more, the
majority’s position is at odds with the view of the
Equal
Employment
Opportunity
Commission
(“EEOC”), the agency charged with administering the
Act. And, perhaps most troubling, the majority fails
to account for the realities of today’s dynamic
workforce, choosing instead to view the workplace in a
vacuum. In doing so, it betrays the promise of equal
pay for equal work and disadvantages workers
regardless of gender identity.
I agree with much of the majority opinion—
particularly the observation that past salary can
reflect historical sex discrimination. For decade after
decade, gender discrimination has been baked into our
pay scales, with the result that women still earn only
80 percent of what men make. As the majority notes,
this pay gap is “even more pronounced among women
of color.” Unfortunately, women employed in certain
sectors face an even larger gap. This disparity is
exacerbated when a woman is paid less than a man for
a comparable job solely because she earned less at her
last job. The Equal Pay Act prohibits precisely this
kind of “piling on,” whereby women can never
overcome the historical inequality.

31a
I welcome the day when this would no longer be so
because women have achieved parity in the workplace.
But the majority goes too far in holding that any
consideration of prior pay is “inconsistent” with the
Equal Pay Act, even when it is assessed alongside
other job-related factors such as experience,
education, past performance, and training. This
declaration may in fact disadvantage job applicants,
whether female, male, or non-binary. For this reason,
I concur in the result but not in the majority’s
rationale. In my view, prior salary alone is not a
defense to unequal pay for equal work.
If an
employer’s only justification for paying men and
women unequally is that the men had higher prior
salaries, odds are that the one-and-only “factor”
causing the difference is sex. However, employers do
not necessarily violate the Equal Pay Act when they
consider prior salary among other factors when setting
initial wages. As always, the employer has the burden
to show that any pay differential is based on a valid
factor other than sex.
To be sure, the majority correctly decides the only
issue squarely before the court: whether the Fresno
County Office of Education was permitted to base
Aileen Rizo’s starting salary solely on her prior salary.
The answer is no. But regrettably, the majority goes
further and effectively bars any consideration of prior
salary in setting a salary. Not only does Rizo’s case
not present this issue, but this approach is
unsupported by the statute, is unrealistic, and may
work to applicants’ disadvantage.
Rizo’s case is an easy one. After she was hired as a
math consultant, she learned that male colleagues in
the same job were being hired at a higher salary. The

32a
only rationale offered by the County was that Rizo’s
salary was lower at a prior job. In effect, the County
“was still taking advantage of the availability of
female labor to fill its [position] at a differentially low
wage rate not justified by any factor other than sex”—
a practice long held unlawful. Corning Glass Works v.
Brennan, 417 U.S. 188, 208, 94 S.Ct. 2223, 41 L.Ed.2d
1 (1974); see Glenn v. Gen. Motors Corp., 841 F.2d
1567, 1570 (11th Cir. 1988) (“[T]he argument that
supply and demand dictates that women qua women
may be paid less is exactly the kind of evil that the
[Equal Pay] Act was designed to eliminate, and has
been rejected.”); Drum v. Leeson Elec. Corp., 565 F.3d
1071, 1073 (8th Cir. 2009) (It is “prohibited” to rely on
the “ ‘market force theory’ to justify lower wages for
female employees simply because the market might
bear such wages”).
This scenario provides a textbook violation of the
“equal pay for equal work” mantra of the Equal Pay
Act. Prior salary level created the only differential
between Rizo and her male colleagues. In setting her
initial wage, the County did not, for example, consider
Rizo’s two advanced degrees or her prior experience.
This historical imbalance entrenched unequal pay for
equal work based on sex—end of story. The County
cannot mount a defense on past salary alone.
Congress enacted the Equal Pay Act to root out
historical sex discrimination, declaring it the “policy”
of the Act “to correct the conditions” of “wage
differentials based on sex.” Pub. L. No. 88-38, 77 Stat.
56 (1963). At the signing ceremony, President John F.
Kennedy called the Act “a first step” in “achiev[ing]
full equality of economic opportunity—for the average
woman worker earns only 60 percent of the average

33a
wage for men.” President John F. Kennedy, Remarks
Upon Signing the Equal Pay Act (June 10, 1963),
http://www.presidency.ucsb.edu/ws/?pid=9267.
The
unqualified goal of the statute was to “eliminate wage
discrimination based upon sex.” H.R. Rep. No. 88-309,
at 1 (1963). Sadly, that gap remains today. See Nat’l
P’ship For Women & Families, America’s Women And
The Wage Gap 1 (2017), https://goo.gl/SLEcd8.
Given the stated goal of the Equal Pay Act to erase
the gender wage gap, it beggars belief that Congress
intended for historical pay discrepancies like Rizo’s to
justify pay inequity. See Corning, 417 U.S. at 195, 94
S.Ct. 2223 (“Congress’ purpose in enacting the Equal
Pay Act was to remedy ... [an] endemic problem of
employment discrimination ... based on an ancient but
outmoded belief that a man ... should be paid more
than a woman even though his duties are the same.”).
Congress recently noted that the existence of genderbased pay disparities “has been spread and
perpetuated” since the passage of the Act and “many
women continue to earn significantly lower than men
for equal work.” H.R. Rep. No. 110-783, at 1–2 (2008).
“In many instances, the pay disparities can only be due
to continued intentional discrimination or the
lingering effects of past discrimination.” Id. (emphasis
added).
Because past pay can reflect the very
discrimination Congress sought to eradicate in the
statute, allowing employers to defend unequal pay for
equal work on that basis alone risks perpetuating
unlawful inequity. C.f. Ledbetter v. Goodyear Tire &
Rubber Co., 550 U.S. 618, 647, 127 S.Ct. 2162, 167
L.Ed.2d 982 (2007) (Ginsburg, J., dissenting),
dissenting position adopted by legislative action (Jan.
29,
2009)
(“Paychecks
perpetuating
past

34a
discrimination ... are actionable ... because they
discriminate anew each time they issue.”). That
danger is best avoided by construing the Equal Pay
Act “to fulfill the underlying purposes which Congress
sought to achieve” and rejecting prior salary as its own
“factor other than sex” defense. Corning, 417 U.S. at
208, 94 S.Ct. 2223.
Yet I differ with the majority in one key respect.
Merely because prior pay is unavailable as a
standalone defense does not mean that employers
should be barred from using past pay as a factor in
setting an initial salary. Contrary to the majority’s
assertion, it is wholly consistent to forbid employers
from baldly asserting prior salary as a defense—
without determining whether it accurately measures
experience, education, training or other lawful factors
not based on sex—but to permit consideration of prior
salary along with those valid factors. Using prior
salary along with valid job-related factors such as
education, past performance and training may provide
a lawful benchmark for starting salary in appropriate
cases. But “wage differentials based solely on the sex
of the employee are an unfair labor standard.” H.R.
Rep. No. 88-309, at 3 (emphasis added).
This
interpretation of the statute still places the burden on
the employer to justify that salary is determined on
the basis of “any other factor other than sex.” 29
U.S.C. § 206(d)(1). And, as Congress observed, “there
are many factors which may be used to measure the
relationships between jobs and which establish a valid
basis for a difference in pay.” H.R. Rep. No. 88-309, at
3 (1963).

35a
My views align with those of the EEOC and most of
our sister circuits that have addressed the question.
The EEOC’s Compliance Manual states:
[A]n employer may consider prior salary as part
of a mix of factors—as, for example, where the
employer also considers education and
experience and concludes that the employee’s
prior salary accurately reflects ability, based on
job-related qualifications. But because “prior
salaries of job candidates can reflect sex-based
compensation discrimination,” “[p]rior salary
cannot, by itself, justify a compensation
disparity.”
EEOC
Compliance
Manual,
Compensation
Discrimination § 10-IV.F.2.g (Dec. 5, 2000), available
at https://www.eeoc.gov/ policy/docs/compensation.
html. The EEOC’s pragmatic approach accounts for
realities in the workplace while preserving the
promise of equal pay for equal work. Because many
job-related factors, such as education and experience,
are not gender-based and “applicants rarely have
‘identical education and experience’... [i]f an employer
sincerely weighs such factors with prior salary, there
is no reason to think the resulting pay decisions would
perpetuate the gender pay gap.”
The Tenth and Eleventh Circuits reached the same
conclusion, holding that prior pay alone cannot justify
a compensation disparity. See Riser v. QEP Energy,
776 F.3d 1191, 1199 (10th Cir. 2015) (an employer may
decide to pay an elevated salary to an applicant who
rejects a lower offer, but the Act “precludes an
employer from relying solely upon a prior salary to
justify pay disparity”); Irby v. Bittick, 44 F.3d 949, 955

36a
(11th Cir. 1995) (“This court has not held that prior
salary can never be used by an employer to establish
pay, just that such a justification cannot solely carry
the affirmative defense.”). The Eighth Circuit adopted
a similar approach, permitting the use of prior salary
as a defense, but “carefully examin[ing] the record to
ensure that an employer does not rely on the
prohibited ‘market force theory’ to justify lower wages”
for women based solely on sex. Drum, 565 F.3d at
1073. The Second Circuit likewise allows the priorsalary defense, but places the burden on an employer
to prove that a “bona fide business-related reason
exists” for a wage differential—i.e., one that is “rooted
in legitimate business- related differences in work
responsibilities and qualifications for the particular
positions at issue.” Aldrich v. Randolph Cent. Sch.
Dist., 963 F.2d 520, 525–26 (1992). The more nuanced
holding adopted by our sister circuits better accords
with common sense and the statutory text. The Equal
Pay Act provides an affirmative defense for “any other
factor other than sex.” 29 U.S.C. § 206(d)(1) (emphasis
added).
Meanwhile, the Fourth and Seventh Circuits have
veered off course, holding that prior salary is always a
“factor other than sex.” See Spencer v. Virginia State
Univ., 919 F.3d 199, 206 (4th Cir. 2019); Wernsing v.
Dep’t of Human Servs., State of Ill., 427 F.3d 466, 468–
70 (7th Cir. 2005). But this conclusion—that a “factor
other than sex” need not be “related to the
requirements of the particular position” or even
“business-related”—contravenes the Act’s purpose of
ensuring women and men earn equal pay for equal
work. Wernsing, 427 F.3d. at 470. After all, inherent
in the Act is an understanding that compensation

37a
should mirror one’s “skill, effort, and responsibility.”
See Corning, 417 U.S. at 195, 94 S.Ct. 2223 (quoting
29 U.S.C. § 206(d)(1)); see also Glenn, 841 F.2d at
1571.
Because we know that historical sex
discrimination persists, it cannot be that prior salary
always reflects a factor other than sex. I fear,
however, that the majority makes the same categorical
error as the Fourth and Seventh Circuits, but in the
opposite direction: it announces that prior salary is
never a “factor other than sex.”
By forbidding
consideration of prior salary altogether, the majority
extends the scope of the statute and risks imposing
Equal Pay Act liability on employers for using prior
salary as any part of the calculus in making wagesetting decisions. That, too, is a drastic holding,
particularly because companies and institutions often
consider prior salary in making offers to lure away top
talent from their competitors or to attract employees
with specific skills. In unpacking what goes into the
calculation, it may well be that past salary accurately
gauges a prospective employee’s “skill, effort, and
responsibility,” as the Equal Pay Act envisions—in
addition to her education, training, and past
performance—and a new employer wants to exceed
that benchmark.
The Equal Pay Act should not be an impediment for
employees seeking a brighter future and a higher
salary at a new job. See generally Orly Lobel, Talent
Wants to Be Free 49–75 (Yale Univ. Press 2013)
(concluding that employee mobility between
competitors promotes innovation and job growth);
Cade Metz, Tech Giants Are Paying Huge Salaries for
Scarce A.I. Talent, N.Y. Times, Oct. 23, 2017, at B1

38a
(noting that employers pay a premium to hire top
engineering talent).
On that front, states and cities have begun passing
statutes1 that prohibit employers from asking
employees about their prior salaries.2 These laws
represent creative efforts to narrow the gender wage
gap. But they also provide important exemptions for
employees who wish to disclose prior salaries as part
of a salary negotiation. See, e.g., Cal. Labor Code
§ 432.3(g); Del. Code Ann. Tit. 19, § 709B(d).
The majority’s holding may reach beyond these
state statutes by making it a violation of federal
antidiscrimination law to consider prior salary, even
when an employee chooses to provide this information
as a bargaining chip for higher wages. I am concerned
about chilling such voluntary discussions.
The
majority handcuffs employers from relying on past
salary information —but in doing so, equally shackles
women from using prior salary in their favor. Indeed,
the result may disadvantage rather than advantage
women.
To avoid these consequences, the majority
endeavors to limit its decision by announcing that
1

See, e.g., Cal. Labor Code § 432.3; Or. Rev. Stat. Ann.
§ 659A.357; San Francisco Ordinance 142-17 (2017); Del. Code
Ann. tit. 19, § 709B (2017); Mass. Acts ch. 177 (2016); N.Y.C.
Local Law No. 67 (2017).
2

A bill was introduced in Congress to enact a federal
prohibition on “requiring” or “requesting” that prospective
employees disclose previous wages or salary history. See H.R.
2418, 115th Cong. (2017). Like its state counterparts, this bill
does not seek to outlaw salary negotiations initiated by an
employee.

39a
neither its holding nor the Equal Pay Act prevents
employers from “consider[ing] prior pay for other
purposes.” But the majority’s vague disclaimer hardly
dilutes the practical effects of the holding’s broad
sweep. In the same breath, the majority states that
its holding both “prevents employers from relying on
prior pay to defeat EPA claims” and that it does not
reach the “discuss[ion of] prior pay in the course of
negotiating job offers.” But an Equal Pay Act claim
could include violations arising from negotiated
salaries. And, because the majority bars the use of
prior salary to set initial wages under the Act, it has
left little daylight for arguing that negotiated starting
salaries should be treated differently. In the real
world, an employer might consider prior salary—
disclosed voluntarily by an employee during
negotiations—to offer a pay bump above that prior
salary. Permitting prior pay in setting salary but not
as an affirmative defense to the Equal Pay Act results
in an indefensible contradiction.
The “tension”
highlighted by the majority is precisely the reason that
prior pay cannot be relegated to the dust bin.
The majority states that other circuits merely
“suggest[ ] that prior pay may serve as an affirmative
defense if it is considered in combination with other
factors.” But our sister circuits do much more. They
affirmatively permit the use of prior salary in wage
setting so long as it is considered in tandem with a
permissible job-related factor, a far cry from
concluding that watered down discrimination is
acceptable. See Irby, 44 F.3d at 954 (“This court has
not held that prior salary can never be used by an
employer to establish pay, just that such a justification
cannot solely carry the affirmative defense.”)

40a
(emphasis added); Riser, 776 F.3d at 1198–99 (holding
that the EPA precludes an employer from relying
solely upon a prior salary for justification of a pay
disparity). The majority also avoids grappling with
the EEOC’s guidance, which permits employers to
consider prior salary, so long as it is considered as part
of a mix of permissible factors such as education or
experience.
I agree with the majority that the three-step
McDonnell Douglas test does not apply to Equal Pay
Act claims. However, neither Corning nor the facts of
this case compel the majority to go so far as to conclude
that employers may not rely on prior pay in
combination with other factors as an affirmative
defense.
The majority’s rule does not just function as a oneway ratchet to protect women from discrimination.
Instead, based on a myopic view of the workplace, it
creates a regime that prevents all employees from
seeking fair compensation, regardless of gender. This
is particularly true when an employee’s total salary
includes incentive, performance, or commission-based
pay. Imagine a stockbroker who receives 50 percent of
his salary as a bonus for stellar performance, or a
manager who, over five years, receives periodic raises
based on her extraordinary contributions and
performance. In both situations, past pay serves as a
surrogate for achievement and helps the employees
quantify their worth to potential employers.
Excluding reliance on salary when it is considered
with other job-related factors makes no sense.
The majority recognizes that legitimate, job-related
factors such as a prospective employee’s “education,

41a
skills, or experience” operate as affirmative defenses.
But the majority nonetheless renders those valid, jobrelated factors nugatory when an employer also
considers prior salary. That is a puzzling outcome that
does not square with the statute, common sense, the
contemporary workplace, the EEOC, or other circuits.
For these reasons, I concur only in the result.

42a
CALLAHAN, Circuit Judge, with whom TALLMAN
and BEA, Circuit Judges, join, concurring:
We all agree that men and women should receive
equal pay for equal work. Indeed, we agree that the
purpose of the Equal Pay Act of 1963 was to change
“should receive equal pay” to “must receive equal pay.”
However, I write separately because in holding that
“wages associated with an employee’s prior job” can
never be considered as a factor in determining pay
under 29 U.S.C. § 206(d)(1)(iv), the majority fails to
appreciate Supreme Court precedent and creates an
amorphous and unnecessary new standard for
interpreting that subsection, which ignores the
realities and dynamic nature of business. In doing so,
the majority may hinder rather than promote equal
pay for equal work.
I
As required by the Equal Pay Act, Rizo made a
prima facie case of pay discrimination by showing that
(1) she performed substantially equal work to that of
her male colleagues; (2) the work conditions were
basically the same; and (3) the male employees were
paid more. See Riser v. QEP Energy, 776 F.3d 1191,
1196 (10th Cir. 2015).
The County does not contest the prima facie case
but argues that Rizo’s salary was exempt from Equal
Pay Act coverage under the fourth exception in 29
U.S.C. § 206(d)(1). Subsection (d)(1) reads:
No employer having employees subject to any
provisions of this section shall discriminate,
within any establishment in which such
employees are employed, between employees on
the basis of sex by paying wages to employees in

43a
such establishment at a rate less than the rate at
which he pays wages to employees of the opposite
sex in such establishment for equal work on jobs
the performance of which requires equal skill,
effort, and responsibility, and which are
performed under similar working conditions,
except where such payment is made pursuant to
(i) a seniority system; (ii) a merit system; (iii) a
system which measures earnings by quantity or
quality of production; or (iv) a differential based
on any other factor other than sex.
We agree that this suit turns on our interpretation
of the fourth exception in 29 U.S.C. § 206(d)(1): “a
differential based on any other factor other than sex.”
II
“The Equal Pay Act is broadly remedial and it
should be construed and applied so as to fulfill the
underlying purposes which Congress sought to
achieve.” Corning Glass Works v. Brennan, 417 U.S.
188, 208, 94 S.Ct. 2223, 41 L.Ed.2d 1 (1974). The
majority struggles mightily and unnecessarily to
couple the fourth exception—despite its clear
language—so closely with the other three exceptions
that it loses independent meaning.
The majority suggests that the first three
exceptions are all “job-related.” This is not an
unreasonable observation, but it does not support
creating a definition of “job-related” that includes “a
seniority system” but excludes “prior salary.” Indeed,
the sole purpose of the majority’s parsing of the statute
appears to be to exclude “prior salary” from its
common sense inclusion in subsection (iv)—”a
differential based on any other factor other than sex.”

44a
In its approach, the majority conveniently overlooks
the differences within the three specific exceptions.
While merit systems and measuring earnings by
quantity and quality of production are specifically jobrelated, that is not true of seniority systems, which are
often unrelated to performance. Indeed, at the time of
the passage of the Equal Pay Act, if not today,
seniority systems accounted for a fair amount of pay
inequality.1
The majority’s insistence that the fourth exception
is limited to its narrow definition of “job-related” is
therefore flawed because the term “job-related” is a
poor descriptor of the prior three exceptions. And the
majority’s reliance on noscitur a sociis and ejusdem
generis to define the fourth exception as encompassing
only “job-related” factors is also incorrect.
The
Supreme Court has called the fourth exception a
“general catchall provision,” Corning Glass, 417 U.S.
at 196, 94 S.Ct. 2223, that “was designed differently,
to confine the application of the Act to wage
differentials attributable to sex discrimination,”
Washington County v. Gunther, 452 U.S. 161, 170, 101
S.Ct. 2242, 68 L.Ed.2d 751 (1981). The canons of
statutory interpretation that the majority employs are
of no use where a catchall provision is meant to
contrast with specific exceptions, not reflect them.
The Gunther Court explained that Equal Pay Act
1 For example, one-quarter of the complaints filed in the year
after the passage of the Equal Pay Act concerned complaints by
women who were excluded from jobs because of seniority rules or
because men were preferred over women after layoffs. Vicki Lens,
Supreme Court Narratives on Equality and Gender
Discrimination in Employment: 1971–2002, 10 Cardozo Women’s
L.J. 501, 507 (2004).

45a
litigation “has been structured to permit employers to
defend against charges of discrimination where their
pay differentials are based on a bona fide use of ‘other
factors other than sex.’” Id. The Court cautioned that
courts and administrative agencies “were not
permitted to substitute their judgment for the
judgment of the employer ... so long as it does not
discriminate on the basis of sex.” Id. at 171, 101 S.Ct.
2242. Thus, the standard is not whether a factor is
“job-related,” but whether regardless of its “jobrelatedness,” the factor promotes or perpetuates
gender discrimination.
This conclusion is further supported by a footnote in
Gunther, which states:
The legislative history of the Equal Pay Act was
examined by this Court in Corning Glass Works
v. Brennan, 417 U.S. 188, 198–201 [94 S.Ct. 2223,
41 L.Ed.2d 1] (1974). The Court observed that
earlier versions of the Equal Pay bill were
amended to define equal work and to add the
fourth affirmative defense because of a concern
that bona fide job-evaluation systems used by
American businesses would otherwise be
disrupted. Id., at 199–201 [94 S.Ct. 2223]. This
concern is evident in the remarks of many
legislators. Representative Griffin, for example,
explained that the fourth affirmative defense is a
“broad principle,” which “makes clear and
explicitly states that a differential based on any
factor or factors other than sex would not violate
this legislation.” 109 Cong. Rec. 9203 (1963).
Id. at 170 n.11, 101 S.Ct. 2242 (parallel citations
omitted).

46a
III
I agree that, based on the history of pay
discrimination and the broad purpose of the Equal Pay
Act, prior salary by itself does not qualify as a “factor
other than sex.” As the Eleventh Circuit has noted, “if
prior salary alone were a justification, the exception
would swallow up the rule and inequality in pay
among genders would be perpetuated.” Irby v. Bittick,
44 F.3d 949, 955 (11th Cir. 1995). However, the
Eleventh Circuit continued:
an Equal Pay Act defendant may successfully
raise the affirmative defense of “any other factor
other than sex” if he proves that he relied on prior
salary and experience in setting a “new”
employee’s salary. While an employer may not
overcome the burden of proof on the affirmative
defense of relying on “any other factor other than
sex” by resting on prior pay alone, as the district
court correctly found, there is no prohibition on
utilizing prior pay as part of a mixed-motive,
such as prior pay and more experience. This
court has not held that prior salary can never be
used by an employer to establish pay, just that
such a justification cannot solely carry the
affirmative defense.
Id.
Indeed, our Court has previously suggested that
prior pay may be considered among “other available
predictors of the new employee’s performance.” Kouba
v. Allstate Ins. Co., 691 F.2d 873, 878 (9th Cir. 1982).
And there is general agreement in our sister circuits
that there is “no prohibition on utilizing prior pay as
part of a mixed-motive.” Irby, 44 F.3d at 955. The

47a
Tenth Circuit has held that “an individual’s former
salary can be considered in determining whether pay
disparity is based on a factor other than sex,” but that
“the EPA ‘precludes an employer from relying solely
upon a prior salary to justify pay disparity.’ “ Riser,
776 F.3d at 1199 (citing Angove v. Williams–Sonoma,
Inc., 70 Fed. App’x. 500, 508 (10th Cir. 2003)
(unpublished)). The Sixth Circuit is basically in
agreement. See EEOC v. J.C. Penney Co. Inc., 843
F.2d 249, 253 (6th Cir. 1988) (holding that “the
legitimate business reason standard is the appropriate
benchmark against which to measure the ‘factor other
than sex’ defense”). The Fourth, Seventh, and Eighth
Circuits prefer even broader definitions for “factor
other than sex.” See Spencer v. Virginia State
University, 919 F.3d 199, 206–07 (4th Cir. 2019)
(concluding that a program whereby faculty are paid
9/12ths of their previous administrator salary
provided a “non-sex-based explanation for the pay
disparity”); Covington v. S. Ill. Univ., 816 F.2d 317,
321–22 (7th Cir. 1987) (holding that the EPA does not
preclude “an employer from carrying out a policy
which, although not based on employee performance,
has in no way been shown to undermine the goals of
the EPA”); Taylor v. White, 321 F.3d 710, 720 (8th Cir.
2003) (stating that “a case-by-case analysis of reliance
on prior salary or salary retention policies with careful
attention to alleged gender-based practices preserves
the business freedoms Congress intended to protect
when it adopted the catch-all ‘factor other than sex’
affirmative defense”).
Contrary to the majority’s suggestion, the Second
Circuit has not adopted its narrow definition of “jobrelated.” In Aldrich v. Randolph Central School

48a
District, 963 F.2d 520, 525 (2d Cir. 1992), the Second
Circuit did state that “[w]ithout a job- relatedness
requirement, the factor-other-than-sex defense would
provide a gaping loophole in the statute through which
many pretexts for discrimination would be
sanctioned,” but it further held that “an employer
bears the burden of proving that a bona fide businessrelated reason exists for using the gender-neutral
factor that results in a wage differential in order to
establish the factor-other-than-sex defense.” Id. at
526. In Tomka v. Seiler Corp., 66 F.3d 1295, 1312 (2d
Cir. 1995), abrogated on other grounds by Burlington
Indus. Inc. v. Ellerth, 524 U.S. 742, 118 S.Ct. 2257, 141
L.Ed.2d 633 (1998), the Second Circuit, addressing a
claim that higher salary resulted from a male
employee’s over ten years of experience, stated that
while the experience might explain the discrepancy,
the employer “has the burden of persuasion to show
both that it based [the male employee’s] higher salary
on this factor and that experience is a job-related
qualification for the position in question.” Id. In
holding that the employer has the burden, the court
implicitly recognized that prior salary can be job
related and thus can come within the fourth exception.
See also Belfi v. Prendergast, 191 F.3d 129, 136 (2d Cir.
1999) (noting that “to successfully establish the ‘factor
other than sex’ defense, an employer must also
demonstrate that it had a legitimate business reason
for implementing the gender-neutral factor that
brought about the wage differential”).
IV
There is no need for the majority’s approach to the
fourth exception, which the Supreme Court has noted
was intended to be broad. Rather, while a pay system

49a
that relies exclusively on prior salary is conclusively
presumed to be gender-based—to perpetuate genderbased inequality—a pay system that uses prior pay as
one of several factors deserves to be considered on its
own merits. When a plaintiff makes a prima facie case
of pay inequality based on gender, the burden of
showing that the difference is not based on gender
shifts to the employer. In other words, the prima facie
case creates a presumption that the pay inequality
arising from the employer’s pay system is genderbased and hence is not a “factor other than sex.” In
Corning Glass, the Supreme Court explained that the
Equal Pay Act’s
structure and history also suggest that once the
Secretary has carried his burden of showing that
the employer pays workers of one sex more than
workers of the opposite sex for equal work, the
burden shifts to the employer to show that the
differential is justified under one of the Act’s four
exceptions.
Corning Glass, 417 U.S. at 196, 94 S.Ct. 2223; see also
Maxwell v. City of Tucson, 803 F.2d 444, 445–46 (9th
Cir. 1986) (stating that once the plaintiff establishes a
prima facie case, “the burden of persuasion shifts to
the employer to show that the wage disparity is
permitted by one of the four statutory exceptions to the
Equal Pay Act”).
There is no need or justification for holding that an
employer could, as a matter of law, justify a
differential in salary under one of the first three
exceptions, but not the fourth exception. Accordingly,
I agree with our sister circuits, that when salary is
established based on a multi-factor salary system that

50a
includes prior salary, the presumption that the system
is based on gender is rebuttable.2 Critically, as noted,
the burden is on the employer to show that the use of
prior salary as part of a multi-factor salary system
does not reflect, perpetuate, or in any way encourage
gender discrimination.
This is also the position of the EEOC, the agency
charged with enforcing the EPA. In its amicus brief,
the EEOC states that in its view because prior salaries
“can reflect sex-based compensation discrimination,” a
prior salary “cannot by itself justify a compensation
disparity,” but “an employer may consider prior salary
as part of a mix of factors.”3 This approach to a multifactor formula for pay accords with the purpose of the
Equal Pay Act and the Supreme Court’s approach to
2

I agree with the majority that the market force theory for
paying women less was discredited by the Supreme Court in
Corning Glass, 417 U.S. at 205, 94 S.Ct. 2223, and that the notion
that an employer may pay women less because women allegedly
cost more to employ than men was discredited in City of Los
Angeles, Department of Water & Power v. Manhart, 435 U.S. 702,
98 S.Ct. 1370, 55 L.Ed.2d 657 (1978).
3

In EEOC Notice Number 915.002 (Oct. 29, 1997),
“Enforcement Guidance on Sex Discrimination in the
Compensation of Sports Coaches in Educational Institutions,” the
EEOC advised:
Thus, if the employer asserts prior salary as a factor
other than sex, evidence should be obtained as to whether
the employer: 1) consulted with the employee’s previous
employer to determine the basis for the employee’s starting
and final salaries; 2) determined that the prior salary was
an accurate indication of the employee’s ability based on
education, experience, or other relevant factors; and 3)
considered the prior salary, but did not rely solely on it in
setting the employee’s current salary.

51a
the Equal Pay Act, as well as a common sense reading
of its language. To impose obligations on employers
that conflict with guidance from the agency
administering the statute, as the majority opinion
does, is to sow confusion.
In reality, “prior pay” is not inherently a reflection
of gender discrimination. Certainly our history of
gender discrimination fully supports a presumption
that the use of prior pay perpetuates discrimination.
But differences in prior pay may also be based on other
factors such as differences in the costs of living and in
available resources in various parts of the country.
Moreover, I agree with the majority in hoping that we
are progressing “past the days when employers
maintain separate pay scales,” Majority at 25, and
that it will become the norm that a prior employer will
have adjusted its pay system to be gender neutral.
Nonetheless, consistent with the intent of the EPA, I
agree that where prior pay is the exclusive
determinant of pay, the employer cannot carry its
burden of showing that it is a “factor other than sex.”4

4

We read the EPA to place the burden on the employer to
demonstrate that the pay differential falls within the fourth
exception; that it is indeed not based on gender. An employer
cannot meet this burden where the pay system is based solely on
prior pay because by blindly accepting the prior pay, it cannot
rebut the presumption that using the prior pay perpetuates the
inequality of pay based on gender that the EPA seeks to correct.
If, instead, as suggested by the EEOC’s Notice Number 915.002,
an employer not only looked to prior pay but also researched
whether the applicant’s prior pay reflected gender-based
inequality, and made adjustments if it did, the employer would
no longer be relying exclusively on prior pay. Thus, in such a
situation, an employer might be able to overcome the

52a
However, neither Congress’s intent nor the language
of the Equal Pay Act requires, or justifies, the
conclusion that a pay system that includes prior pay
as one of several considerations can never constitute a
“factor other than sex.”
V
In this case, the County based pay only on prior
salary, and accordingly the district court properly
denied it summary judgment.
Nonetheless, the
majority goes beyond what is necessary to resolve this
appeal and mistakenly proclaims that prior salary can
never be considered as coming within the fourth
exception to the Equal Pay Act. I strongly disagree.
Following the Supreme Court’s guidance, I agree with
our sister circuit courts, as well as the EEOC, the
agency charged with enforcing the EPA, that prior pay
may be a component of a pay system that comes within
the fourth exception recognized in 29 U.S.C. § 206(d)
(1).
However, the employer has the burden of
overcoming the presumption of gender discrimination
and showing that its pay formula does not perpetuate
or create a pay differential based on sex. We can and
should require that men and women receive equal pay
for equal work, but we can do so without making what
is in reality a presumption an absolute rule.
For these reasons, I concur in the result, but not the
majority’s rationale.

presumption and show that its pay system was a “factor other
than sex.”

53a

APPENDIX B

Aileen RIZO, Plaintiff-Appellee,
v.
Jim YOVINO, Fresno County Superintendent of
Schools, Erroneously Sued Herein as Fresno
County Office of Education, DefendantAppellant.
No. 16-15372
United States Court of Appeals, Ninth Circuit.
Argued and Submitted En Banc December 12, 2017,
San Francisco, California
Filed April 9, 2018
_______
Appeal from the United States District Court for the
Eastern District of California, Michael J. Seng,
Magistrate Judge, Presiding, D.C. No. 1:14-cv-00423MJS
Before: Sidney R. Thomas, Chief Judge, and
Stephen Reinhardt*, M. Margaret McKeown, William
A. Fletcher, Richard A. Paez, Marsha S. Berzon,
*

Prior to his death, Judge Reinhardt fully participated in this
case and authored this opinion. The majority opinion and all
concurrences were final, and voting was completed by the en banc
court prior to his death.

54a
Richard C. Tallman, Consuelo M. Callahan, Mary H.
Murguia, Morgan Christen and Paul J. Watford,
Circuit Judges.
OPINION
REINHARDT, Circuit Judge:
The Equal Pay Act stands for a principle as simple
as it is just: men and women should receive equal pay
for equal work regardless of sex. The question before
us is also simple: can an employer justify a wage
differential between male and female employees by
relying on prior salary? Based on the text, history, and
purpose of the Equal Pay Act, the answer is clear: No.
Congress recognized in 1963 that the Equal Pay Act
was long overdue: “Justice and fair play speak so
eloquently [on] behalf of the equal pay for women bill
that it seems unnecessary to belabor the point. We can
only marvel that it has taken us so long to recognize
the fact that equity and economic soundness support
this legislation.”1 Salaries speak louder than words,
however. Although the Act has prohibited sex-based
wage discrimination for more than fifty years, the
financial exploitation of working women embodied by
the gender pay gap continues to be an embarrassing
reality of our economy.
Prior to this decision, our law was unclear whether
an employer could consider prior salary, either alone
or in combination with other factors, when setting its
employees’ salaries. We took this case en banc in order
to clarify the law, and we now hold that prior salary
alone or in combination with other factors cannot
justify a wage differential. To hold otherwise—to
1

109 Cong. Rec. 8916 (1963) (statement of Sen. Hart).

55a
allow employers to capitalize on the persistence of the
wage gap and perpetuate that gap ad infinitum—
would be contrary to the text and history of the Equal
Pay Act, and would vitiate the very purpose for which
the Act stands.
Fresno County Office of Education (“the County”)2
does not dispute that it pays Aileen Rizo (“Rizo”) less
than comparable male employees for the same work.
However, it argues that this wage differential is lawful
under the Equal Pay Act. In relevant part, the Act
provides,
No employer having employees subject to any
provisions of this section shall discriminate,
within any establishment in which such
employees are employed, between employees on
the basis of sex by paying wages to employees in
such establishment at a rate less than the rate at
which he pays wages to employees of the opposite
sex in such establishment for equal work on jobs
the performance of which requires equal skill,
effort, and responsibility, and which are
performed under similar working conditions,
except where such payment is made pursuant to
(i) a seniority system; (ii) a merit system; (iii) a
system which measures earnings by quantity or
quality of production; or (iv) a differential based
on any other factor other than sex.
29 U.S.C. § 206(d)(1) (emphasis added). The County
contends that that the wage differential is based on
the fourth exception—the catchall exception: a “factor
2

The defendant is Jim Yovino, the Superintendent of the
Fresno County Office of Education. Because he is sued in his
official capacity, we refer to the defendant as the County.

56a
other than sex.” It argues that an employee’s prior
salary can constitute a “factor other than sex” within
the meaning of the catch all exception. However, this
would allow the County to defend a sex based salary
differential on the basis of the very sex-based salary
differentials the Equal Pay Act was designed to cure.
Because we conclude that prior salary does not
constitute a “factor other than sex,” the County fails
as a matter of law to set forth an affirmative defense.
We affirm the district court’s denial of summary
judgment to the County and remand for proceedings
consistent with this opinion.3
Background
Aileen Rizo was hired as a math consultant by the
Fresno County Office of Education in October 2009.
Previously, she was employed in Maricopa County,
Arizona as a middle and high school math teacher. In
her prior position, Rizo earned an annual salary of
$50,630 for 206 working days. She also received an
educational stipend of $1,200 per year for her master’s
degrees in educational technology and mathematics
education.
Rizo’s new salary upon joining the County was
determined in accordance with the County’s Standard
Operating Procedure 1440 (“SOP 1440”), informally
adopted in 1998 and formally adopted in 2004. The
3 We leave to the district court the question whether Rizo is
entitled to summary judgment on her Equal Pay Act claim. See
Albino v. Baca, 747 F.3d 1162, 1176 (9th Cir. 2014) (en banc) (“We
have long recognized that, where the party moving for summary
judgment has had a full and fair opportunity to prove its case, but
has not succeeded in doing so, a court may enter summary
judgment sua sponte for the nonmoving party.”).

57a
County’s hiring schedule consists of 10 stepped salary
levels, each level containing 10 salary steps within it.
SOP 1440 dictates that a new hire’s salary is to be
determined by taking the hired individual’s prior
salary, adding 5%, and placing the new employee on
the corresponding step of the salary schedule. Unlike
the County’s previous hiring schedule, SOP 1440 does
not rely on experience to set an employee’s initial
salary. SOP 1440 dictated that Rizo be placed at step
1 of level 1 of the hiring schedule, corresponding to a
salary of $62,133 for 196 days of work plus a master’s
degree stipend of $600.
During a lunch with colleagues in 2012, Rizo
learned that her male colleagues had been
subsequently hired as math consultants at higher
salary steps. In August 2012, she filed a complaint
about the pay disparity with the County, which
responded that all salaries had been set in accordance
with SOP 1440. The County claimed to have reviewed
salary-step placements of male and female
management employees for the past 25 years (so
including before the policy was even informally
adopted), finding that SOP 1440 placed more women
at higher compensation steps than males. Rizo
disputes this analysis and claims that the data show
men were placed at a higher average salary step.
Rizo sued Jim Yovino in his official capacity as the
Superintendent of the Fresno County Office of
Education in February 2014. She claimed a violation
of the Equal Pay Act, 29 U.S.C. § 206(d); sex
discrimination under Title VII of the Civil Rights Act
of 1964, 42 U.S.C. § 2000e et seq. (“Title VII”); sex
discrimination under California Government Code
§ 12940(a); and failure to prevent discrimination

58a
under California Government Code § 12940(k). Rizo
v. Yovino, No. 1:14-cv-0423-MJS, 2015 WL 9260587, at
*1 (E.D. Cal. Dec. 18, 2015), vacated, 854 F.3d 1161
(9th Cir.), reh’g en banc granted, 869 F.3d 1004 (9th
Cir. 2017).
In June 2015, the County moved for summary
judgment. It asserted that, although Rizo was paid
less than her male counterparts for the same work, the
discrepancy was based on Rizo’s prior salary. The
County contended that her prior salary was a
permissible affirmative defense to her concededly
lower salary than her male counterparts under the
fourth, catchall clause, a “factor other than sex.” Rizo,
2015 WL 9260587, at *7. The district court denied
summary judgment, reasoning that SOP 1440
“necessarily and unavoidably conflicts with the EPA”
because “a pay structure based exclusively on prior
wages is so inherently fraught with the risk— indeed,
here, the virtual certainty—that it will perpetuate a
discriminatory wage disparity between men and
women that it cannot stand.” Id. at *9. It certified the
legal question for interlocutory appeal, recognizing
that denying summary judgment for the County
“effectively resolves the issue of liability on Plaintiff’s
claims in her favor.” Id. at *12.4
This Court granted the County’s petition for
permission to file an interlocutory appeal. The threejudge panel vacated the denial of summary judgment
and remanded. Rizo v. Yovino, 854 F.3d 1161, 1167
4 The certified question was “whether, as a matter of law under

the EPA, 29 U.S.C. § 206(d), an employer subject to the EPA may
rely on prior salary alone when setting an employee’s starting
salary.” Id. at *13.

59a
(9th Cir.), reh’g en banc granted, 869 F.3d 1004 (9th
Cir. 2017). The panel concluded that Kouba v. Allstate
Insurance Co., 691 F.2d 873 (9th Cir. 1982) was
controlling and that it permits prior salary alone to
constitute a “factor other than sex” under the Equal
Pay Act. In Kouba, the employer considered prior
salary along with other factors, “including ‘ability,
education, [and] experience,’” in setting employees’
salaries. Rizo, 854 F.3d at 1166 (quoting Kouba, 691
F.2d at 874). The panel concluded, however, that
because Kouba “did not attribute any significance to
Allstate’s use of these other factors,” that case permits
consideration of prior salary alone, as long as use of
that factor “was reasonable and effectuated some
business policy.” Id. Because it believed it was
compelled to follow Kouba, the panel directed the
district court on remand to consider the
reasonableness of the County’s proffered business
reasons for its reliance on prior salary.
We granted the petition for rehearing en banc in
order to clarify the law, including the vitality and
effect of Kouba.
Standard of Review
We review the district court’s denial of summary
judgment de novo. Diaz v. Eagle Produce Ltd. P’ship,
521 F.3d 1201, 1207 (9th Cir. 2008). Summary
judgment is available only when there are no genuine
disputes of material fact and the movant is entitled to
judgment as a matter of law. Id.
Discussion
Congress enacted the Equal Pay Act in 1963 to put
an end to the “serious and endemic problem of
employment discrimination in private industry” and to

60a
carry out a broad mandate of equal pay for equal work
regardless of sex. Corning Glass Works v. Brennan,
417 U.S. 188, 195, 94 S.Ct. 2223 (1974). It set forth a
simple structure to carry out this simple principle. See
29 U.S.C. § 206(d)(1). A plaintiff must show that her
employer has paid male and female employees
different wages for substantially equal work. Not all
differentials in pay for equal work violate the Equal
Pay Act, however. The Act includes four statutory
exceptions—“(i) a seniority system; (ii) a merit system;
(iii) a system which measures earnings by quantity or
quality of production; or (iv) a differential based on any
other factor other than sex”—which operate as
affirmative defenses. Id.; Corning, 417 U.S. at 196, 94
S.Ct. 2223; Maxwell v. City of Tucson, 803 F.2d 444,
446 (9th Cir. 1986). “[A]n employer [must] submit
evidence from which a reasonable factfinder could
conclude not simply that the employer’s proffered
reasons could explain the wage disparity, but that the
proffered reasons do in fact explain the wage
disparity.” EEOC v. Md. Ins. Admin., 879 F.3d 114,
121 (4th Cir. 2018) (first citing Stanziale v. Jargowsky,
200 F.3d 101, 107–08 (3d Cir. 2000); and then citing
Mickelson v. N.Y. Life Ins. Co., 460 F.3d 1304, 1312
(10th Cir. 2006) ); see also 29 U.S.C. § 206(d)(1)
(exempting from liability wage differentials only
where payment of which was “made pursuant to” an
enumerated exception (emphasis added) ).
The Equal Pay Act “creates a type of strict liability”
for employers who pay men and women different
wages for the same work:
once a plaintiff
demonstrates a wage disparity, she is not required to
prove discriminatory intent. Maxwell, 803 F.2d at 446
(quoting Strecker v. Grand Forks Cty. Social Serv. Bd.,

61a
640 F.2d 96, 99 n.1 (8th Cir. 1980) (en banc) ). The
County and Amicus Center for Workplace Compliance
contend that the Supreme Court in Washington
County v. Gunther, 452 U.S. 161, 101 S.Ct. 2242, 68
L.Ed.2d 751 (1981), infused into Equal Pay Act law
Title VII’s disparate treatment analysis. This is
clearly wrong. In Ledbetter v. Goodyear Tire & Rubber
Co., Inc., the Supreme Court stated, “the EPA does not
require...proof of intentional discrimination.” 550 U.S.
618, 641, 127 S.Ct. 2162, 167 L.Ed.2d 982 (2007).5
More recently, the Fourth Circuit reaffirmed that “[a]n
EPA plaintiff need not prove that the employer acted
with discriminatory intent to obtain a remedy under
the statute.” Md. Ins. Admin., 879 F.3d at 120
(collecting cases).
Accordingly, pretext as it is
understood in the Title VII context plays no role in
Equal Pay Act claims.6
Here, the County does not dispute that Rizo
established a prima facie case and that none of the
three specific statutory exceptions applies.
The
County urges instead that the fourth catchall
exception, “any other factor other than sex,” includes
an employee’s prior salary and applies when her
starting salary is based on her prior salary. It

5

Superseded on other grounds by statute, Lilly Ledbetter Fair
Pay Act of 2009, Pub. L. No. 111-2, 123 Stat. 5.
6

Because the issue in this case is one of law, we do not have
occasion to address the burden-shifting framework applicable to
Equal Pay Act as opposed to Title VII claims. Maryland
Insurance Administration, however, sets forth the standards to
apply when there are factual, rather than legal, disputes. Id. at
120 21, 120 n.6, 120 n.7.

62a
acknowledges that if it is wrong, it has no defense to
Rizo’s Equal Pay Act claim.
The question in this case is the meaning of the
catchall exception. This is purely a question of law.
We conclude, unhesitatingly, that “any other factor
other than sex” is limited to legitimate, job-related
factors such as a prospective employee’s experience,
educational background, ability, or prior job
performance. It is inconceivable that Congress, in an
Act the primary purpose of which was to eliminate
long-existing “endemic” sex-based wage disparities,
would create an exception for basing new hires’
salaries on those very disparities—disparities that
Congress declared are not only related to sex but
caused by sex. To accept the County’s argument would
be to perpetuate rather than eliminate the pervasive
discrimination at which the Act was aimed. As
explained later in this opinion, the language,
legislative history, and purpose of the Act make it
clear that Congress was not so benighted. Prior
salary, whether considered alone or with other factors,
is not job related and thus does not fall within an
exception to the Act that allows employers to pay
disparate wages. Reflecting the very essence of the
Act, we hold that by relying on prior salary, the County
fails as a matter of law to set forth an affirmative
defense.
A.
Allowing an employer to justify a wage differential
between men and women on the basis of prior salary
is wholly inconsistent with the provisions of the Equal

63a
Pay Act.7 As the Supreme Court has emphasized,
“[t]he Equal Pay Act is broadly remedial, and it should
be construed and applied so as to fulfill the underlying
purposes which Congress sought to achieve.” Corning,
417 U.S. at 208, 94 S.Ct. 2223. The remedial purpose
of the Act is clear: to put an end to historical wage
discrimination against women.
Representative
Florence Dwyer said in support of the bill: “The issue
here is really a very simple one—the elimination of one
of the most persistent and obnoxious forms of
discrimination which is still practiced in this
enlightened society.”8
Representative Harold
Donohue in his comments on the bill stressed a similar
point: “[T]his measure represents the correction of
basic injustice being visited upon women in many
fields of endeavor. . . .”9 In other words, the Equal Pay
Act was not intended to be a passive measure but a
proactive one designed to correct salary structures
based on the “outmoded belief” that women should be
paid less than men. See Corning, 417 U.S. at 195, 94
S.Ct. 2223 (quoting S. Rep. No. 88-176, at 1 (1963) ).
In light of the clear intent and purpose of the Equal
Pay Act, it is equally clear that we cannot construe the
catchall exception as justifying setting employees’
starting salaries on the basis of their prior pay. At the
7

This case arose in the context of initial wage-setting. By
failing to address compensation for employees seeking
promotions or changes in status within the same organization,
we do not imply that the Equal Pay Act is inapplicable to these
situations.
8

109 Cong. Rec. 9200 (1963) (statement of Rep. Dwyer)
(emphasis added).
9

Id. at 9212 (statement of Rep. Donohue) (emphasis added).

64a
time of the passage of the Act, an employee’s prior pay
would have reflected a discriminatory marketplace
that valued the equal work of one sex over the other.
Congress simply could not have intended to allow
employers to rely on these discriminatory wages as a
justification for continuing to perpetuate wage
differentials.
Today we express a general rule and do not attempt
to resolve its applications under all circumstances. We
do not decide, for example, whether or under what
circumstances, past salary may play a role in the
course of an individualized salary negotiation. We
prefer to reserve all questions relating to
individualized negotiations for decision in subsequent
cases. Our opinion should in no way be taken as
barring or posing any obstacle to whatever resolution
future panels may reach regarding questions relating
to such negotiations.10
B.
Basic principles of statutory interpretation also
establish that prior salary is not a permissible “factor
other than sex” within the meaning of the Equal Pay
Act. The County maintains that the catchall exception
unambiguously provides that any facially neutral
factor constitutes an affirmative defense to liability
under the Equal Pay Act. It is incorrect. The Supreme
Court in Corning did not find the Act clear on its face.
Rather, that decision applied an analytical framework
similar to the one we use here by looking to the history
of the legislative process of the Equal Pay Act as well
10

Accordingly, Judge McKeown’s and Judge Callahan’s
complaints regarding our opinion’s effect upon the setting of pay
on an individualized basis are meritless.

65a
as the context in which the Act was adopted. 417 U.S.
at 198–203, 94 S.Ct. 2223. Following a similar method
of analysis, it is clear that when the catchall exception
is read in light of its surrounding context and
legislative history, a legitimate “factor other than sex”
must be job related and that prior salary cannot justify
paying one gender less if equal work is performed.
1.
The Act “establishes four exceptions—three specific
and one a general catchall provision.” Corning, 417
U.S. at 196, 94 S.Ct. 2223. Where, as here, a statute
contains a catchall term at the end of a list, we rely on
the related principles of noscitur a sociis and ejusdem
generis to “cabin the contextual meaning” of the term,
and to “avoid ascribing to [that term] a meaning so
broad that it is inconsistent with its accompanying
words, thus giving unintended breadth to the Acts of
Congress.” Yates v. United States, ––– U.S. ––––, 135
S.Ct. 1074, 1085–86, 191 L.Ed.2d 64 (2015) (plurality
opinion) (quoting Gustafson v. Alloyd Co., 513 U.S.
561, 575, 115 S.Ct. 1061, 131 L.Ed.2d 1 (1995) ); id. at
1089 (Alito, J., concurring in judgment) (applying
noscitur a sociis and ejusdem generis ).
The canon noscitur a sociis—“a word is known by
the company it keeps”— provides that words grouped
together should be given related meaning. Id. at 1085
(plurality opinion). Here, the catchall phrase is
grouped with three specific exceptions based on
systems of seniority, merit, and productivity. These
specific systems share more in common than mere
gender neutrality; all three relate to job qualifications,
performance, and/or experience. It follows that the

66a
more general exception should be
legitimate, job-related reasons as well.

limited

to

A related canon, ejusdem generis, likewise supports
our interpretation of the catchall term. We apply this
canon when interpreting general terms at the end of a
list of more specific ones. Id. at 1086. In such a case,
“the general words are construed to embrace only
objects similar in nature to those objects enumerated
by the preceding specific words.” Circuit City Stores,
Inc. v. Adams, 532 U.S. 105, 109, 114–15, 121 S.Ct.
1302, 149 L.Ed.2d 234 (2001) (quoting 2A Norman J.
Singer, Sutherland on Statutes and Statutory
Construction § 47.17 (1991) ). The inclusion of the
word “other” before the general provision in the Equal
Pay Act makes its meaning all the more clear: “[T]he
principle of ejusdem generis . . . implies the addition of
similar after the word other.” Antonin Scalia & Bryan
A. Garner, Reading Law: The Interpretation of Legal
Texts 199 (2012). Here, we read the statutory
exceptions as: “(i) a seniority system, (ii) a merit
system, (iii) a system which measures earnings by
quantity or quality of production; or (iv) a differential
based on any other [similar] factor other than sex.” 29
U.S.C. § 206(d)(1). A similar factor would have to be
one similar to the other legitimate, job-related
reasons.
The presence of the word “any”—which the County
contends indicates the expansive reach of the fourth
statutory exception—does not counsel against our
interpretation. In Circuit City Stores, for example, the
Supreme Court interpreted § 1 of the Federal
Arbitration Act, which lists “seamen, railroad
employees, or any other class of workers engaged in
foreign or interstate commerce” to include only

67a
transportation workers, not workers in literally any
industry. 532 U.S. at 109, 114–15, 121 S.Ct. 1302
(emphasis added) (quoting 9 U.S.C. § 1); see also, e.g.,
In re Indian Gaming Related Cases, 331 F.3d 1094,
1113–14 (9th Cir. 2003) (adopting district court’s use
of ejusdem generis to interpret the phrase “any other
purposes specified by the legislature” as being limited
to purposes directly related to gaming).
2.
Although “the authoritative statement is the
statutory text,” the legislative history of the Equal Pay
Act further supports our interpretation that the
catchall exception is limited to job-related factors. See
Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S.
546, 568, 125 S.Ct. 2611, 162 L.Ed.2d 502 (2005).
“[T]he way in which Congress arrived at the statutory
language” can provide “a better understanding of the
[statutory] phrase” in question than “trying to
reconcile or establish preferences between the
conflicting interpretations of the Act by individual
legislators or the committee reports.” Corning, 417
U.S. at 198, 94 S.Ct. 2223. In Corning, the Supreme
Court relied heavily on the history of the legislative
process in interpreting the term “similar working
conditions,” a factor in determining whether
employees perform “equal work” under the Equal Pay
Act. Id. at 199–201, 94 S.Ct. 2223. The Court
explained that “[a]s originally introduced,” the Equal
Pay bills considered in the House and Senate
“required equal pay for ‘equal work on jobs the
performance of which requires equal skills’” and
included “only two exceptions—for differentials ‘made
pursuant to a seniority or merit increase system which
does not discriminate on the basis of sex.’” Id. at 199,

68a
94 S.Ct. 2223; S. 882, 88th Cong. § 4 (1963); S. 910,
88th Cong. § 4(a) (1963); H.R. 3861, 88th Cong. § 4(a)
(1963); H.R. 4269, 88th Cong. § 4(a) (1963). Industry
representatives during the House and Senate hearings
were “highly critical of the Act’s definition of equal
work and of its exemptions.” Corning, 417 U.S. at 199,
94 S.Ct. 2223. The Corning Court compared the
original language in the House and Senate bills to that
in the final Act and thought “it plain that in amending
the bill’s definition of equal work to its present form,
the Congress acted in direct response to these pleas”
for a more definite standard for equal work based on
bona fide job evaluation plans. Id. at 200, 94 S.Ct.
2223. The Court then used that context to interpret
“similar working conditions.” Id. at 200–01, 94 S.Ct.
2223.
We, too, look to the history of the legislative process
and draw a similar conclusion that the inclusion of the
catchall provision in the final bill was in direct
response to the entreaties of industry witnesses.
Industry representatives testified at the congressional
subcommittee hearings that the two exceptions in the
bills that had been introduced in the House and
Senate were too specific and under inclusive, and
“evidence[d] . . . a lack of understanding of industrial
reality.” Equal Pay Act: Hearings Before the H.
Special Subcomm. on Labor of the H. Comm. on Educ.
& Labor on H.R. 3861, 4269, and Related Bills, 88th
Cong. 135 (1963) [hereinafter House Hearing]
(statement of the American Retail Federation). The
witnesses were concerned that companies would no
longer be able to rely on the wide variety of factors
used across industries to measure the value of a
particular job. Accordingly, the witnesses proposed a

69a
series of job-related exceptions in addition to the two
original exceptions that had covered only seniority and
merit systems.
Chief among those was an exception for job
classification programs. The Vice President of OwensIllinois Glass Co. testified: “Job classification and
wage incentive programs are so widely accepted…in
American industry that there seems little need to set
forth a lengthy list of reasons why they should be
excepted from the present bill.” Id. at 101 (statement
of W. Boyd Owen, Vice President of Personnel
Administration, Owens-Illinois Glass Co.). Bona fide
job classification programs were necessarily job
related because they were used to “establish relative
job worth” in diverse industries, “each [of which] has
its own peculiarities and its own customs.” Id. at 238
(statement of E.G. Hester, Director of Industrial
Relations Research, Corning Glass Works). Using
factors like skill and responsibility, these
classification programs were “a yardstick against
which [employers] can measure work performance and
consequently pay.” Id. at 146 (statement of John G.
Wayman, Partner, Reed, Smith, Shaw & McClay).
The Owens-Illinois Glass representative, Mr. Owen,
explained that his proposed exceptions based on job
classification and wage incentive programs would
“merely parallel” the existing exceptions for seniority
and merit systems, id. at 101, both of which were
themselves job related.
Most of the other exceptions urged by industry
witnesses were also job related. Mr. Owen, for
example, explained that there are “countless reasons
for wage variations . . . which are not discriminatory
in nature,” including differences in “the shift or time

70a
of day worked, in the regularity of performing duties,
[and] in training.” Id. at 100. The statement of the
American Retail Federation likewise explained: “It is
a wholly justifiable fact that in retailing there are
many situations where there are differentials in wage
scales based on experience, hours worked (day or
evening), job hazards, physical requirements, and the
like.” Id. at 135.
We think it plain that the catchall exception was
added to the final Equal Pay Act in direct response to
these employers’ concerns that their legitimate, jobrelated means of setting pay would not be covered
under the two exceptions already included in the bill.11
Following the hearings, Representative Edith Green
introduced H.R. 6060, which added the exceptions for
“a differential based on any other factor other than
sex” as well as “a system which measures earnings by
quantity or quality of production.” H.R. 6060, 88th
Cong. § 2(d)(1) (1963). In its report discussing H.R.
6060, the House Committee explained that “a bona
fide job classification program that does not
discriminate on the basis of sex will serve as a valid
defense to a charge of discrimination.” H.R. Rep. No.
11

While the third exception under the Equal Pay Act—“a
system which measures earnings by quantity or quality of
production”—is not at issue in this case, we note that this
exception was also added following the hearings and that the
exception roughly corresponds to the “wage incentive programs”
discussed by the Owens-Illinois Glass representative. See House
Hearing at 99, 101 (statement of W. Boyd Owen, Vice President,
Owens-Illinois Glass Co.); Equal Pay Act of 1963: Hearings Before
the S. Subcomm. on Labor of the S. Comm. on Labor & Pub.
Welfare on S. 882 and S. 910, 88th Cong. 138 (1963) (statement
of W. Boyd Owen, Vice President of Personnel Administration,
Owens-Illinois Glass Co.).

71a
88-309, at 3 (1963), as reprinted in 1963 U.S.C.C.A.N.
687, 689. The Committee also provided an illustrative
list of other factors in addition to job classification
programs which would be covered under the fourth
exception, the catchall provision: “[A]mong other
things, shift differentials, restrictions on or differences
based on time of day worked, hours of work, lifting or
moving heavy objects, differences based on experience,
training, or ability would also be excluded.” Id. In the
end, Representative Robert Griffin, author of the
Landrum-Griffin Act, the landmark labor relations
legislation, put it best.
Describing the catchall
exception, he said, “Roman numeral iv is a broad
principle, and those preceding it are really
examples.”12
The Senate Committee Report likewise confirms
that Congress intended the catchall exception to cover
factors other than sex only insofar as they were job
related. Following the hearings, Senator Patrick
McNamara introduced S. 1409, which removed
reference to seniority and merit systems and instead
included just one statutory exception that was
virtually identical to the Act’s catchall exception. S.
1409, 88th Cong. § 2(d)(1) (1963). That exception read,
“except where such a wage differential is based on any
factor or factors other than sex.” Id. In its report, the
Senate Committee provided illustrative examples of
what this general exception would cover: “seniority
systems . . . based on tenure,” “merit system[s],”
“piecework system[s] which measure[ ] either the
quantity or quality of production or performance,” and
“[w]ithout question,” “other valid classification
12

109 Cong. Rec. 9203 (1963) (statement of Rep. Griffin).

72a
programs. . . .” S. Rep. No. 88-176, at 4 (1963).
Ultimately, the House version of the bill prevailed,
with the House passing H.R. 6060 on May 23, 1963,
see 109 Cong. Rec. 9217, and the Senate agreeing by a
voice vote to the House amendments on May 28, 1963,
see id. at 9761–62. In other words, the Senate
contemplated from the start that the factors
ultimately exempted by the House bill would be
covered by a catchall provision identical in substance
to the fourth exception and that it would cover only
job-related factors.
Contrary to the County’s assertion, Washington
County v. Gunther, 452 U.S. 161, 101 S.Ct. 2242
(1981), supports the concept of a catchall provision
limited to job-related factors. The Court commented
in Gunther that “courts and administrative agencies
are not permitted to ‘substitute their judgment for the
judgment of the employer . . who [has] established and
applied a bona fide job rating system . . . .’”13 The
predicate for this dictum is that the employer must
both establish a bona fide work-related system and
apply it in good faith. The Court went on to reiterate
its earlier conclusion in Corning that “the Equal Pay
bill [was] amended . . . to add the fourth affirmative
defense because of a concern that bona fide jobevaluation systems used by American businesses
would otherwise be disrupted.” Id. at 170 n.11, 101
S.Ct. 2242 (citing Corning, 417 U.S. at 199–201, 94
S.Ct. 2223). In sum, so long as the employer proves
that it is using a bona fide job classification system or
otherwise relying on bona fide job related factors to set
13

452 U.S. at 171, 101 S.Ct. 2242 (alterations in the original)
(quoting 109 Cong. Rec. 9209 (1963) (statement of Rep. Goodell) ).

73a
pay, courts will not second guess the merits of the
particular method used. Courts have followed the
Gunther mandate. They have not held, for example,
that it would be more appropriate to value educational
background over years of experience when setting
salaries or that job training should outweigh
demonstrated ability to do the job. Gunther thus
implicitly endorsed the bargain struck in the Equal
Pay Act: employers may continue to use their
legitimate, job-related means of setting pay but may
not use sex directly or indirectly as a basis for
establishing employees’ wages.14
3.
We are not the only federal court of appeals to
construe the catchall exception as limited to jobrelated factors.15 The Eleventh Circuit, for example,
has concluded that “the ‘factor other than sex’
exception applies when the disparity results from
unique characteristics of the same job; from an
individual’s experience, training, or ability . . .” —in

14 When there is a factual dispute over whether the Equal Pay
Act was violated, courts have established a procedure for
resolving such disputes which differs somewhat from the Title
VII format. See supra note 6; see also Md. Ins. Admin., 879 F.3d
at 120.
15

See Riser v. QEP Energy, 776 F.3d 1191, 1198 (10th Cir.
2015); Aldrich v. Randolph Cent. Sch. Dist., 963 F.2d 520, 526 (2d
Cir. 1992); EEOC v. J.C. Penney Co., 843 F.2d 249, 253 (6th Cir.
1988); Glenn v. General Motors Corp., 841 F.2d 1567, 1571 (11th
Cir. 1988). But see Taylor v. White, 321 F.3d 710, 717–18 (8th Cir.
2003) (“[W]e are reluctant to establish any per se limitations to
the ‘factor other than sex’ exception. . . .”); Covington v. S. Ill.
Univ., 816 F.2d 317, 321–22 (7th Cir. 1987).

74a
other words, job related reasons.16 Glenn, 841 F.2d at
1571. Although some courts occasionally use “jobrelated” and terminology like “business-related” or
“legitimate business reason[s]” interchangeably, we
believe that it is neither helpful nor advisable to do so.
Terms like “business-related” have been used loosely
in a number of cases to refer to factors that are in fact
job related. For example, in Aldrich, the Second
Circuit used interchangeably the terms “jobrelatedness requirement,” “legitimate business
related differences in work responsibilities and
qualifications for the particular positions,” and
“legitimate business-related considerations” to
describe “the proper legal standard for the factorother-than-sex defense.” 963 F.2d at 525, 527.
Remanding the case to the district court, however, the
Second Circuit was clear in its instructions: the
employer could justify the wage differential “only if the
employer proves that the [factor relied on] is jobrelated.” Id. at 527 (emphasis added).17
16

Although the Eleventh Circuit also listed “special exigent
circumstances connected with the business,” it did so in reference
to “red circle rates.” Glenn, 841 F.2d at 1571 (quoting H.R. Rep.
No. 88-309, at 3). Red circle rates, a term from the War Labor
Board, refers to “unusual, higher than normal wage rates” paid
when “an employer…must reduce help in a skilled job” so that
skilled employees are “available when they are again needed for
their former jobs.” H.R. Rep. No. 88-309, at 3. In other words,
these rates are paid based on the skills and experience of the
particular employee who is temporarily transferred to a position
requiring fewer skills and normally paying less. In short, red
circle rates are indeed job related.
17

We have been able to find only one circumstance in which
the use of the term “business-related” does not refer to a factor
that is in fact job related. In EEOC v. J.C. Penney Co., the Sixth

75a
Including “business-related” as a legitimate basis
for exceptions under the catchall provision would
permit the use of far too many improper justifications
for avoiding the strictures of the Act. Not every reason
that makes economic sense—in other words, that is
business related—constitutes an acceptable factor
other than sex. To the contrary, using the word
“business” risks conflating a legitimate factor other
than sex with any cost-saving mechanism. The
Supreme Court and Congress have repeatedly rejected
such an interpretation of the fourth exception.
In Corning, the Supreme Court readily dismissed
the notion that an employer may pay women less
under the catchall exception because women cost less
to employ, thus saving the employer money. The
Court explained that the “market forces theory”—that
women will be willing to accept lower salaries because
they will not find higher salaries elsewhere—did not
constitute a factor other than sex even though such a
method of setting salaries could have saved the
company a considerable amount and so would have
constituted a good “business” reason. Corning, 417
Circuit concluded that a health benefits plan that provided
spousal coverage only if the employee was the “head of household”
(i.e. the higher earner) was justified by the “legitimate business
reason” of “minimizing or controlling cost.” 843 F.2d 249, 253 (7th
Cir. 1988); see also Wambheim v. J.C. Penney Co., 705 F.2d 1492,
1495 (9th Cir. 1983) (same). The EEOC approved the system
grudgingly, requiring that any such defense be “closely
scrutinized” because it “bears no relationship to the requirements
of the job or to the individual’s performance on the job.” 29 C.F.R.
§ 1620.21 (2017). In fact, a head-of-household benefits system
appears to be in considerable tension with City of Los Angeles,
Department of Water & Power v. Manhart, 435 U.S. 702, 98 S.Ct.
1370, 55 L.Ed.2d 657 (1978). See infra.

76a
U.S. at 205, 94 S.Ct. 2223. The Court explained that
“Congress declared it to be the policy of the Act to
correct” the “unfair employer exploitation of this
source of cheap labor.” Id. at 206, 94 S.Ct. 2223
(quoting Hodgson v. Corning Glass Works, 474 F.2d
226, 234 (2d Cir. 1973) ). “That the company took
advantage of such a situation may be understandable
as a matter of economics, but its differential
nevertheless became illegal once Congress enacted
into law the principle of equal pay for equal work.” Id.
at 205, 94 S.Ct. 2223.
Congress and the Supreme Court have also rejected
the notion that an employer may pay women less
under the catchall exception because women cost more
to employ. In City of Los Angeles, Department of Water
& Power v. Manhart, the Supreme Court considered
whether the Department’s practice of requiring female
employees—who on average lived longer than male
employees—to make larger contributions from their
paychecks to its pension fund than male employees
was a discriminatory employment practice. 435 U.S.
at 704–05, 98 S.Ct. 1370.18 In deciding that this
alleged cost difference was not a permissible factor
other than sex, the Court explained that Congress had
rejected an amendment to the Equal Pay Act “that
would have expressly authorized a wage differential
tied to the ‘ascertainable and specific added cost
resulting from employment of the opposite sex.’” Id. at

18

Because the plaintiffs alleged a violation of Title VII based
on unequal wages for equal work, the Equal Pay Act’s affirmative
defenses, including the catchall exception, applied through the
Bennett Amendment to Title VII. Id. at 707, 712 n.22, 98 S.Ct.
1370 (citing 42 U.S.C. § 2000e-2(h) ).

77a
717 n.32, 98 S.Ct. 1370 (quoting 109 Cong. Rec. 9217
(statement of Rep. Findley) ). Acknowledging that the
legislative history is inconclusive as to whether a costjustification exception could constitute a factor other
than sex, the Court noted that “[i]t is difficult to find
language in the statute supporting even this limited
defense.” Id. The Court also emphasized that the
Wage and Hour Administrator, then charged with
enforcing the Act, had interpreted that “a wage
differential based on differences in the average costs
of employing men and women is not based on a factor
other than sex.’” Id. at 714 n.26, 98 S.Ct. 1370
(quoting 29 C.F.R. § 800.151 (1977) ). The Equal
Employment Opportunity Commission, the agency
now charged with enforcing the Equal Pay Act,
continues to interpret the Act this way. See 29 C.F.R.
§ 1620.22 (2017).
Thus, although the catchall
exception applies to a wide variety of job-related
factors, it does not encompass reasons that are simply
good for business. We use “job-related” rather than
“business-related” to clarify the scope of the exception.
4.
Prior salary does not fit within the catchall
exception because it is not a legitimate measure of
work experience, ability, performance, or any other
job-related quality. It may bear a rough relationship
to legitimate factors other than sex, such as training,
education, ability, or experience, but the relationship
is attenuated. More important, it may well operate to
perpetuate the wage disparities prohibited under the
Act. Rather than use a second-rate surrogate that
likely masks continuing inequities, the employer must
instead point directly to the underlying factors for
which prior salary is a rough proxy, at best, if it is to

78a
prove its wage differential is justified under the
catchall exception.
C.
We took this case en banc to clarify our law and the
effect of Kouba v. Allstate Insurance Co., 691 F.2d 873
(9th Cir. 1982). In Kouba, we concluded that “the
Equal Pay Act does not impose a strict prohibition
against the use of prior salary.” Id. at 878. Here, the
district court recognized that its holding that prior
salary alone cannot justify a wage differential
potentially conflicted with Kouba, in which the salary
structure was based on multiple factors including
prior salary. Rizo, 2015 WL 9260587, at *12. The
three-judge panel concluded that our decision in
Kouba permits an employer to “maintain a pay
differential based on prior salary . . . only if it showed
that the factor ‘effectuate[s] some business policy’ and
that the employer ‘use[s] the factor reasonably in light
of the employer’s stated purpose as well as its other
practices.’” Rizo, 854 F.3d at 1161, 1165 (alterations
in original) (quoting Kouba, 691 F.2d at 878). The
panel explained that Kouba “did not attribute any
significance to [the employer’s] use of [ ] other
factors”—ability, education, and experience—in
addition to prior salary in setting employees’ initial
salaries. Id. at 1166. At the same time, Kouba
directed the district court on remand to consider the
extent to which “the employer also uses other
available predictors of the new employee’s
performance.” Kouba, 691 F.2d at 878.
Because Kouba, however construed, is inconsistent
with the rule that we have announced in this opinion,
it must be overruled. First, a factor other than sex

79a
must be one that is job related, rather than one that
“effectuates some business policy.” Second, it is
impermissible to rely on prior salary to set initial
wages.
Prior salary is not job related and it
perpetuates the very gender-based assumptions about
the value of work that the Equal Pay Act was designed
to end. This is true whether prior salary is the sole
factor or one of several factors considered in
establishing employees’ wages. Although some federal
courts of appeals allow reliance on prior salary along
with other factors while barring reliance on prior
salary alone, see, e.g., Glenn, 841 F.2d at 1571 & n.9,
this is a distinction without reason: we cannot
reconcile this distinction with the text or purpose of
the Equal Pay Act. Although Judges McKeown and
Callahan correctly acknowledge in their concurrences
that basing initial salary on an employee’s prior salary
alone violates the Equal Pay Act, neither offers a
rational explanation for their incompatible conclusion
that relying on prior salary in addition to one or more
other factors somehow is consistent with the Act.
Declining to explain the inconsistency of their
positions, they simply rely on those who came before—
the EEOC and other courts of appeals, which also fail
to explain how what is impermissible alone somehow
becomes permissible when joined with other factors.
For obvious reasons, we cannot agree. Reliance on
past wages simply perpetuates the past pervasive
discrimination that the Equal Pay Act seeks to
eradicate. Therefore, we readily reach the conclusion
that past salary may not be used as a factor in initial
wage setting, alone or in conjunction with less
invidious factors.

80a
Conclusion
Unfortunately, over fifty years after the passage of
the Equal Pay Act, the wage gap between men and
women is not some inert historical relic of bygone
assumptions and sex-based oppression. Although it
may have improved since the passage of the Equal Pay
Act, the gap persists today: women continue to receive
lower earnings than men “across industries,
occupations, and education levels.”19 “Collectively, the
gender wage gap costs women in the U.S. over $840
billion a year.”20 If money talks, the message to
women costs more than “just” billions: women are told
they are not worth as much as men. Allowing prior
salary to justify a wage differential perpetuates this
message, entrenching in salary systems an obvious
means of discrimination—the very discrimination that
the Act was designed to prohibit and rectify.
AFFIRMED AND REMANDED.
McKEOWN, Circuit Judge, with whom MURGUIA,
Circuit Judge, joins, concurring:
19

Equal Rights Advocates Amicus Br. at 12 (footnotes
omitted) (first citing Nat’l P’ship for Women & Families,
America’s
Women
and
the
Wage
Gap
2
(2017),
http://www.national
partnership.org/researchlibrary/workplacefairness/fairpay/americas-women-and-thewage-gap.pdf; and then citing
Francine D. Blau & Lawrence M. Kahn, The Wage Gap: Extent,
Trends, and Explanations, (Nat’l Bureau of Econ. Research,
Working Paper No. 21913, 2016), http://www.nber.org/papers/w
21913.pdf).
20

Id. at 11 (citing Nat’l P’ship for Women & Families, supra
note 19, at 1).

81a
For decade after decade, gender discrimination has
been baked into our pay scales, with the result that
women still earn only 80 percent of what men make.
Unfortunately, women employed in certain sectors
face an even larger gap. This disparity is exacerbated
when a woman is paid less than a man for a
comparable job solely because she earned less at her
last job. The Equal Pay Act prohibits precisely this
kind of “piling on,” where women can never overcome
the historical inequality.
I agree with most of the majority opinion—
particularly its observation that past salary can reflect
historical sex discrimination. But the majority goes
too far in holding that any consideration of prior pay
is “impermissible” under the Equal Pay Act, even
when it is assessed with other job-related factors such
as experience, education, past performance and
training. In my view, prior salary alone is not a
defense to unequal pay for equal work.
If an
employer’s only justification for paying men and
women unequally is that the men had higher prior
salaries, odds are that the one-and-only “factor”
causing the difference is sex. However, employers do
not necessarily violate the Equal Pay Act when they
consider prior salary among other factors when setting
initial wages. To the extent salary is considered with
other factors, the burden is on the employer to show
that any pay differential is based on a valid job-related
factor other than sex.
To be sure, the majority correctly decides the only
issue squarely before the court: whether the Fresno
County Office of Education was permitted to base
Aileen Rizo’s starting salary solely on her prior salary.
The answer is no. But regrettably, the majority goes

82a
further and effectively bars any consideration of prior
salary in setting a new salary. Not only does Rizo’s
case not present this issue, but this approach is
unsupported by the statute, is unrealistic, and may
work to women’s disadvantage.
Rizo’s case is an easy one. After she was hired as a
math consultant, she learned that male colleagues in
the same job were being hired at a higher salary. The
only rationale offered by the County was that Rizo’s
salary was lower at a prior job. In effect, the County
“was still taking advantage of the availability of
female labor to fill its [position] at a differentially low
wage rate not justified by any factor other than sex”—
a practice long held unlawful. See Corning Glass
Works v. Brennan, 417 U.S. 188, 208, 94 S.Ct. 2223
(1974); Glenn v. Gen. Motors Corp., 841 F.2d 1567,
1570 (11th Cir. 1988) (“[T]he argument that supply
and demand dictates that women qua women may be
paid less is exactly the kind of evil that the [Equal Pay]
Act was designed to eliminate, and has been
rejected.”); Drum v. Leeson Elec. Corp., 565 F.3d 1071,
1073 (8th Cir. 2009) (It is “prohibited” to rely on the
“‘market force theory’ to justify lower wages for female
employees simply because the market might bear such
wages.”).
This scenario provides a textbook violation of the
“equal pay for equal work” mantra of the Equal Pay
Act. Prior salary level created the only differential
between Rizo and her male colleagues. The County
did not, for example, consider Rizo’s two advanced
degrees or her prior experience in setting her initial
salary. This historical imbalance entrenched unequal
pay for equal work based on sex—end of story. The
County cannot mount a defense on past salary alone.

83a
Congress enacted the Equal Pay Act to root out
historical sex discrimination, declaring it the “policy”
of the Act “to correct the conditions” of “wage
differentials based on sex.” Pub. L. No. 88-38, 77 Stat.
56 (1963). At the signing ceremony, President John F.
Kennedy called the Act “a first step” in “achiev[ing]
full equality of economic opportunity—for the average
woman worker earns only 60 percent of the average
wage for men.” President John F. Kennedy, Remarks
Upon Signing the Equal Pay Act (June 10, 1963),
http://www.presidency.ucsb.edu/ws/?pid=9267.
The
unqualified goal of the statute was to “eliminate wage
discrimination based upon sex.” H.R. REP. NO. 88309, at 1 (1963). Sadly, that gap remains today—with
the median salary of a female employee being only 80
percent of that of a male. See NAT’L P’SHIP FOR WOMEN
& FAMILIES, AMERICA’S WOMEN AND THE WAGE GAP 1
(2017), https://goo.gl/SLEcd8.
Given the stated goal of the Equal Pay Act to erase
the gender wage gap, it beggars belief that Congress
intended for historical pay discrepancies like Rizo’s to
justify pay inequity. See Corning, 417 U.S. at 195, 94
S.Ct. 2223 (“Congress’ purpose in enacting the Equal
Pay Act was to remedy . . . [an] endemic problem of
employment discrimination . . . based on an ancient
but outmoded belief that a man . . . should be paid
more than a woman even though his duties are the
same.”). Congress recently noted that the existence of
gender-based pay disparities “has been spread and
perpetuated” since the passage of the Act and “many
women continue to earn significantly lower than men
for equal work.” H.R. REP. No. 110-783, at 1–2 (2008).
“In many instances, the pay disparities can only be due
to continued intentional discrimination or the

84a
lingering effects of past discrimination.” Id. (emphasis
added).
Because past pay can reflect the very
discrimination Congress sought to eradicate in the
statute, allowing employers to defend unequal pay for
equal work on that basis alone risks perpetuating
unlawful inequity. C.f. Ledbetter v. Goodyear Tire &
Rubber Co., 550 U.S. 618, 647, 127 S.Ct. 2162 (2007)
(Ginsburg, J., dissenting), dissenting position adopted
by legislative action (Jan. 29, 2009) (“Paychecks
perpetuating past discrimination . . . are
actionable . . . because they discriminate anew each
time they issue.”). That danger is best avoided by
construing the Equal Pay Act “to fulfill the underlying
purposes which Congress sought to achieve” and
rejecting prior salary as its own “factor other than sex”
defense. Corning, 417 U.S. at 208, 94 S.Ct. 2223.
Yet I differ with the majority in one key respect.
Merely because prior pay is unavailable as a
standalone defense does not mean that employers may
never use past pay as a factor in setting initial wages.1
Using prior salary along with valid job-related factors
such as education, past performance and training may
provide a lawful benchmark for starting salary in
appropriate cases.2 This interpretation of the statute
1

Contrary to the majority’s assertion, it is wholly consistent
to forbid employers from baldly asserting prior salary as a
defense— without determining whether it accurately measures
experience, education, training or other lawful factors—and to
permit consideration of prior salary along with those valid
factors.
2

As Congress observed, “there are many factors which may be
used to measure the relationships between jobs and which
establish a valid basis for a difference in pay.” H.R. REP. NO. 88309, at 3 (1963). But “wage differentials based solely on the sex

85a
still places the burden on the employer to justify that
salary is determined on the basis of “any other factor
other than sex.”
My views align with those of the Equal Employment
Opportunity Commission (“EEOC”), the agency
charged with administering the Act, and most of our
sister circuits that have addressed the question. The
EEOC’s Compliance Manual states:
[A]n employer may consider prior salary as part
of a mix of factors—as, for example, where the
employer also considers education and
experience and concludes that the employee’s
prior salary accurately reflects ability, based on
job-related qualifications. But because “prior
salaries of job candidates can reflect sex-based
compensation discrimination,” “[p]rior salary
cannot, by itself, justify a compensation
disparity.”
EEOC Amicus Br. 7 (quoting EEOC Compliance
Manual, Compensation Discrimination § 10-IV.F.2.g
(Dec.
5,
2000),
available
at
https://www.eeoc.gov/policy/docs/compensation.html).
The Tenth and Eleventh Circuits reached the same
conclusion, holding that prior pay alone cannot justify
a compensation disparity. See Riser v. QEP Energy,
776 F.3d 1191, 1199 (10th Cir. 2015) (an employer may
decide to pay an elevated salary to an applicant who
rejects a lower offer, but the Act “precludes an
employer from relying solely upon a prior salary to
justify pay disparity”); Irby v. Bittick, 44 F.3d 949, 955
of the employee are an unfair labor standard.” Id. at 2–3
(emphasis added).

86a
(11th Cir. 1995) (“This court has not held that prior
salary can never be used by an employer to establish
pay, just that such a justification cannot solely carry
the affirmative defense.”). The Eighth Circuit has
adopted a similar approach, permitting the use of prior
salary as a defense, but “carefully examin[ing] the
record to ensure that an employer does not rely on the
prohibited ‘market force theory’ to justify lower wages”
for women based solely on sex. Drum, 565 F.3d at
1073. The Second Circuit likewise allows the priorsalary defense, but places the burden on an employer
to prove that a “bona fide business-related reason
exists” for a wage differential—i.e., one that is “rooted
in legitimate business-related differences in work
responsibilities and qualifications for the particular
positions at issue.” Aldrich v. Randolph Cent. Sch.
Dist., 963 F.2d 520, 525–26 (1992).
Only the Seventh Circuit has veered far off course,
holding that prior salary is always a “factor other than
sex.” See Wernsing v. Dep’t of Human Servs., State of
Illinois, 427 F.3d 466, 468–70 (2005).
But its
conclusion—that a “factor other than sex” need not be
“related to the requirements of the particular position”
or even “business related”—contravenes the Act’s
purpose of ensuring women and men earn equal pay
for equal work. Id. at 470. After all, inherent in the
Act is an understanding that compensation should
mirror one’s “skill, effort, and responsibility.” See
Corning, 417 U.S. at 195, 94 S.Ct. 2223 (quoting 29
U.S.C. § 206(d)(1) ); see also Glenn, 841 F.2d at 1571.
Because we know that historical sex discrimination
persists, it cannot be that prior salary always reflects
a factor other than sex.

87a
I fear, however, that the majority makes the same
categorical error as the Seventh Circuit, but in the
opposite direction: it announces that prior salary is
never a “factor other than sex.” By forbidding
consideration of prior salary altogether, the majority
extends the scope of the statute and risks imposing
Equal Pay Act liability on employers for using prior
salary as any part of the calculus in making wagesetting decisions. That, too, is a drastic holding,
particularly because companies and institutions often
consider prior salary in making offers to lure away top
talent from their competitors or to attract employees
with specific skills. In unpacking what goes into the
calculation, it may well be that salary accurately
gauges a prospective employee’s “skill, effort, and
responsibility,” as the Equal Pay Act envisions—in
addition to her education, training, and past
performance—and a new employer wants to exceed
that benchmark. The Equal Pay Act should not be an
impediment for employees seeking a brighter future
and a higher salary at a new job. See generally ORLY
LOBEL, TALENT WANTS TO BE FREE 49–75 (Yale
Univ. Press 2013) (concluding that employee mobility
between competitors promotes innovation and job
growth); Cade Metz, Tech Giants Are Paying Huge
Salaries for Scarce A.I. Talent, N.Y. TIMES, Oct. 23,
2017, at B1 (noting that employers pay a premium to
hire top engineering talent).
On that front, states have begun passing statutes
that prohibit employers from asking employees about
their prior salaries.3 California’s statute just went
3

A bill has been introduced in Congress to enact a federal
prohibition on “requiring” or “requesting” that prospective

88a
into effect. See Cal. Labor Code § 432.3. Those laws
represent creative efforts to narrow the gender wage
gap. But they also provide important exemptions for
employees who wish to disclose prior salaries as part
of a salary negotiation. See, e.g., Cal. Labor Code
§ 432.3(g). Although the majority professes that its
decision does not relate to negotiated salaries, the
principle of the majority’s holding may reach beyond
these state statutes by making it a violation of federal
antidiscrimination law to consider prior salary, even
when an employee chooses to provide it as a
bargaining chip for higher wages. I am concerned
about chilling such voluntary discussions. Indeed, the
result may disadvantage rather than advantage
women.
To avoid those consequences, the majority
endeavors to limit its decision by announcing that it
“express[es] a general rule and do[es] not attempt to
resolve its applications under all circumstances.” The
majority disclaims, for example, deciding “whether or
under what circumstances, past salary may play a role
in the course of an individualized salary negotiation.”
See Maj. Op. at 461. The majority’s disclaimer hardly
cushions the practical effect of its “general rule.”
Because the majority makes it “impermissible to rely
on prior salary to set initial wages” under the Act, it
has left little daylight for arguing that negotiated
starting salaries should be treated differently than
established pay scales. See Maj. Op. at 468. In the

employees disclose previous wages or salary history. See H.R.
2418, 115th Cong. (2017). Like its state counterparts, this bill
does not seek to outlaw salary negotiations initiated by an
employee.

89a
real world, an employer “rel[ies] on prior salary to set
initial wages” when it takes the prior salary offered
voluntarily by an employee in negotiations and sets a
starting salary above those past wages, even if there
is an established pay scale.
The more limited holding adopted by our sister
circuits better accords with common sense and the
statutory text. The Equal Pay Act provides an
affirmative defense for “any other factor other than
sex.” See 29 U.S.C. § 206(d)(1) (emphasis added). The
majority opinion recognizes that “legitimate, jobrelated factors such as a prospective employee’s
experience, educational background, ability, or prior
job performance” operate as affirmative defenses. But
the majority nonetheless renders those valid, jobrelated factors nugatory when an employer also
considers prior salary. That is a puzzling outcome.
For these reasons, I concur in the result, but not the
majority’s rationale.
CALLAHAN,
Circuit
Judge,
with
TALLMAN, Circuit Judge, joins, concurring:

whom

We all agree that men and women should receive
equal pay for equal work regardless of gender. Indeed,
we agree that the purpose of the Equal Pay Act of 1963
was to change “should receive equal pay” to “must
receive equal pay.” However, I write separately
because in holding that prior salary can never be
considered, the majority fails to follow Supreme Court
precedent, unnecessarily ignores the realities of
business and, in doing so, may hinder rather than
promote equal pay for equal work.

90a
The factual fallacies of the majority opinion are,
first, that prior salary is not generally job-related, and
second, that prior salary inherently reflects wage
discrepancies based on gender. In fact, prior salary is
a prominent consideration for both a job applicant and
the potential employer. The applicant presumably
seeks a job that will pay her more and the potential
employer recognizes that it will have to pay her more
if it wants to hire her. Of course, a prior salary might
reflect a wage discrepancy based on gender, but this
does not justify the majority’s absolute position.
Prior salary serves, in combination with other
factors, to allow employers to set a competitive salary
that will entice potential employees to take the job.
The majority’s approach ignores these economic
incentives and appears to demand a lockstep pay
system such as is often used in government service.1
We allow private industry more flexibility. In the
private sector, basing initial salary upon previous
salary, plus other factors such as experience and
education, encourages hard work and rewards
applicants who have stellar credentials. The majority
opinion stifles these economic incentives with a flat
prohibition on ever considering prior salary, no matter
how enlightened or non-discriminatory it may have
been.
Second, the assumption that prior salary inherently
reflects gender bias is not true. The majority opinion
completely ignores economic disparity in pay for the
same jobs performed in different parts of the country,
1

See United States Office of Personnel Management,
https://www.opm.gov/policy-data-oversight/pay-leave/paysystems/federal-wagesystem/ (last visited Feb. 21, 2018).

91a
where costs of living are lower and demand for
available jobs may exceed the supply of available and
highly competitive positions. While there is no
question that prior salary in some instances may well
reflect gender discrimination, this is not always the
case. Historically, differences in prior salaries may
simply reflect the differing costs of living in various
parts of the country. And the flat prohibition ignores
the fact that when the prior salary was set there may
well have been more qualified job seekers than there
were available jobs to fill.
I
As required by the Equal Pay Act, Rizo, at least for
the purposes of a motion for summary judgment, made
a prima facie case of pay discrimination by showing
that (1) she performed substantially equal work to
that of her male colleagues; (2) the work conditions
were basically the same; and (3) the male employees
were paid more. See Riser v. QEP Energy, 776 F.3d
1191, 1196 (10th Cir. 2015).
The County does not contest the prima facie case but
argues that Rizo’s salary was exempt from Equal Pay
Act coverage under the fourth exception in 29 U.S.C.
§ 206(d)(1). Subsection (d)(1) reads:
No employer having employees subject to any
provisions of this section shall discriminate,
within any establishment in which such
employees are employed, between employees on
the basis of sex by paying wages to employees in
such establishment at a rate less than the rate at
which he pays wages to employees of the opposite
sex in such establishment for equal work on jobs
the performance of which requires equal skill,

92a
effort, and responsibility, and which are
performed under similar working conditions,
except where such payment is made pursuant to
(i) a seniority system; (ii) a merit system; (iii) a
system which measures earnings by quantity or
quality of production; or (iv) a differential based
on any other factor other than sex.
We agree that this suit turns on our interpretation
of the fourth exception in 29 U.S.C. § 206(d)(1): “a
differential based on any other factor other than sex.”
II
“The Equal Pay Act is broadly remedial and it
should be construed and applied so as to fulfill the
underlying purposes which Congress sought to
achieve.” Corning Glass Works v. Brennan, 417 U.S.
188, 208, 94 S.Ct. 2223 (1974). The majority struggles
mightily and unnecessarily to couple the fourth
exception—despite its clear language—so closely with
the other three exceptions that it loses independent
meaning.2 In doing so, the majority conveniently
overlooks the differences within the three specific
2

The majority invokes the old chestnuts of statutory
interpretation, noscitur a sociis and ejusdem generis, but they are
not very helpful. The Supreme Court in Corning Glass, 417 U.S.
at 196, 94 S.Ct. 2223, recognized that the Equal Pay Act
“establishes four exceptions— three specific and one general
catchall provision.” It follows that noscitur a sociis— “a word is
known by the company it keeps”— does not aid our interpretation
of the statute because the catchall provision is intended to
contrast with the specific exceptions, not reflect them. For the
same reason, ejusdem generis is of little assistance as the
“catchall provision” is not intended to be similar to the specific
exceptions.

93a
exceptions. While merit systems and measuring
earnings by quantity and quality of production are
specifically job-related, that is not true of seniority
systems. Indeed, at the time of the passage of the
Equal Pay Act, if not today, seniority systems
accounted for a fair amount of pay inequality.3
Furthermore, the majority’s insistence that the fourth
exception is limited to specific job-related qualities is
contrary to the Supreme Court’s statement that the
fourth exception “was designed differently, to confine
the application of the Act to wage differentials
attributable to sex discrimination.” Washington Cty. v.
Gunther, 452 U.S. 161, 170, 101 S.Ct. 2242 (1981).4
3

For example, one-quarter of the complaints filed in the year
after the passage of the Equal Pay Act concerned complaints by
women that they were excluded from jobs because of seniority
rules or because men were preferred over women after layoffs.
Vicki Lens, Supreme Court Narratives on Equality and Gender
Discrimination in Employment: 1971–2002, 10 Cardozo Women’s
L.J. 501, 507 (2004).
4

The paragraph from which this quote is taken reads in full:
More importantly, incorporation of the fourth affirmative defense
could have significant consequences for Title VII litigation. Title
VII’s prohibition of discriminatory employment practices was
intended to be broadly inclusive, proscribing “not only overt
discrimination but also practices that are fair in form, but
discriminatory in operation.” Griggs v. Duke Power Co., 401 U.S.
424, 431, 91 S.Ct. 849, 853, 28 L.Ed.2d 158 (1971). The structure
of Title VII litigation, including presumptions, burdens of proof,
and defenses, has been designed to reflect this approach. The
fourth affirmative defense of the Equal Pay Act, however, was
designed differently, to confine the application of the Act to wage
differentials attributable to sex discrimination. H.R. Rep. No.
309, 88th Cong., 1st Sess., 3 (1963), U.S. Code Cong. & Admin.
News 1963, p. 687. Equal Pay Act litigation, therefore, has been
structured to permit employers to defend against charges of
discrimination where their pay differentials are based on a bona

94a
Thus, the Equal Pay Act’s fourth exception for any
“differential based on any other factor other than sex”
allows for reasonable business reasons that extend
beyond the narrow definition of job-related.
More importantly, the limitation of “any other factor
other than sex” to specific job-related qualities is
contrary to the Supreme Court’s approach in
Washington County. The Court explained that Equal
Pay Act litigation “has been structured to permit
employers to defend against charges of discrimination
where their pay differentials are based on a bona fide
use of ‘other factors other than sex.’” 452 U.S. at 170,
101 S.Ct. 2242. The Court went on to hold that courts
and administrative agencies were not permitted to
substitute their judgment for the judgment of the
employer “so long as it does not discriminate on the
basis of sex.” Id. at 171, 101 S.Ct. 2242. Thus, we are
directed not to look to whether a differential is
specifically job-related, but whether regardless of its

fide use of “other factors other than sex.” Under the Equal Pay
Act, the courts and administrative agencies are not permitted to
“substitute their judgment for the judgment of the employer . . .
who [has] established and applied a bona fide job rating system,”
so long as it does not discriminate on the basis of sex. 109
Cong.Rec. 9209 (1963) (statement of Rep. Goodell, principal
exponent of the Act). Although we do not decide in this case how
sex-based wage discrimination litigation under Title VII should
be structured to accommodate the fourth affirmative defense of
the Equal Pay Act, see n.8, supra, we consider it clear that the
Bennett Amendment, under this interpretation, is not rendered
superfluous.
Washington Cty., 452 U.S. at 170–71, 101 S.Ct. 2242 (footnote
omitted).

95a
“job-relatedness,”
discrimination.5

it

is

attributable

to

sex

III
I agree that based on the history of pay
discrimination and the broad purpose of the Equal Pay
Act, prior salary by itself is not inherently a “factor
other than sex.” As the Eleventh Circuit noted, “if
prior salary alone were a justification, the exception
would swallow up the rule and inequality in pay
among genders would be perpetuated.” Irby v. Bittick,
44 F.3d 949, 955 (11th Cir. 1995). However, the
Eleventh Circuit continued:

5

This conclusion is further supported by a footnote in the
Court’s decision, which states:
The legislative history of the Equal Pay Act was examined
by this Court in Corning Glass Works v. Brennan, 417 U.S.
188, 198201, 94 S.Ct. 2223, 2229–2231, 41 L.Ed.2d 1
(1974). The Court observed that earlier versions of the
Equal Pay bill were amended to define equal work and to
add the fourth affirmative defense because of a concern
that bona fide job-evaluation systems used by American
businesses would otherwise be disrupted. Id., at 199–201,
94 S.Ct. at 2230–2231. This concern is evident in the
remarks of many legislators. Representative Griffin, for
example, explained that the fourth affirmative defense is a
“broad principle,” which “makes clear and explicitly states
that a differential based on any factor or factors other than
sex would not violate this legislation.” 109 Cong.Rec. 9203
(1963).
See also id., at 9196 (remarks of Rep.
Frelinghuysen); id., at 9197–9198 (remarks of Rep.
Griffin); ibid., (remarks of Rep. Thompson); id., at 9198
(remarks of Rep. Goodell); id., at 9202 (remarks of Rep.
Kelly); id., at 9209 (remarks of Rep. Goodell); id., at 9217
(remarks of Reps. Pucinski and Thompson).
Washington Cty., 452 U.S. at 170 n.11, 101 S.Ct. 2242.

96a
an Equal Pay Act defendant may successfully
raise the affirmative defense of “any other factor
other than sex” if he proves that he relied on prior
salary and experience in setting a “new”
employee’s salary. While an employer may not
overcome the burden of proof on the affirmative
defense of relying on “any other factor other than
sex” by resting on prior pay alone, as the district
court correctly found, there is no prohibition on
utilizing prior pay as part of a mixed-motive,
such as prior pay and more experience. This
court has not held that prior salary can never be
used by an employer to establish pay, just that
such a justification cannot solely carry the
affirmative defense.
Id.
Many of our sister circuits are in accord. The Tenth
Circuit has held that “an individual’s former salary
can be considered in determining whether pay
disparity is based on a factor other than sex,” but that
“the EPA ‘precludes an employer from relying solely
upon a prior salary to justify pay disparity.’” Riser,
776 F.3d at 1199 (citing Angove v. Williams–Sonoma,
Inc., 70 Fed.Appx. 500, 508, 2003 WL 21529409 (10th
Cir. 2003) (unpublished) ). The Second and Sixth
Circuits are basically in agreement. See Aldrich v.
Randolph Cent. Sch. Dist., 963 F.2d 520, 525 (2d Cir.
1992) (recognizing “that job classification systems may
qualify under the factor-other than-sex defense only
when they are based on legitimate business-related
considerations”); EEOC v. J.C. Penney Co. Inc., 843
F.2d 249, 253 (6th Cir. 1988) (holding that “the
legitimate business record standard is the appropriate

97a
benchmark against which to measure the ‘factor other
than sex’”.6
This approach reflects that the fourth exception was
intended to be, and is, broad. Thus, while a pay system
that relied exclusively on prior salary is conclusively
presumed to be gender based—to perpetuate gender
based inequality—a pay system that uses prior pay as
one of several factors deserves to be considered on its
own merits. When a plaintiff makes a prima facie case
of pay inequality based on gender, the burden of
showing that the difference is not based on gender
shifts to the employer. In other words, the prima facie
case creates a presumption that the pay inequality
arising from the employer’s pay system is gender
based and hence is not a “factor other than sex.” In
Corning Glass, the Supreme Court explained that the
Equal Pay Act’s
structure and history also suggest that once the
Secretary has carried his burden of showing that
the employer pays workers of one sex more than
workers of the opposite sex for equal work, the
burden shifts to the employer to show that the
6

The Seventh and Eighth Circuits prefer an even broader
definition for “factor other than sex.” Covington v. S. Ill. Univ.,
816 F.2d 317, 321–22 (7th Cir. 1987) (holding that the EPA does
not preclude “an employer from carrying out a policy which,
although not based on employee performance, has in no way been
shown to undermine the goals of the EPA”); Taylor v. White, 321
F.3d 710, 720 (8th Cir. 2003) (stating that “a case-by-case
analysis of reliance on prior salary or salary retention policies
with careful attention to alleged gender-based practices
preserves the business freedoms Congress intended to protect
when it adopted the catch-all ‘factor other than sex’ affirmative
defense”).

98a
differential is justified under one of the Act’s four
exceptions.
Corning Glass, 417 U.S. at 196, 94 S.Ct. 2223; see
also Maxwell v. City of Tucson, 803 F.2d 444, 445–46
(9th Cir. 1986) (stating that once the plaintiff
establishes a prima facie case, “the burden shifts to the
employer to show that the wage disparity is permitted
by one of the four statutory exceptions to the Equal
Pay Act”). There is no justification for holding that an
employer could, as a matter of law, justify the
differential under one of the first three exceptions, but
not the fourth exception. Accordingly, I differ from the
majority in that I think, as do the majority of our sister
circuits, that when salary is established based on a
multi-factor salary system that includes prior salary,
the presumption that the system is based on gender is
rebuttable.7
This is also the position of the EEOC, the agency
charged with enforcing the EPA. In its amicus brief,
the EEOC states that in its view because prior salaries
“can reflect sex-based compensation discrimination,” a
prior salary “cannot by itself justify a compensation
disparity,” but “an employer may consider prior salary
as part of a mix of factors.”8 That seems a reasonable

7

I agree with the majority that the market force theory for
paying women less was discredited by the Supreme Court in
Corning Glass, 417 U.S. at 205, 94 S.Ct. 2223, and that the notion
that an employer may pay women less because women allegedly
cost more to employ than men was discredited in City of Los
Angeles, Department of Water & Power v. Manhart, 435 U.S. 702,
98 S.Ct. 1370 (1978). See Majority Opinion at 466–67.
8

In EEOC Notice Number 915.002 (Oct. 29, 1997),
“Enforcement Guidance on Sex Discrimination in the

99a
approach to a multi-faceted decision to formulate a
rate of pay.
In sum, I note that “prior pay” is not inherently a
reflection of gender discrimination. Differences in
prior pay may well be based on other factors such as
the cost of living in different parts of our country. Also,
it is possible, and we hope in this day probable, that
the prior employer had adjusted its pay system to be
gender neutral. Nonetheless, consistent with the
intent of the EPA, I agree that where prior pay is the
exclusive determinant of pay, the employer cannot
carry its burden of showing that it is a “factor other
than sex.”9 However, neither Congress’s intent, nor
Compensation of Sports Coaches in Educational Institutions,” the
EEOC advised:
Thus, if the employer asserts prior salary as a factor other
than sex, evidence should be obtained as to whether the
employer: 1) consulted with the employee’s previous
employer to determine the basis for the employee’s starting
and final salaries; 2) determined that the prior salary was
an accurate indication of the employee’s ability based on
education, experience, or other relevant factors; and 3)
considered the prior salary, but did not rely solely on it in
setting the employee’s current salary.
9

We read the EPA to place the burden on the employer to
demonstrate that the pay differential falls within the fourth
exception; that it is indeed not based on gender. An employer
cannot meet this burden where the pay system is based solely on
prior pay because by blindly accepting the prior pay, it cannot
rebut the presumption that using the prior pay perpetuates the
inequality of pay based on gender that the EPA seeks to correct.
If, instead, as suggested by the EEOC’s Notice Number 915.002,
an employer not only looked to prior pay but also researched
whether the applicant’s prior pay reflected gender based
inequality, and made adjustments if it did, the employer would
no longer be relying exclusively on prior pay. Thus, in such a

100a
the language of the Equal Pay Act, nor logic, requires,
or justifies, the conclusion that a pay system that
includes prior pay as one of several ingredients can
never be a “factor other than sex,” and thus fails to
come within the fourth exception to the Equal Pay Act.
IV
In this case, the County based pay only on prior
salary, and accordingly the district court properly
denied it summary judgment.
Nonetheless, the
majority unnecessarily, incorrectly, and contrary to
Supreme Court precedent, insists that prior salary can
never be a factor in a pay system that falls within the
fourth exception to the Equal Pay Act. Accordingly, I
concur separately because following the Supreme
Court’s guidance, I agree with the Tenth and Eleventh
Circuits, as well as the EEOC, the agency charged
with enforcing the EPA, that prior pay may be a
component of a pay system that comes within the
fourth exception recognized in 29 U.S.C. § 206(d)(1). A
defense to a pay discrimination claim will lie if the
employer meets its burden of showing that its system
does not perpetuate or create a pay differential based
on sex. We should not have reached out to hold
otherwise, particularly as there was no need to do so.10

situation, an employer might be able to overcome the
presumption and show that its pay system was a “factor other
than sex.”
10

The majority’s assertion that it expresses a “general rule”
and does not “attempt to resolve its application under all
circumstances” (Majority Opinion at 461) is at odds with its
conclusion that past salary cannot be considered “alone or in
conjunction with less invidious factors.” Majority Opinion at 468.
As Judge McKeown notes in her separate concurrence, the

101a
For these reasons, I concur in the result, but not the
majority’s rationale.
WATFORD, Circuit Judge, concurring in the
judgment:
I agree with the result the majority reaches, but I
arrive there through a somewhat different reading of
the statute.
The Equal Pay Act prohibits employers from
discriminating “on the basis of sex” by paying female
employees less than their male counterparts for doing
the same work. 29 U.S.C. § 206(d)(1). The Act allows
an employer to justify such a pay disparity by proving,
as an affirmative defense, that the disparity is based
on a “factor other than sex.” Id.; see Corning Glass
Works v. Brennan, 417 U.S. 188, 196, 94 S.Ct. 2223
(1974). In my view, past pay can constitute a “factor
other than sex,” but only if an employee’s past pay is
not itself a reflection of sex discrimination. If past pay
does reflect sex discrimination, an employer cannot
rely on it to justify a pay disparity, whether the
employer considers past pay alone or in combination
with other factors. I agree with the majority that
holding otherwise would permit employers to
perpetuate the very form of sex discrimination the Act
was intended to outlaw.
This reading of § 206(d)(1) aligns with the Supreme
Court’s interpretation of the same provision in
Corning Glass. There, Corning Glass had for many
years paid female day-shift inspectors less than male
“disclaimer hardly cushions the practical effect of its ‘general
rule.’” McKeown Concurrence at 472.

102a
night-shift inspectors, even though both sets of
inspectors performed the same work. The company
argued that this pay disparity was simply the result of
prevailing market forces, which allowed men to
demand and receive higher wages than women. The
Court rejected that argument and held that the
disparity nonetheless violated the Act’s requirement of
“equal pay for equal work.” 417 U.S. at 205, 94 S.Ct.
2223.
The Court also rejected the company’s attempt to
defend its new pay system, which eliminated the pay
disparity going forward. Beginning in January 1969,
all newly hired inspectors would be paid the same
wage regardless of shift. The company set the new,
uniform wage at an hourly rate above what the dayshift inspectors had been earning but below what the
night-shift inspectors made.
Existing employees
would be paid the new, uniform wage as well, unless
they had been earning more beforehand. That meant
existing day-shift inspectors got a raise (to the new,
uniform wage), but existing nightshift inspectors got
to retain their previous, higher wage. Id. at 194, 208–
09 & n.29, 94 S.Ct. 2223. The Supreme Court held
that the resulting pay disparity between female dayshift and male nightshift inspectors’ wages was illegal:
Although the disparity was attributable to a “neutral
factor other than sex”—namely, past pay—the
employer could not avail itself of the affirmative
defense because an employee’s past pay in this
instance reflected sex discrimination. Id. at 209–10,
94 S.Ct. 2223. Holding otherwise, the Court noted,
would “perpetuate the effects of the company’s prior
illegal practice of paying women less than men for
equal work.” Id.

103a
I think the same analysis should govern even when
an employer’s prior pay practices are not overtly
discriminatory, as they were in Corning Glass. If an
employer seeks to justify paying women less than men
by relying on past pay, it bears the burden of proving
that its female employees’ past pay is not tainted by
sex discrimination, including discriminatory pay
differentials attributable to prevailing market forces.
See id. at 205, 94 S.Ct. 2223. Unfortunately, even
today, in most instances that will be exceedingly
difficult to do. Despite progress in closing the wage
gap, gender pay disparities persist in virtually every
sector of the American economy, with women today
earning on average only about 82% of what men make,
even after controlling for education, work experience,
and other factors. See Francine D. Blau & Lawrence
M. Kahn, The Gender Wage Gap: Extent, Trends, and
Explanations, 55 J. Econ. Literature 789, 797–800
(2017). It therefore remains highly likely that a
woman’s past pay will reflect, at least in part, some
form of sex discrimination. As a result, an employer
will rarely be able to justify a gender pay disparity by
relying on the fact that a female employee made less
than her male counterparts at her prior job.
The employer in this case failed to prove that Aileen
Rizo’s past pay is not tainted by sex discrimination.
Her prior salary thus cannot be deemed a “factor other
than sex.” For that reason, I agree that the district
court properly denied the County’s motion for
summary judgment.

104a

APPENDIX C

Aileen RIZO, Plaintiff-Appellee,
v.
Jim YOVINO, Fresno County Superintendent of
Schools, Erroneously Sued Herein as Fresno
County Office of Education, DefendantAppellant.
No. 16-15372
United States Court of Appeals, Ninth Circuit.
Argued and Submitted February 17, 2017 San
Francisco, California
Filed April 27, 2017
_______
Appeal from the United States District Court for the
Eastern District of California, Michael J. Seng,
Magistrate Judge, Presiding, D.C. No. 1:14-cv-00423MJS
Before: A. WALLACE TASHIMA and ANDREW D.
HURWITZ, Circuit Judges, and LYNN S.
ADELMAN,** District Judge.

**

The Honorable Lynn S. Adelman, United States District
Judge for the Eastern District of Wisconsin, sitting by
designation.

105a
OPINION
ADELMAN, District Judge:
The plaintiff, Aileen Rizo, is an employee of the
public schools in Fresno County. After discovering
that the County pays her less than her male
counterparts for the same work, she brought this
action under the Equal Pay Act, 29 U.S.C. § 206(d),
Title VII of the Civil Rights Act of 1964, 42 U.S.C.
§ 2000e-5, and the California Fair Employment and
Housing Act, Cal. Gov. Code § 12940. When the
County1 moved for summary judgment, it conceded
that it paid the plaintiff less than comparable male
employees for the same work. However, it argued that
this result was lawful because the pay differential was
“based on any other factor other than sex,” an
affirmative defense to a claim under the Equal Pay
Act. This other factor was prior salary, and the district
court concluded that when an employer bases a pay
structure “exclusively on prior wages,” any resulting
pay differential between men and women is not based
on any other factor other than sex. Rizo v. Yovino, No.
1:14cv-0423-MJS, 2015 WL 9260587, at *9 (E.D. Cal.
Dec. 18, 2015). Based on this conclusion, the district
court denied the County’s motion for summary
judgment.
The district court candidly recognized that its
decision potentially conflicted with this court’s
decision in Kouba v. Allstate Insurance Co., in which
we held that prior salary can be a factor other than
1

The defendant is Jim Yovino, the Fresno County
Superintendent of Schools. However, because Yovino is sued in
his official capacity, in this opinion we will refer to the defendant
as the County.

106a
sex, provided that the employer shows that prior
salary “effectuate[s] some business policy” and the
employer uses prior salary “reasonably in light of [its]
stated purpose as well as its other practices,” 691 F.2d
873, 876–77 (9th Cir. 1982), and thus certified its
decision for interlocutory appeal under 28 U.S.C.
§ 1292(b). We permitted that appeal and authorized
the County to appeal from the order denying summary
judgment.
We conclude that this case is controlled by Kouba.
We therefore vacate the district court’s order and
remand with instructions to reconsider the County’s
motion for summary judgment.
I.
In 2009, the County hired the plaintiff as a math
consultant, a position it classifies as managementlevel. When the County hired Rizo, it used a salary
schedule known as “Standard Operation Procedure
1440” to determine the starting salaries of
management-level employees. This schedule consists
of twelve “levels,” each of which has progressive
“steps” within it. New math consultants receive
starting salaries within Level 1, which has ten steps,
with pay ranging from $62,133 at Step 1 to $81,461 at
Step 10. To determine the step within Level 1 on
which the new employee will begin, the County
considers the employee’s most recent prior salary and
places the employee on the step that corresponds to his
or her prior salary, increased by 5%.
Prior to being hired by Fresno County, the plaintiff
worked as a math teacher at a middle school in
Arizona. When she left that position, she was
receiving a salary of $50,630 per year, plus an annual

107a
stipend of $1,200 for her master’s degree. Adding 5%
to the plaintiff’s prior compensation resulted in a
salary lower than Fresno County’s Level 1, Step 1
salary. Thus, under Standard Operation Procedure
1440, the plaintiff’s starting salary was set at the
minimum Level 1 salary: $62,133. However, the
County also paid the plaintiff a $600 stipend for her
master’s degree, so her total starting pay was $62,733
per year.
In July 2012, the plaintiff was having lunch with
her colleagues when a male math consultant who had
recently been hired informed her that he started on
Step 9 of Level 1. The plaintiff subsequently learned
that the other math consultants, all of whom were
male, were paid more than she was. The plaintiff
complained to the County about this disparity, but the
County informed her that all salaries had been
properly set under Standard Operation Procedure
1440.
Dissatisfied with the County’s response, the
plaintiff initiated this suit. The County moved for
summary judgment, arguing that the plaintiff’s
salary, though less than her male colleagues’, was
based on “any other factor other than sex,” namely,
prior salary. The district court determined that, under
the Equal Pay Act, prior salary alone can never qualify
as a factor other than sex, reasoning that “a pay
structure based exclusively on prior wages is so
inherently fraught with the risk… that it will
perpetuate a discriminatory wage disparity between
men and women that it cannot stand, even if
motivated by a legitimate non-discriminatory business
purpose.” Rizo, 2015 WL 9260587, at *9. The court

108a
therefore denied the County’s motion for summary
judgment.
II.
Under the Equal Pay Act, the plaintiff has the
burden of establishing a prima facie case of
discrimination. Stanley v. Univ. of S. Cal., 178 F.3d
1069, 1073–74 (9th Cir. 1999). “The Equal Pay Act
creates a type of strict liability; no intent to
discriminate need be shown.” Maxwell v. City of
Tucson, 803 F.2d 444, 446 (9th Cir. 1986) (internal
quotation marks and citation omitted). Thus, to make
out a prima facie case, the plaintiff must show only
that he or she is receiving different wages for equal
work. Hein v. Or. Coll. of Educ., 718 F.2d 910, 916 (9th
Cir. 1983).
“Once the plaintiff establishes a prima facie case,
the burden of persuasion shifts to the employer to
show that the wage disparity is permitted by one of the
four statutory exceptions to the Equal Pay Act: ‘(i) a
seniority system; (ii) a merit system; (iii) a system
which measures earnings by quantity or quality of
production; or (iv) a differential based on any other
factor other than sex.’” Maxwell, 803 F.2d at 446
(quoting 29 U.S.C. § 2069(d)(1)). “These exceptions
are affirmative defenses which the employer must
plead and prove.” Kouba, 691 F.2d at 875.2

2 The plaintiff also alleges claims under Title VII and the
California Fair Employment and Housing Act. “When a Title VII
claimant contends that she has been denied equal pay for
substantially equal work, …Equal Pay Act standards apply.”
Maxwell, 803 F.2d at 446; see also Kouba, 691 F.2d at 875. For
this reason, we do not separately discuss the plaintiff’s Title VII
claim. Because the parties do not assert that there are differences

109a
In the district court, the County conceded that the
plaintiff had established a prima facie case under the
Equal Pay Act, but asserted the affirmative defense
that the pay differential was “based on any other
factor other than sex.” Because the County sought
summary judgment on the basis of an affirmative
defense on which it would bear the burden of proof at
trial, it must show at the summary-judgment stage
that “no reasonable trier of fact” could fail to find that
it had proved that defense. Soremekun v. Thrifty
Payless, Inc., 509 F.3d 978, 984 (9th Cir. 2007).
However, the issue that prompted this interlocutory
appeal is purely one of law: whether the district
court’s conclusion that prior salary alone can never be
a “factor other than sex” is correct.
In Kouba, the employer, Allstate Insurance,
“compute[d] the minimum salary guaranteed to a new
sales agent on the basis of ability, education,
experience, and prior salary.” 691 F.2d at 874. As
result of this practice, on average, female agents made
less than male agents. Id. at 875. The plaintiff alleged
that Allstate’s “use of prior salary caused the wage
differential,” and that therefore the differential
violated the Equal Pay Act. Id. Allstate argued that,
to the extent its use of prior salary “caused the wage
differential,” “prior salary constitute[d] a factor other
than sex.” Id. The district court rejected this
argument, reasoning that (1) because so many
employers paid discriminatory salaries in the past, the
court would presume that a female agent’s prior salary
was based on her gender unless the employer
between federal law and the California Fair Employment and
Housing Act, we also do not separately discuss California law.

110a
presented evidence to rebut that presumption, and (2)
absent such a showing, prior salary is not a factor
other than sex. Id.
On appeal, we rejected the district court’s
interpretation of the Equal Pay Act. Id. at 876. We
held that “the Equal Pay Act does not impose a strict
prohibition against the use of prior salary,” even
though an employer could “manipulate its use of prior
salary to underpay female employees.” Id. at 878.
However, we did not hold that prior salary
automatically qualifies as a factor other than sex.
Rather, we held that an employer could maintain a
pay differential based on prior salary (or based on any
other facially gender-neutral factor) only if it showed
that the factor “effectuate[s] some business policy” and
that the employer “use[s] the factor reasonably in light
of the employer’s stated purpose as well as its other
practices.” Id. at 876–77. We then noted that Allstate
had offered “two business reasons for its use of prior
salary” and directed the district court to evaluate
those reasons on remand. Id. at 877.
The County has offered four business reasons for
using Standard Operation Procedure 1440, under
which starting salaries are based primarily on prior
salary: (1) the policy is objective, in the sense that no
subjective opinions as to the new employee’s value
enters into the starting-salary calculus; (2) the policy
encourages candidates to leave their current jobs for
jobs at the County, because they will always receive a
5% pay increase over their current salary; (3) the
policy prevents favoritism and ensures consistency in
application; and (4) the policy is a judicious use of
taxpayer dollars. But, the district court did not
evaluate whether these reasons effectuate a business

111a
policy or determine whether the County used prior
salary “reasonably,” as required by Kouba. Rather,
the district court determined that, even though in
Kouba we held that the Equal Pay Act does not impose
a strict prohibition against the use of prior salary,
Kouba does not preclude a finding that an employer
may not use prior salary “as the only factor.” Rizo,
2015 WL 9260587, at *7. According to the district
court, “[t]he Ninth Circuit in Kouba was not called
upon to, and did not, rule on the question of whether a
salary differential based solely on prior earnings
would violate the [Equal Pay Act], even if motivated
by legitimate, non-discriminatory business reasons.”
Id. at *8. The district court then followed cases from
other circuits holding that prior salary alone cannot
justify a pay disparity. Id. at *8–9 (citing, among other
cases, Angove v. Williams-Sonoma, Inc., 70 Fed.Appx.
500, 508 (10th Cir. 2003); Irby v. Bittick, 44 F.3d 949,
954 (11th Cir. 1995); Price v. Lockheed Space
Operations Co., 856 F.2d 1503, 1506 (11th Cir. 1988);
Glenn v. Gen. Motors Corp., 841 F.2d 1567, 1570–71
(11th Cir. 1988)).
We do not agree with the district court that Kouba
left open the question of whether a salary differential
based solely on prior earnings violates the Equal Pay
Act. To the contrary, that was exactly the question
presented and answered in Kouba. The plaintiff in
Kouba alleged that Allstate’s “use of prior salary
caused the wage differential.” 691 F.2d at 875
(emphasis added). Although noting that Allstate
“question[ed]” whether its use of prior salary caused
the differential, we left the question of causation for
the district court to resolve on remand. Id. at 875 n.5.
It is true that Allstate, in setting an employee’s pay,

112a
considered factors other than prior salary, including
“ability, education, [and] experience.” Id. at 874.
However, we did not attribute any significance to
Allstate’s use of these other factors. Rather, we
focused on prior salary alone and determined that it
would be a “factor other than sex” within the meaning
of the Equal Pay Act, provided that Allstate could
show on remand that its use of prior salary was
reasonable and effectuated some business policy. Id.
at 876–78.
The plaintiff and the EEOC, as amicus curiae, argue
that prior salary alone cannot be a factor other than
sex because when an employer sets pay by considering
only its employees’ prior salaries, it perpetuates
existing pay disparities and thus undermines the
purpose of the Equal Pay Act. But this argument was
presented in Kouba, and the result we reached was to
allow an employer to base a pay differential on prior
salary so long as it showed that its use of prior salary
effectuated some business policy and that the
employer used the factor reasonably in light of its
stated purpose and its other practices. Id. We did not
draw any distinction between using prior salary
“alone” and using it in combination with other factors.
Moreover, we do not see how the employer’s
consideration of other factors would prevent the
perpetuation of existing pay disparities if, as we
assumed in Kouba and as is the allegation here, prior
salary is the only factor that causes the current
disparity. For example, assume that a male and a
female employee have the same education and number
of years’ experience as each other, but the male
employee was paid a higher prior salary than the
female employee. The current employer sets salary by

113a
considering the employee’s education, years of
experience, and prior salary. Using these factors, the
employer gives both employees the same salary credit
for their identical education and experience, but the
employer pays the male employee a higher salary than
the female employee because of his higher prior salary.
In this example, it is prior salary alone that accounts
for the pay differential, even though the employer also
considered other factors when setting pay. If prior
salary alone is responsible for the disparity, requiring
an employer to consider factors in addition to prior
salary cannot resolve the problem that the EEOC and
the plaintiff have identified.3
III.
Because Kouba holds that a pay differential based
on the employer’s use of prior salary can be “a
differential based on any other factor other than sex,”
we vacate the district court’s order denying the
County’s motion for summary judgment and remand
for further proceedings. On remand, the district court
must evaluate the four business reasons offered by the
County and determine whether the County used prior
salary “reasonably in light of [its] stated purpose[s] as
well as its other practices.” Kouba, 691 F.2d at 876–
77. We emphasize that because these matters relate
to the County’s affirmative defense rather than to the
3

We also note that, if an employer’s use of prior salary alone
were unacceptable under the Equal Pay Act, but the employer’s
mere consideration of some other factor in addition to prior salary
(other than sex) cured the problem, then in the present case the
County’s pay structure would be lawful. That is because, in
addition to prior salary, the County considers a new hire’s
education when setting pay, as reflected in the “stipend” that the
plaintiff received for holding a master’s degree.

114a
elements of the plaintiff’s claim, the County has the
burden of persuasion. See Maxwell, 803 F.2d at 446.
Thus, unlike in a typical case under Title VII involving
the burden-shifting method of McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d
668 (1973), the plaintiff does not have to present
evidence that the County’s explanation for the pay
differential is a pretext for intentional gender
discrimination. Rather, it is up to the employer to
persuade the trier of fact that its stated “factor other
than sex” actually caused the salary differential, that
the stated factor “effectuate[s] some business policy,”
and that the employer used the factor “reasonably in
light of [its] stated purpose as well as its other
practices.” Kouba, 691 F.2d at 876–77. Of course, the
plaintiff is free to introduce evidence of pretext (or any
other matter that casts doubt on the employer’s
affirmative defense) if it chooses to do so. Maxwell,
803 F.2d at 446.
VACATED and REMANDED. Each party shall
bear its own costs.

115a

APPENDIX D

United States District Court, E.D. California.
Aileen RIZO, Plaintiff,
v.
Jim YOVINO, Fresno County Superintendent of
Schools, Defendant.
CASE NO. 1:14-cv-0423-MJS
|
Signed December 17, 2015
|
Filed 12/18/2015
AMENDED ORDER DENYING DEFENDANT’S
MOTION FOR SUMMARY JUDGMENT
(ECF NO. 12);
ISSUING CERTIFICATION FOR
INTERLOCUTORY APPEAL; AND
VACATING JANUARY 12, 2016, TRIAL DATE
Michael J. Seng, UNITED STATES MAGISTRATE
JUDGE
I.

INTRODUCTION
HISTORY

AND

PROCEDURAL

Plaintiff initiated this action on February 3, 2014,
in the Fresno County Superior Court. She pled four

116a
causes of action: (1) violation of the federal Equal Pay
Act (“EPA”), 29 U.S.C. § 206(d); (2) sex discrimination
under California Government Code § 12940; (3) sex
discrimination under Title VII of the Civil Rights Act
of 196, 42 U.S.C. § 2000e et seq. (“Title VII”); and (4)
failure to prevent discrimination under California
Government Code § 12940(k).
Defendant
Jim
Yovino,
Fresno
County
Superintendent of Schools (erroneously sued as
Fresno County Office of Education), removed this
action to this Court on March 24, 2014, pursuant to 28
U.S.C. § 1441(c)(1)(A). The parties have consented to
the undersigned’s jurisdiction for all purposes. (See
ECF Nos. 6, 7.)
This matter is before the Court on Defendant’s
motion for summary judgment.
(ECF No. 12.)
Plaintiff has filed an opposition. (ECF No. 14.)
Defendant has filed a reply. (ECF No. 16.) On
November 19, 2015, the parties filed supplemental
briefs. (ECF Nos. 18, 19.) The Court heard argument
on the motion on November 25, 2015. The motion is
fully briefed and ready for disposition.
II.

LEGAL STANDARDS

Any party may move for summary judgment, and
the Court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(a);
Wash. Mut. Inc. v. United States, 636 F.3d 1207, 1216
(9th Cir. 2011). Each party’s position, whether it be
that a fact is disputed or undisputed, must be
supported by (1) citing to particular parts of materials
in the record, including but not limited to depositions,

117a
documents, declarations, or discovery; or (2) showing
that the materials cited do not establish the presence
or absence of a genuine dispute or that the opposing
party cannot produce admissible evidence to support
the fact. Fed R. Civ. P. 56(c)(1). The Court may
consider other materials in the record not cited to by
the parties, but it is not required to do so. Fed. R. Civ.
P. 56(c)(3); Carmen v. San Francisco Unified Sch.
Dist., 237 F.3d 1026, 1031 (9th Cir. 2001).
Plaintiff bears the burden of proof at trial, and to
prevail on summary judgment, she must affirmatively
demonstrate that no reasonable trier of fact could find
other than for her. Soremekun v. Thrifty Payless, Inc.,
509 F.3d 978, 984 (9th Cir. 2007). Defendants do not
bear the burden of proof at trial and, in moving for
summary judgment, they need only prove an absence
of evidence to support Plaintiff’s case. In re Oracle
Corp. Securities Litigation, 627 F.3d 376, 387 (9th Cir.
2010).
In judging the evidence at the summary judgment
stage, the Court may not make credibility
determinations or weigh conflicting evidence,
Soremekun, 509 F.3d at 984, and it must draw all
inferences in the light most favorable to the
nonmoving party and determine whether a genuine
issue of material fact precludes entry of judgment,
Comite de Jornaleros de Redondo Beach v. City of
Redondo Beach, 657 F.3d 936, 942 (9th Cir. 2011).

118a
III. UNDISPUTED FACTS1
A. Standard Operating Procedure No. 1440
(“SOP 1440”)
1. Overview
The Fresno County Office of Education’s (“FCOE”)
Management Salary Schedule sets forth the pay range
for management-level employees. It consists of twelve
levels. Each level has progressive steps within it. See
Gunner Decl., Ex. G. Plaintiff and other math
consultants were hired at Level 1. Level 1 has 10
steps, with pay ranging from $62,133 at Step 1 to
$81,461 at Step 10. Id.
Prior to November 2004, Standard Operation
Procedure No. 1038 (“SOP 1038”) set forth the criteria
for determining the proper step on the salary schedule
for management-level employees “based on experience
regarding the position awarded.” Gabriel Dep., Ex. 15,
ECF No. 14-3 at 89-91.
In November 2004, Standard Operation Procedure
No. 1440 (“SOP 1440”) was adopted to replace SOP
1038. Gabriel Dep., Ex. 15, ECF No. 14-3 at 99–100.
Under SOP 1440, a new management employee’s
initial salary step is determined by verifying the daily
rate of the employee’s most recent position, adding a
five-percent increase, and then placing that new
employee on the next step that pays an amount at or
above the five percent increase. Gabriel Decl. ¶ 4.
Experience is no longer a factor in determining a
candidate’s placement on the salary schedule. See
Gabriel Dep. at 49:2–6, Ex. 15. SOP 1440 also applies
1

All facts set forth herein are found to be without material
dispute unless noted otherwise.

119a
to FCOE employees being promoted. Gabriel Dep. at
27:2–5.
Laurie Gabriel, Administrator of FCOE’s Human
Resource’s Department, has worked for FCOE since
1998, first as the Director of Human Resources, then
Senior Director, and most recently as the
Administrator. Gabriel Decl. ¶ 2. Although the policy
of basing a management employee’s initial salary on
verified prior earnings plus a five-percent increase
was not written until November 2004, FCOE has
applied that policy since at least 1998 when Gabriel
was first hired. Gabriel Decl. ¶ 5; see also Gabriel Dep.
at 50:17—51:2.
2. Hiring Pursuant to SOP 1440
When a job opening at FCOE is posted, the salary
range is posted along with the job description. Dueck
Dep. at 18:21–22.
An applicant receives no
explanation as to how his or her starting salary will be
determined unless he or she asks. See Gabriel Dep. at
30:22—31:4. An applicant does not learn what his or
her actual starting salary will be until an offer is
made. Gabriel Dep. at 30:10—31:4; Dueck Dep. at
18:6–14.
Defendant Jim Yovino, first hired on July 31, 2006
as a Deputy Superintendent, is now the Fresno County
Superintendent for FCOE. Yovino Decl. ¶ 3. As
Superintendent, Yovino’s responsibilities include
determining how salaries are set. Yovino Decl. ¶ 3.
Yovino has hired or promoted a number of employees
pursuant to SOP 1440, including Eric Crantz, Tina
Nakasian, and Mike Chamberlain, all of whom work

120a
in Plaintiff’s department and in the same position as
Plaintiff2:
Tina Nakasian, a female, was hired on July 23,
2012, and placed on Step 8 of the management salary
schedule pursuant to SOP 1440. Yovino Decl. ¶ 6c.
Eric Crantz, a male, was “on loan” from another
Fresno County school district, Kingsburg Elementary
School District, in 2009. Yovino Decl. ¶ 6e. He was
being paid in accordance with that school district’s
salary schedule while performing services for FCOE.
Yovino Decl. ¶ 6e. In July 2012, Crantz was hired as
a permanent employee and placed on Step 9 of the
management salary schedule in accordance with SOP
1440. Yovino Decl. ¶ 6e; Crantz Dep. at 15:19–22, Ex.
19. Within a day after signing his hiring contract,
Crantz noticed that the salary information on it
incorrectly showed him earning more than he was
entitled to be paid. Crantz Dep. at 22:1–11. Within a
day of bringing the error to the attention of the human
resources department, Crantz signed a new contract
with the correct salary information. Crantz Dep. at
22:15–20, 24:4–25.
Mike Chamberlain, a male, was hired on July 23,
2012, and placed on Step 7 of the salary schedule.
Yovino Decl. ¶ 6d. When an offer was made to
Chamberlain, he was unaware that salaries were
determined by application of SOP 1440, and he tried
to negotiate a higher salary by pointing out relevant
contract and consultant work he did in addition to his

2

A fourth individual, Carl Veater, also worked as a math
consultant in Plaintiff’s department. He was hired on December
22, 2003, at Step 7. Gabriel Decl., Ex. C, ECF No. 12-6 at 3.

121a
primary job. Chamberlain Dep. at 16:14–23. Though
he felt that his concerns were listened to, see
Chamberlain Dep. at 17:16–25, his starting salary
remained as determined under SOP 1440. Yovino
Decl. ¶ 6d. Chamberlain’s starting salary was based
on a contract he had entered into with Caruthers
Unified School District commencing on July 1, 2012,
even though he had not actually begun work under
that contract. Yovino Decl. ¶ 7. A day or two after
signing his initial hiring contract, Chamberlain signed
a new contract because the initial contract had
incorrect
salary
information;
as
a
result
Chamberlain’s
salary
was
adjusted
down.
Chamberlain Dep. at 28: 3–19.
Since July 1, 2005, when Yovino’s predecessor was
hired, 9 female administrators were hired or promoted
into management positions and placed on a higher
step than Yovino’s and his predecessor’s initial
placements. Yovino Decl. ¶ 9. During the same time
frame, three male administrators were hired or
promoted into management positions and placed on a
step higher step than Yovino’s and his predecessor’s
initial placements. Yovino Decl. ¶ 9.
3. Deviations from SOP 1440
There have been times when Defendant has
deviated from the standards set forth in SOP 1440.
When Elaine Sotiropoulous was hired as a
management employee in January 2000, there were
three different versions of the management salary
schedule in effect. Yovino Decl. ¶ 8. Sotiropoulous
was placed on Step 3, which may have been one step
higher than she should have been placed under SOP
1440. Yovino Decl. ¶ 8.

122a
In October 2008, Mark Hammons was promoted
from an employee in the classified bargaining unit (a
12-month position) to a management position (an 11month position). Yovino Decl. ¶ 7. Under SOP 1440,
Hammons should have been placed at Step 1, but
Yovino approved placement at Step 2 because of the
fewer days Hammons would be working; otherwise,
Hammons’s promotion would have resulted in a pay
cut. Yovino Decl. ¶ 7; Gabriel Decl. ¶ 6.
B. Plaintiff’s Application and Employment
with FCOE
Plaintiff, a female, has a Bachelor of Science in
Mathematics Education, a Master’s degree in
Educational Technology, and a Master’s degree in
Mathematics Education. Pl. Dep. at 8:14–24, 9:2–14.
Her work experience includes teaching high school
math, physics and art at a public school, id. at 10:12–
22; working as a math department head and then
math curriculum designer at a publishing company,
id. at 11:2–19; and teaching math at a public school,
id. at 12:6–15, 15:4–10.
In September 2009, Plaintiff applied for a position
as a math consultant in the Science, Technology,
Engineering and Mathematics (STEM) Department at
FCOE. Yovino Decl. ¶ 11; Pl. Decl. ¶ 2; Pl. Dep.,
Attach. As part of her application, Plaintiff submitted
proof of her earnings at her previous position. Pl.’s
Dep. at 21:1–4.
Following two interviews, Lori Hamada offered
Plaintiff the math consultant position in October 2009
by with a starting salary at Step 1 of the salary
schedule pursuant to SOP 1440. Pl.’s Dep. at 20:5–7,
27:2–5; Yovino Decl. ¶ 11. Plaintiff understood that

123a
her salary was comparable to a person with as much
experience as she had. Pl. Dep. at 24:19–22.
Plaintiff’s last position paid her $50,630 plus $1,200
for her Master’s degree for 206 days. Pl. Dep. at 22:7–
12. Plaintiff’s starting salary at FCOE was $62,133,
plus a master’s degree stipend of $600 for 196 days of
work. Id. at 22:22:25, 27:2–5. Plaintiff was paid
$11,500 more than her previous salary for 20 fewer
days of work. Plaintiff remains employed at FCOE
and has received a raise each year. Id. at 95:4–6.
C. FCOE Math Consultants
The record is unclear as to how many math
consultants were in Plaintiff’s group at the time that
she filed her complaint. Defendant asserts that there
were five: Plaintiff (female), Tina Nakasian (female),
Eric Crantz (male), Mike Chamberlain (male), and
Carl Veater (male). Per the Joint Statement of
Undisputed Facts, Tina Nakasian was hired on July
23, 2012, before Plaintiff filed her complaint. See ECF
No. 12-17 at 2 ¶ 13. Plaintiff’s, however, maintains
that there were only four math consultants when she
filed her complaint and that she was the only female.
Pl. Decl. ¶¶ 5, 8.3
D. Complaint to Human Resources
On July 31, 2012, Plaintiff was having lunch with
several colleagues when she was informed by Eric
Crantz, who had just been hired, that he had been
placed on Step 9 of the salary schedule. Pl. Decl. ¶ 6.
3

It is undisputed that Tina Nakasian, a woman, works in the
same department and in the same position as Plaintiff, see J.
Statement of Undisputed Facts, ECF No. 12-17 at 3, see also Pl.
Dep. at 38:4–9.

124a
On August 7, 2012, Plaintiff complained to Gabriel
about the pay disparity between herself and her male
colleagues. Pl. Decl. ¶ 7; Gabriel Decl., Ex. D. Based
on Plaintiff’s concerns, Gabriel requested that reports
be compiled on management employees as of August
2012 who held the same or similar classifications as
Plaintiff. Gabriel Decl. ¶ 9. The results demonstrated
to Defendant that there was no significant difference
between men and women insofar as their initial
placement on the salary scale.4 Id.
Based on the results of the reports, on August 31,
2012, Gabriel wrote a letter to Plaintiff, explaining
that Plaintiff’s placement on the salary schedule was
consistent with SOP 1440 and not discriminatory.
Gabriel Decl. ¶ 10, Ex. D. Gabriel also informed
Plaintiff that a review of current management
employees hired over the past 25 years demonstrated
that consistent application of SOP 1440 had placed
more females higher on the salary schedules than
males in the same or similar position in the same
department.5 Id.

4 The same reports were prepared twice more, in January 2013
and June 2014, with similar results. Gabriel Decl. ¶ 9.
5 Several days after filing the complaint, Plaintiff’s supervisor,

Jon Dueck, remarked in front of others that because FCOE was
applying for a grant whose purpose was to serve women and
minorities, Plaintiff should write the grant. Pl. Decl. ¶ 9. Dueck
said, “You’re a girl and you’re a minority, why don’t you write that
grant.” Pl. Decl. ¶ 9. Dueck laughed about the comment with
another male co-worker. Pl. Decl. ¶ 9. Even though Plaintiff
found the comment to be inappropriate, she never discussed it
with Dueck never reported the incident to human resources.
Dueck Dep. at 26:3–5; Pl. Dep. at 81:17–19, 88:18–20. Defendant
moves, in part, for summary judgment on Plaintiff’s fourth claim

125a
IV. EVIDENTIARY MATTERS
A. Plaintiff’s Request for Judicial Notice
Plaintiff asks the Court to take judicial notice of the
United States Department of Labor Bureau of Labor
Statistics’ 2014 survey results of earnings of male and
female employees by occupation, which she attached
to her request and is also available at
http://www.bls.gov/cps/cpsaat39.pdf. (ECF No. 14-5.)
Though Plaintiff does not state why she seeks judicial
notice of this document in her request, her opposition
refers to it as evidence of a pay disparity between male
and female educators. Opp’n at 21–22.
Defendant objects to this request on the ground that
Plaintiff fails to authenticate or lay a foundation for
the document or show how the “facts” contained
therein are capable of accurate and ready
determination.
Defendant also objects that the
document reflects wages nationwide, not wages of
male and female educators in California and Arizona,
the states where the salaries at issue here were
determined.
The Court may take judicial notice of matters that
are either “generally known within the trial court’s
territorial jurisdiction” or “can be accurately and
readily determined from sources whose accuracy
cannot reasonably be questioned.” Fed. R. Evid.
– failure to prevent discrimination – on the ground that it could
not have prevented discrimination with regard to Jon Dueck’s
statements because Plaintiff never complained about the
statements. The opposition, however, clarifies that Plaintiff’s
fourth claim is actually premised on Defendant’s failure to
discontinue application of SOP 1440 following Plaintiff’s
complaint. It is not based on Jon Dueck’s statements.

126a
201(b). Under Federal Rule of Evidence 901, evidence
that a public record or report is from the public office
where items of that nature are kept satisfies the
requirement that admitted evidence be authenticated.
Premier Nutrition, Inc. v. Organic Food Bar, Inc., 2008
WL 1913163, at *5 (C.D. Cal. Mar. 27, 2008) aff’d, 327
Fed. Appx. 723 (9th Cir. 2009). The printout also
bears “distinctive characteristics” of the agencies’
websites. Haines v. Home Depot U.S.A., Inc., 2012 WL
1143648, at *7 (E.D. Cal. Apr. 4, 2012) (“courts have
considered the ‘distinctive characteristics’ of the
website in determining whether a document is
sufficiently authenticated.” (Citations omitted)).
Rule 902 allows for the self-authentication of
certain documents, including official publications:
“Books, pamphlets, or other publications purporting to
be issued by public authority.” Fed. R. Evid. 902(5);
Paralyzed Veterans of Am. v. McPherson, 2008 WL
4183981, at *7 (N.D. Cal. Sept. 9, 2008). Federal
courts routinely consider records from government
websites to be self-authenticating. See, e.g., Estate of
Gonzales v. Hickman, 2007 WL 3237727, at *2 (C.D.
Cal. May 30, 2007); Lorraine v. Markel Am. Ins. Co.,
241 F.R.D. 534, 551 (D. Md. 2007) (“Given the
frequency with which official publications from
government agencies are relevant to litigation and the
increasing tendency for such agencies to have their
own websites, Rule 902(5) provides a very useful
method of authenticating these publications. When
combined with the public records exception to the
hearsay rule, Rule 803(8), these official publications
posted on government agency websites should be
admitted into evidence easily.”); U.S. ex rel. Parikh v.
Premera Blue Cross, 2006 WL 2841998, at *4 (W.D.

127a
Wash. Sept. 29, 2006) (considering documents that can
be found on Government websites, such as GAO
Reports and Health and Human Services’ Reports selfauthenticating).
Here, the printout from Bureau of Labor Statistics
is an official United States Government publication
that is accessible via the government entity’s website.
The Court therefore deems it an “Official Publication”
under Rule 902(5) and considers it properly
authenticated. As it relates to this case, the survey
results establish that, on average and in the United
States as a whole, male teachers out-earn their female
counterparts.6 The Court will take judicial notice of
this fact.
B. Defendant’s Objections
Defendant also objects that Plaintiff has in
numerous places mischaracterized the record or
deposition testimony and made arguments premised
on inadmissible hearsay.
The Court has
independently reviewed and evaluated the deposition
transcripts and other evidence and does not rely on
either party’s characterization of the evidence in

6

During oral arguments, defense counsel disputed that this
survey reflected a pay disparity between male and female
educators. The Court finds otherwise. The document
demonstrates that the median weekly earnings of full-time
workers in the “Education, training, and library occupations” are
$1,140 for men and $897 for women. A pay disparity also is shown
for each of the subjections thereunder, which include postsecondary teachers ($1,409 for men and $1,143 for women);
secondary school teachers ($1,108 for men and $984 for women);
and elementary and middle school teachers ($1,096 for men and
$956 for women).

128a
reaching its decision. Accordingly, the objections are
moot and overruled on that ground.
V.

DISCUSSION
A. The Equal Pay Act

The Equal Pay Act (“EPA”) makes it unlawful for
employers to pay employees of one sex less than
employees of the opposite sex “for equal work on jobs
the performance of which requires equal skill, effort,
and responsibility, and which are performed under
similar working conditions.” 29 U.S.C. § 206(d)(1).
The Ninth Circuit employs a burden-shifting
framework in evaluating EPA claims. The plaintiff
initially has the burden of establishing a prima facie
case by demonstrating that employees of the opposite
sex were paid different wages for work that was
“substantially equal.” See Stanley v. Univ. of S. Cal.,
178 F.3d 1069, 1073–74 (9th Cir. 1999).
The
“substantially equal” inquiry involves two discrete
steps. First, the plaintiff must show that the jobs
being compared “have a common core of tasks.” Id. at
1074 (internal quotation marks omitted). If the
plaintiff makes this showing, “the court must then
determine whether any additional tasks, incumbent
on one job but not the other, make the two jobs
‘substantially different.’” If the jobs entail substantial
differences in skill, effort, or responsibility, or if the
jobs are not performed under similar working
conditions, the claim must fail. See Forsberg v. Pac.
Nw. Bell Tel. Co., 840 F.2d 1409, 1414 (9th Cir. 1988)
(explaining that each criterion must be met).
Once the plaintiff establishes a prima facie case, the
burden shifts to the employer to demonstrate that the
wage disparity is attributable to one of four statutory

129a
exceptions: “(i) a seniority system; (ii) a merit system;
(iii) a system which measures earnings by quantity or
quality of production; or (iv) a differential based on any
other factor other than sex.” 29 U.S.C. § 206(d)(1).
“These exceptions are affirmative defenses which the
employer must plead and prove.” Maxwell v. City of
Tucson, 803 F.2d 444, 446 (9th Cir. 1986) (internal
quotation marks omitted). If the employer establishes
one of the affirmative defenses, the burden shifts back
to the plaintiff to show that “the employer’s proffered
nondiscriminatory reason is a pretext for
discrimination.” Stanley, 178 F.3d at 1076 (internal
quotation marks omitted).
1. Plaintiff’s Prima Facie Case
In making her prima facie case under the EPA,
Plaintiff asserts that she is a woman who was started
at a lower step on the salary schedule than her male
coworkers despite being hired for substantially equal
work. The evidence before the Court confirms that
Plaintiff started at Step 1 on the management salary
schedule, Mike Chamberlain started at Step 7, Carl
Veater started at Step 7, and Eric Crantz started at
Step 9. Plaintiff omits mention of the second female
in this group, Tina Nakasian, who started at Step 8
and thus was higher on the salary schedule than two
of the three males. However, “[t]he existence of a
female in the higher classification does not … defeat
the plaintiff’s prima facie showing of wage
discrimination.” E.E.O.C. v. Maricopa County Comm.
College Dist., 736 F.2d 510, 515 (9th Cir. 1984)
(internal citation omitted). “[T]he proper test for
establishing a prima facie case in a professional
setting … is whether the plaintiff is receiving lower
wages than the average of wages paid to all employees

130a
of the opposite sex performing substantially equal
work and similarly situated with respect to any other
factors, such as seniority, that affect the wage scale.”
See Hein v. Oregon College of Educ., 718 F.2d 910, 916
(9th Cir. 1983). The Court finds, and Defendant does
not dispute, that Plaintiff has met her burden here.
She has established a prima facie case.
2. Defendant’s Affirmative Defense: Prior
Salary
The burden now shifts to Defendant to show that
the wage disparity caused by SOP 1440 derives from a
system which falls within one of EPA’s four exceptions.
Defendant’s affirmative defense rests on the fourth
catch-all provision, i.e., that the salary difference
results from a factor other than sex, namely
application of a facially-neutral policy, SOP 1440.
Salary differences that result from unequal starting
salaries “do not violate the Equal Pay Act if the
original salary can be justified by one of the four
exceptions to the Equal Pay Act.” Hein, 718 F.2d at
920. Defendant asserts that FCOE’s policy qualifies
as such because it determines an applicant’s starting
salary solely by reference to his or her prior salary and
does so for four business reasons: (1) SOP 1440 is
objective; (2) it is effective in attracting quality new
employees; (3) it prevents favoritism and ensures
consistency; and (4) it is a judicious use of taxpayer
dollars.
Plaintiff argues, however, that an employer’s
reliance solely on prior salary in setting starting
salaries is prohibited by the EPA. Defendant counters
that the Ninth Circuit has unequivocally found that
the EPA allows an employer’s consideration of prior

131a
salary. Both parties rely on Kouba v. Allstate Ins. Co.,
691 F.2d 873, 878 (9th Cir. 1982). There, the Ninth
Circuit held that the EPA does not impose a per se
prohibition against consideration of prior salary in
setting a new employee’s salary. But there, prior
salary was but one of several factors considered by the
employer.
This case thus obligates this Court to determine if
the Ninth Circuit’s approval of the use of prior salary
as one factor extends to condone its use as the only
factor. To address this issue and better understand
the parties’ arguments as well as this Court’s ultimate
determination, it is helpful to review the history and
context of Kouba as well as subsequent judicial
comment on it. In Kouba, Plaintiff represented a class
of female insurance agents who accused Allstate of
unlawful sex discrimination for using prior salary as
one of several factors in determining an employee’s
starting pay. The district court entered partial
summary judgment for Plaintiff. It held in essence
that the EPA prohibited consideration of prior salary
absent an affirmative showing that the employer had
attempted to “ascertain[ ] whether or not the previous
salary was itself based upon factors other than sex.”
Kouba v. Allstate Ins. Co., 523 F. Supp. 148, 163 (E.D.
Cal. 1981). The district court was concerned that
Allstate’s policy would perpetuate historic sex
discrimination. It therefore sought to provide judicial
guidance as to how to limit such an effect: “Although
the issue is not without its difficulties, it thus appears
to me that as a matter of law an employer may not set
a salary schedule which differentiates between its
male and female employees doing the exact same job,
based upon the immediate past salaries paid to the

132a
men and women, unless it can demonstrate that it has
assessed the previous salaries and determined that
they themselves were set on “other factors other than
sex.” “ The district court went on to suggest that a
prospective employer could evaluate the previous
salaries by contacting the previous employer and
inquiring about its hiring practices. Id. at 162–63, 163
n.15.
The Ninth Circuit rejected that approach. In
reversing and remanding, it held that “the Equal Pay
Act does not impose a strict prohibition against the use
of prior salary.” Kouba, 691 F.2d at 876. While the
appellate court “share[d] the district court’s fear that
an employer might manipulate its use of prior salary
to underpay female employees,” it observed that a
court’s ability to protect against such abuse was
“somewhat limited” since the Equal Pay Act “entrusts
employers, not judges, with making the often
uncertain decision of how to accomplish business
objectives.” Id. A pragmatic standard, “which protects
against abuse yet accommodates employer discretion,
is that the employer must use the [prior salary] factor
reasonably in light of the employer’s stated purpose as
well as its other practices.” Id. at 876–77. The Ninth
Circuit recognized the possibility that a business
reason could prove to be a pretext for discrimination
and that the risk of that is “especially great with a
factor like prior salary which can easily be used to
capitalize on the unfairly low salaries historically paid
to women.” Id. at 876. Nonetheless, it held that a
violation of the EPA will not be found if the prior
salary was “use[d] reasonably in light of the
employer’s stated purpose as well as its other
practices.” Id.

133a
As noted, Plaintiff seeks to limit Kouba’s import to
those cases where prior salary is but one of several
factors considered by an employer. Defendant, on the
other hand, argues that there is no material difference
between this case and Kouba. It urges the Court to
find that under Kouba consideration of prior salary,
whether alone or in combination with other factors, is
permissible so long as its use is reasonably related to
an employer’s legitimate business reasons.
The Ninth Circuit in Kouba was not called upon to,
and did not, rule on the question of whether a salary
differential based solely on prior earnings would
violate the EPA, even if motivated by legitimate, nondiscriminatory business reasons. Courts who have
considered this issue are split. There are those who
have held that an employer’s EPA defense may not be
based solely on prior salary. See, e.g., Irby v. Bittick,
830 F. Supp. 632, 636 (M.D. GA Sept. 8, 1993) (“If prior
salary alone were a justification, the exception would
swallow up the rule and inequality in pay among
genders would be perpetuated.”), aff’d on appeal, 44
F.3d 949, 954 (11th Cir. 1995) (“We have consistently
held that ‘prior salary alone cannot justify pay
disparity’ under the EPA.”) Angove v WilliamsSonoma, Inc., 70 Fed. Appx. 500, 508 (10th Cir. 2003)
(citing Irby in holding that “[t]he EPA only precludes
an employer from relying solely upon a prior salary to
justify pay disparity.”) (emphasis in original). See also
Price v. Lockheed Space Operations Co., 856 F.2d 1503,
1506 (11th Cir. 1988) (“Kouba does not stand for the
proposition that prior salary alone can justify pay
disparity. Rather, the Ninth Circuit held that ‘the
Equal Pay Act does not impose a strict prohibition
against the use of prior salary.’”); Lewis v. Smith, 255

134a
F. Supp. 2d 1054, 1063 (D. Ariz. Apr. 4, 2003) (holding
that “merely relying on the prior salary of an
employee, without analyzing the market value of the
employer’s [sic] skills, is insufficient to establish an
equal pay defense.”) (internal citations omitted);
Wachter-Young v. Ohio Cas. Group, 236 F. Supp. 2d
1157, 1164 (D. Or. May 14, 2002) (“While an employer
may not overcome the burden of proof on the
affirmative defense of relying on ‘any other factor
other than sex’ by resting on prior pay alone...there is
no prohibition on utilizing prior pay as part of a mixedmotive.”) (citing Irby, 44 F.3d at 954); Wyant v.
Burlington Northern Santa Fe R.R., 210 F. Supp. 2d
1263, 1291 (N.D. Ala. Jun. 5, 2002) (“[Defendant]’s
reference to [Plaintiff]’s prior salary in setting current
salary alone is not a legitimate factor other than sex.”).
Other courts, however, have expressly held that an
employer may rely on prior salary alone. See, e.g.,
Wernsing v. Dep’t of Human Srvcs, State of Illinois,
427 F.3d 466 (7th Cir. 2005) (rejecting the plaintiff’s
argument that use of prior salary alone violates the
EPA); Taylor v. White, 321 F.3d 710, 720 (8th Cir.
2003) (“[W]e believe a case-by case analysis of reliance
on prior salary or salary retention policies with careful
attention to alleged gender-based practices preserves
the business freedoms Congress intended to protect
when it adopted the catch-all “factor other than sex”
affirmative defense.”); Groussman v. Respiratory
Home Care, 1985 WL 5621, at *X (C.D. Cal. 1985)
(finding that employer satisfied its burden under the
EPA by demonstrating that the salary differentials
were based on prior salary alone).
The Eleventh Circuit’s analysis in Glenn v. General
Motors Corp., 841 F.2d 1567 (11th Cir. 1988), is

135a
helpful.
In that case, GM claimed to have “a
longstanding, unwritten, corporate-wide policy
against requiring an employee to take a cut in pay
when transferring to salaried positions” from hourly
positions. 841 F.2d at 1570. As a result, the female
plaintiffs in that case were paid less than their male
comparators who had transferred from higher-paying
hourly jobs in the company. The Eleventh Circuit
rejected this policy as insufficient to establish a “factor
other than sex” for the affirmative defense. It
reviewed the legislative history of the Equal Pay Act,
finding that it “indicates that the ‘factor other than
sex’ exception applies when the disparity results from
unique characteristics of the same job; from an
individual’s experience, training, or ability; or from
special exigent circumstances connected with the
business.” Id. at 1571 (emphasis added). “[P]rior
salary alone cannot justify pay disparity.” Id. In a
footnote, the Glenn court addressed Kouba:
Contrary to GM’s gloss, Kouba v. Allstate Ins. Co.,
691 F.2d 873 (9th Cir. 1982), does not stand for
the proposition that prior salary alone can justify
pay disparity. In Kouba, the Ninth Circuit held
that “the Equal Pay Act does not impose a strict
prohibition against the use of prior salary.” Id.
at 878. The Ninth Circuit added that “while we
share the district court’s fear that an employer
might manipulate its use of prior salary to
underpay female employees, the [district] court
must find that the business reasons given by
[defendant] Allstate do not reasonably explain its
use of the factor before finding a violation of the
Act.” Id. Allstate had claimed that it used prior
salary to predict a new employee’s performance

136a
as a sales agent. Id. The Ninth Circuit held that
strict relevant considerations needed to be
evaluated on remand to decide whether Allstate
could rely on prior salary. Kouba is consistent
with the present case because the Ninth Circuit
would permit use of prior salary where the prior
job resembled the sales agent position and where
Allstate relied on other available predictors. In
the present case, GM does not argue that the
males’ hourly wages serve to predict that males
will be better follow-ups than the female
appellees. Nor does the evidence in the record as
a whole support that GM could resort to any
other factor than the prior salary to justify the
pay disparity.
841 F.3d at 1571 n.9.
This Court then is faced with the task of passing on
the propriety, under the EPA, of Defendant’s
application of SOP 1440. It must do so within the
framework of the foregoing divergent legal authorities
and within a factual scenario that leads to the finding
— undisputed by Plaintiff — that SOP 1440 was, at
least on its face, designed to be objective and genderneutral. Considering all of the above, the Court
concludes
that,
notwithstanding
its
nondiscriminatory purpose, SOP 1440 necessarily and
unavoidably conflicts with the EPA.
In doing so, this Court will follow the Tenth and
Eleventh Circuits and find that a pay structure based
exclusively on prior wages is so inherently fraught
with the risk – indeed, here, the virtual certainty—
that it will perpetuate a discriminatory wage disparity
between men and women that it cannot stand, even if

137a
motivated by a legitimate non-discriminatory business
purpose. The evidence in this record reflects an
across-the-board pay disparity between male and
female educators nationwide. Lateral hiring salary
plans such as SOP 1440 which do not look beyond prior
salary will perpetrate that disparity. Defendant’s
application of SOP 1440 “contravene[s] Congress’
intent and perpetuate[s] the traditionally unequal
salaries paid to women for equal work.” Price, 856
F.2d at 1506; see also Corning Glass Works v. Brennan,
417 U.S. 188, 205 (1974) (A pay differential which
“ar[ises] simply because men would not work at the
low rates paid women...[and reflect][s] a job market in
which [the employer] could pay women less than men
for the same work” is not based on a cognizable factor
other than sex under the Equal Pay Act.). To say that
an otherwise unjustified pay differential between
women and men performing equal work is based on a
factor other than sex because it reflects historical
market forces which value the equal work of one sex
over the other perpetuates the market’s sex-based
subjective
assumptions
and
stereotyped
misconceptions Congress passed the Equal Pay Act to
eradicate. Corning Glass, 417 U.S. at 210–11.
Defendant has not met his burden to assert as an
affirmative defense a qualifying justification for the
wage differential present here. Accordingly, summary
judgment will be denied.
B. Title VII
Title VII makes it “an unlawful employment
practice for an employer” to “discriminate against any
individual with respect to” the “terms, conditions, or
privileges of employment, because of such individual’s

138a
race, color, religion, sex, or national origin.” 42 U.S.C.
§ 2000e–2(a).
The Court begins its analysis by highlighting the
appropriate legal standard applicable to Plaintiff’s
Title VII claim since the parties’ briefs demonstrate
confusion. As a starting point, EPA and Title VII
claims overlap since both statutes render it unlawful
to differentiate “in wages on the basis of a person’s
sex.” Lewis, 255 F. Supp. 2d at 1059 (quoting Maxwell,
803 F.2d at 446). There are, however, important
differences between the two statutory schemes. Title
VII, for example, places a broader prohibition on
discriminatory wages than the EPA and, unlike the
EPA, permits a plaintiff to pursue a claim without
showing substantial equality of jobs with different pay
rates. County of Washington v. Gunther, 452 U.S. 161,
169–71, 179–80 (1981); Lewis, 255 F. Supp. 2d at
1060–61. Also, whereas the EPA “creates a type of
strict liability; no intent to discriminate need be
shown,” Maxwell, 803 F.2d at 446, a claim brought
pursuant to Title VII typically involves a showing of
discriminatory intent. Texas Dept. of Community
Affairs v. Burdine, 450 U.S. 248, 253–54 (1981).
The standard applicable to a plaintiff’s Title VII
claim depends on the theory upon which it is based.
When a plaintiff asserts a Title VII claim that is
premised on unequal pay for equal work, it is analyzed
under EPA standards. Maxwell, 803 F.2d at 446;
Gunther v. Washington County, 623 F.2d 1303, 1318
(9th Cir. 1979) (“When a discrimination claim is based
on a theory that the plaintiffs are denied equal pay for
equal work, Equal Pay Act standards are applicable.”)
(supplemental opinion denying hearing), aff’d, County
of Washington v. Gunther, 452 U.S. 161 (1981). Of

139a
course, a Title VII cause of action can also exist outside
the scope of the EPA. Gunther, 452 U.S. at 181;
Spaulding v. University of Washington, 740 F.2d 686,
699–700 (9th Cir. 1984) overruled on other grounds,
Atonio v. Wards Cove Packing Co., Inc., 810 F.2d 1477
(9th Cir. 1987); Lewis, 255 F. Supp. 2d at 1060. Thus,
“[w]hen a claim of discrimination is not based on an
equal work theory, it must be analyzed separately
under Title VII.” Maxwell, 803 F.2d at 446 (emphasis
added).
Here, Plaintiff’s claim is premised on a theory of
unequal pay for equal work. See Pl.’s Opp’n at 1 (“[A]
discriminatory pay claim under Title VII and FEHA is
analyzed the same way as a claim under the Equal Pay
Act”); Def.’s Mot. Summ. J. at 11 (Plaintiff’s EPA, Title
VII and FEHA claims “alleg[e] essentially the same
thing: Plaintiff was paid less than male math
Consultants for equivalent work”). Accordingly, EPA
standards apply to Plaintiff’s Title VII claim.
Maxwell, 803 F.2d at 446. “[T]he dispositive issue[,
therefore,] is whether [Defendant] established a
defense to [Plaintiff]’s claims. If [Defendant] can
establish a defense, it prevails; if it cannot, [Plaintiff]
prevails.” Id.
As discussed supra, Defendant cannot establish an
affirmative defense under the EPA based on its use of
prior salary alone. Since Defendant has not asserted
any other viable defense, its motion for summary
judgment must be denied.
C. FEHA: Wage Discrimination
Under California’s Fair Employment and Housing
Act (“FEHA”), it is illegal for an employer to
discriminate against an employee “in compensation or

140a
in terms, conditions, or privileges of employment” on
the basis of sex. Cal. Gov’t Code Code § 12940(a).
“Because
state
and
federal
employment
discrimination laws are similar, California courts look
to federal precedent when interpreting FEHA.” Guz v.
Bechtel Nat’l, Inc., 24 Cal. 4th 317, 354 (2000); see also
Metoyer v. Chassman, 504 F.3d 919, 941 (9th Cir.
2007) (“California courts apply the Title VII
framework to claims brought under FEHA.”) (citing
Guz, 24 Cal. 4th at 354).
Under this framework, Defendant’s motion for
summary judgment on the FEHA claim also will be
denied.
D. FEHA:
Failure
mination

to

Prevent

Discri-

California Government Code § 12940(k) provides
that it is unlawful “for an employer...to fail to take all
reasonable steps necessary to prevent discrimination
and harassment from occurring” in the workplace.
“When a plaintiff seeks to recover damages based on a
claim of failure to prevent discrimination or
harassment [ ]he must show three essential elements:
1) plaintiff was subjected to discrimination,
harassment or retaliation; 2) defendant failed to take
all reasonable steps to prevent discrimination,
harassment or retaliation; and 3) this failure caused
plaintiff to suffer injury, damage, loss or harm.”
Lelaind v. City and County of San Francisco, 576 F.
Supp. 2d 1079, 1103 (N.D. Cal. 2008). “One such
reasonable step, and one that is required in order to
ensure a discrimination-free work environment, is a
prompt investigation of [a] discrimination claim.”
California
Fair
Employment
and
Housing

141a
Commission v. Gemini Aluminum Corporation, 122
Cal. App. 4th 1004, 1024 (2004) (citing Northrop
Grumman Corp. v. Workers’ Comp. Appeals Bd., 103
Cal. App. 4th 1021, 1035 (2002)).
This claim is premised on Defendant’s conclusion
that SOP 1440 is not discriminatory following its
investigation of Plaintiff’s complaint to human
resources. Defendant moves for summary judgment
on the ground that “[t]he fact that FCOE determined
SOP 1440 did not discriminate against women and
that Plaintiff was treated entirely consistent with the
policy by no means equates to failure to prevent
discrimination.”
Def.’s Mot. Summ. J. at 12.
Defendant’s argument is conclusory and unsupported
by citation to authority. Absent legal authority for
doing so, this Court can not absolve an employer of
liability for failing to prevent discrimination simply
because it investigated a complaint of a discriminatory
policy. Summary judgment will be denied.
VI. CERTIFICATION FOR INTERLOCUTORY
APPEAL
1. Legal Standard
The final judgment rule ordinarily provides that
courts of appeal shall have jurisdiction only over “final
decisions of the district courts of the United States.”
28 U.S.C. § 1291. However, “[w]hen a district judge,
in making in a civil action an order not otherwise
appealable under this section, shall be of the opinion
that such order involves a controlling question of law
as to which there is substantial ground for difference
of opinion and that an immediate appeal from the
order may materially advance the ultimate
termination of the litigation, he shall so state in

142a
writing in such order.” 28 U.S.C. § 1292(b). “The
Court of Appeals which would have jurisdiction of an
appeal of such action may thereupon, in its discretion,
permit an appeal to be taken from such order.” Id.
“Certification under § 1292(b) requires the district
court to expressly find in writing that all three
§ 1292(b) requirements are met.” Couch v. Telescope
Inc., 611 F.3d 629, 633 (9th Cir. 2010). “Section
1292(b) is a departure from the normal rule that only
final judgments are appealable, and therefore must be
construed narrowly.” James v. Price Stern Sloan, Inc.,
283 F.3d 1064, 1067 n.6 (9th Cir. 2002). To that end,
“section 1292(b) is to be applied sparingly and only in
exceptional cases.” In re Cement Antitrust Litig. (MDL
No. 296), 673 F.2d 1020, 1027 (9th Cir. 1981), aff’d sub
nom. Arizona v. Ash Grove Cement Co., 459 U.S. 1190
(1983).
2. Discussion
In order to certify an order for interlocutory appeal
pursuant to 28 U.S.C. § 1292(b), the court must find
that an interlocutory order: (1) involves a controlling
question of law; (2) there is substantial ground for
difference of opinion on that question; and (3) a
resolution of the legal issue will materially advance
the ultimate termination of the litigation. 28 U.S.C.
§ 1292(b).
“A question of law may be deemed
‘controlling’ if its resolution is quite likely to affect the
further course of the litigation, even if not certain to
do so.”
Sokaogon Gaming Enter. v. TushieMontgomery Assoc., 86 F.3d 656, 659 (7th Cir. 1996)
(citations omitted); Reese v. BP Exploration (Alaska)
Inc., 643 F.3d 681, 688 (9th Cir. 2011). An issue of law
may also be considered “controlling” if reversal of an
order would terminate the action. Genentech, Inc. v.

143a
Novo Nordisk A/S, 907 F. Supp. 97, 99 (S.D.N.Y.
1995).
The controlling issue in this case is: Whether, as a
matter of law under the EPA, an employer subject to
the EPA may rely on prior salary alone when setting
an employee’s starting salary? If the answer to this
question is “yes”, i.e., contrary to this Court’s
conclusion above, it likely will result in a grant of
Defendant’s motion for summary judgment and a
finding in favor of Defendant on liability on all claims.
As such, the first criterion for certification is satisfied.
The second factor requires a showing that there is a
“substantial ground for difference of opinion.” 28
U.S.C. § 1292(b). As noted in Couch v. Telescope, Inc.,
611 F.3d 629, 633 (9th Cir. 2010):
Courts traditionally will find that a substantial
ground for difference of opinion exists where “the
circuits are in dispute on the question and the
court of appeals of the circuit has not spoken on
the point, if complicated questions arise under
foreign law, or if novel and difficult questions of
first impression are presented.”
3 Federal
Procedure, Lawyers Edition § 3:212 (2010)
(footnotes omitted). However, “just because a
court is the first to rule on a particular question
or just because counsel contends that one
precedent rather than another is controlling does
not mean there is such a substantial difference of
opinion as will support an interlocutory appeal.”
Id. (footnotes omitted).
As discussed supra, there is substantial difference
of opinion on the question presented. Specifically, the
Tenth and Eleventh Circuits have held that an

144a
employer may not rely solely on prior salary. On the
other hand, the Seventh and Eighth Circuits have held
that an employer is not barred from relying on prior
salary alone. Put simply, there is a distinct split in
authority on the pure legal question presented by this
case and in this certification request. The question is
one of first impression in the Ninth Circuit. Hence,
the second factor also is satisfied.
The third factor requires that resolution of the legal
issue materially advance the ultimate termination of
the litigation.
28 U.S.C. § 1292(b).
As the
undersigned noted in the December 7, 2015, Order for
additional briefing, it appears that the Court’s denial
of Defendant’s motion for summary judgment
effectively resolves the issue of liability on Plaintiff’s
claims in her favor. If, however, the Ninth Circuit
determines that Defendant may rely solely on prior
salary in determining an applicant’s starting salary,
Defendant may likely avoid liability altogether and
see the litigation terminated in its favor.
For these reasons, the Court finds it prudent to certify
this action for interlocutory appeal.
VII. CONCLUSION
Based on the foregoing, IT IS HEREBY ORDERED
that:
1. Defendant’s June 10, 2015, motion for summary
judgment (ECF No. 12) is DENIED;
2. The Court CERTIFIES pursuant to 28 U.S.C.
§ 1292(b) that the legal issue identified in this
order – namely, whether, as a matter of law
under the EPA, 29 U.S.C. § 206(d), an employer
subject to the EPA may rely on prior salary
alone when setting an employee’s starting

145a
salary—is appropriate for interlocutory appeal.
The issue presented “involves a controlling
question of law as to which there is substantial
ground for difference of opinion and an
immediate appeal from the order may
materially advance the ultimate termination of
the litigation”; and
3. The January 12, 2016, trial in this matter is
hereby VACATED.
IT IS SO ORDERED.

146a

APPENDIX E

Aileen RIZO, Plaintiff–Appellee,
v.
Jim YOVINO, Fresno County Superintendent of
Schools, Erroneously Sued Herein as Fresno
County Office of Education, Defendant–
Appellant.
No. 16–15372
United States Court of Appeals, Ninth Circuit.
AUGUST 29, 2017
D.C. No. 1:14–cv–00423–MJS Eastern District of
California, Fresno
ORDER
THOMAS, Chief Judge:
Upon the vote of a majority of nonrecused active
judges, it is ordered that this case be reheard en banc
pursuant to Federal Rule of Appellate Procedure 35(a)
and Circuit Rule 35–3.
The three-judge panel
disposition in this case shall not be cited as precedent
by or to any court of the Ninth Circuit.

147a

APPENDIX F

29 U.S.C.A. § 206
§ 206. Minimum wage
Effective: June 30, 2016
Currentness
***
(d) Prohibition of sex discrimination
(1) No employer having employees subject to any
provisions of this section shall discriminate, within
any establishment in which such employees are
employed, between employees on the basis of sex by
paying wages to employees in such establishment at a
rate less than the rate at which he pays wages to
employees of the opposite sex in such establishment
for equal work on jobs the performance of which
requires equal skill, effort, and responsibility, and
which are performed under similar working
conditions, except where such payment is made
pursuant to (i) a seniority system; (ii) a merit system;
(iii) a system which measures earnings by quantity or
quality of production; or (iv) a differential based on any
other factor other than sex: Provided, That an
employer who is paying a wage rate differential in
violation of this subsection shall not, in order to
comply with the provisions of this subsection, reduce
the wage rate of any employee.
(2) No labor organization, or its agents, representing
employees of an employer having employees subject to

148a
any provisions of this section shall cause or attempt to
cause such an employer to discriminate against an
employee in violation of paragraph (1) of this
subsection.
(3) For purposes of administration and enforcement,
any amounts owing to any employee which have been
withheld in violation of this subsection shall be
deemed to be unpaid minimum wages or unpaid
overtime compensation under this chapter.
(4) As used in this subsection, the term “labor
organization” means any organization of any kind, or
any agency or employee representation committee or
plan, in which employees participate and which exists
for the purpose, in whole or in part, of dealing with
employers concerning grievances, labor disputes,
wages, rates of pay, hours of employment, or
conditions of work.
***

